<html>
<title> - THE FUTURE OF IRAQ</title>
<body><pre>[Senate Hearing 108-43]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-43

                           THE FUTURE OF IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 11, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


87-678              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     6
Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    48
Cordesman, Prof. Anthony H., Arleigh A. Burke Chair for Strategy, 
  Center for Strategic and International Studies, Washington, DC.    74
    Prepared statement...........................................    78
Feil, Col. Scott R., U.S. Army, (Ret.) executive director, Role 
  of American Military Power, Arlington, VA......................    65
    Prepared statement...........................................    69
Feith, Hon. Douglas J., Under Secretary of Defense for Policy, 
  Department of Defense, Washington, DC..........................    15
    Prepared statement...........................................    20
Grossman, Hon. Marc I., Under Secretary of State for Political 
  Affairs, Department of State, Washington, DC...................     7
    Prepared statement...........................................    12
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................    56
Zinni, Gen. Anthony C., U.S. Marine Corps, (Ret.), former 
  Commander in Chief, U.S. Central Command, Washington, DC.......    59
    Prepared statement...........................................    63

                                 (iii)

  

 
                           THE FUTURE OF IRAQ

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Voinovich, Alexander, Coleman, Sununu, Biden, Sarbanes, Kerry, 
Feingold, Boxer, Bill Nelson, and Corzine.
    The Chairman. This hearing of the Foreign Relations 
Committee will come to order.
    Last Thursday this committee heard testimony from Secretary 
of State Colin Powell, who joined us just one day after he 
presented powerful evidence of Iraq's noncompliance with the 
United Nations Security Council Resolution 1441. He detailed in 
his statement before the United Nations Security Council a 
compelling document, which was a great service to our Nation 
and to the world community.
    Today, for the third time this year, the Foreign Relations 
Committee turns its attention again to Iraq. We pose the 
question: What must we do to help ensure that Iraq becomes a 
secure and responsible member of the world community following 
any potential military action? When asking this question, we 
must avoid any tendency to view military operations in Iraq as 
separate from reconstruction of Iraq. In fact, our ability to 
secure allies for any necessary military action will be greatly 
enhanced if we have laid out a clear vision of how the United 
States will work with the international community to feed and 
to shelter Iraq's people, to help establish responsible 
governance, and to eliminate weapons of mass destruction.
    We must not assume that our commitment of armed forces will 
end if and when Saddam Hussein is dislodged from power. Even 
under the best post-Saddam scenarios, Iraq will remain an 
enormous security challenge that is likely to require 
substantial American and allied troops.
    Since Secretary Powell's appearance last week, the debate 
over Iraq has taken additional twists and turns. This past 
weekend Germany, Russia, and France proposed doubling or 
perhaps tripling international inspectors in Iraq with the 
support of peacekeepers to enforce what some have termed 
coercive inspections. Unfortunately, this proposal, as its 
predecessors, will fail in the absence of Iraqi compliance and 
cooperation.
    Hans Blix put it best when he said, and I quote: ``The 
principal problem is not the number of inspectors, but rather 
the active cooperation of the Iraqi side.'' Absent Iraqi 
cooperation, it is unclear what impact, if any, U-2 overflights 
and a law against weapons of mass destruction will have with 
regard to compliance with U.N. Resolution 1441. Saddam Hussein 
has not complied with past U.N. resolutions. He has not opened 
his weapons programs to independent auditors, the United 
Nations, and the IAEA. He continues his defiant rhetoric and 
refuses to disarm. Today, fully 12 years after Operation Desert 
Storm, the world continues to face threats posed by Iraq and 
its ruler.
    We have full confidence in the United States military, 
which is moving into the region with its allies in a 
comprehensive manner. Tens of thousands of our reservists have 
been called up, including one from our own midst, Commander 
Patrick Garvey, who will leave my staff next week to join the 
effort.
    With well over 100,000 troops already in theater and 
perhaps as many more on the way, our men and women in uniform 
and the technology and firepower they control will have every 
advantage. There is still hope that military action can be 
averted. Nevertheless, success in Iraq requires that the 
administration, the Congress, and the American people now think 
beyond current military preparations and move toward the 
enunciation of a clear post-conflict plan for Iraq and the 
region.
    We must articulate a plan that commences with a sober 
analysis of the costs and squarely addresses how Iraq will be 
securely governed and precisely what commitment the United 
States must undertake.
    Several groups of scholars and experts have produced 
blueprints for our post-conflict policy discussions. We will 
use those reports as a framework. And I thank the Council on 
Foreign Relations, the Center for Strategic and International 
Studies, the International Rescue Commission, the Brookings 
Institution, and others who have wrestled with these issues.
    In the same vein, the Washington Post posed several 
questions last Sunday that have been the subject of much 
examination by this committee. They are: Who will rule Iraq and 
how? Who will provide security? How long might U.S. troops 
conceivably remain? Will the United Nations have a role? And 
who will manage Iraq's oil resources?
    Unless the administration can answer these questions in 
detail, the anxiety of Arab and European governments, as well 
as that of many in the American public over our ``staying 
power,'' will only grow. We want to work with the 
administration to formulate a clear post-conflict plan. Such a 
plan must be embedded in a broader vision of how political 
liberalization and economic development can be fostered in the 
aftermath of potential military conflict.
    Today we will lay out the overarching problems ahead and 
focus on the security aspects. Forthcoming hearings will 
examine humanitarian assistance, reconstruction, public 
governance, economic development, and other critical issues. We 
will have before us two distinguished panels. The first panel, 
at the table now immediately before us, will feature Under 
Secretary of State Marc Grossman and Under Secretary of Defense 
Doug Feith, who will outline the administration's planning with 
respect to the future of Iraq.
    The second panel of defense security experts will attempt 
to paint a picture of the security challenges the coalition 
will face should the current regime be displaced, by whatever 
means. We look forward to the insights to be provided by 
General Anthony Zinni, Colonel Scott Feil, and Professor 
Anthony Cordesman.
    I look forward to consulting closely with the members of 
this committee and with the administration on thoughtful 
preparations for Iraq. Our security, our alliances, and our 
credibility will depend on undertaking a vigorous effort to 
move Iraq into the family of nations.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Last Thursday, this committee heard testimony from Secretary of 
State Colin Powell, who joined us one day after he presented powerful 
evidence of Iraq's non-compliance with U.N. Security Council Resolution 
1441. His detailed statement before the United Nations Security Council 
was a great service to our Nation and to the world community.
    Today, for the third time this year, the Foreign Relations 
Committee turns its attention to Iraq. We pose the question: what must 
we do to help ensure that Iraq becomes a secure and responsible member 
of the world community following any potential military action? When 
asking this question, we must avoid any tendency to view military 
operations in Iraq as separate from reconstruction of Iraq. In fact, 
our ability to secure allies for any necessary military action will be 
greatly enhanced if we have laid out a clear vision of how the United 
States will work with the international community to feed and shelter 
Iraq's people, help establish responsible governance, and eliminate 
weapons of mass destruction. We must not assume that our commitment of 
armed forces will end if and when Saddam Hussein is dislodged from 
power. Even under the best post-Saddam scenarios, Iraq will remain an 
enormous security challenge that is likely to require substantial 
American and allied troops.
    Since Secretary Powell's appearance last week the debate over Iraq 
has taken additional twists and turns. This past weekend, Germany, 
Russia and France proposed doubling or perhaps tripling international 
inspectors in Iraq with the support of peacekeepers to enforce what 
some have termed ``coercive inspections.'' Unfortunately this proposal, 
as its predecessors, will fail in the absence of Iraqi compliance and 
cooperation. Hans Blix put it best when he said: ``The principal 
problem is not the number of inspectors but rather the active 
cooperation of the Iraqi side.'' Absent Iraqi cooperation it is unclear 
what impact, if any, U-2 overflights and a law against weapons of mass 
destruction will have with regards to compliance with UN Resolution 
1441.
    Saddam Hussein has not complied with past U.N. Resolutions. He has 
not opened his weapons programs to the independent auditors--the United 
Nations and the IAEA. He continues defiant rhetoric and refuses to 
disarm. Today, fully 12 years after Operation Desert Storm, the world 
continues to face threats posed by Iraq and its ruler.
    We have full confidence in the United States military, which is 
moving into the region with its allies in a comprehensive manner. Tens 
of thousands of our Reserves have been called up, including one from 
our own midst, Commander Patrick Garvey, who will leave my staff next 
week to join the effort. With well over 100,000 troops already in 
theater and perhaps as many more on the way, our men and women in 
uniform and the technology and firepower they control will have every 
advantage. There is still hope that military action can be averted.
    Nevertheless, success in Iraq requires that the administration, the 
Congress and the American people think beyond current military 
preparations and move toward the enunciation of a clear post-conflict 
plan for Iraq and the region. We must articulate a plan that commences 
with a sober analysis of the costs and squarely addresses how Iraq will 
be secured and governed and precisely what commitment the United States 
must undertake.
    Several groups of scholars and experts have produced blueprints for 
our post-conflict policy discussions. We will use these reports as a 
framework. I thank the Council on Foreign Relations, the Center for 
Strategic and International Studies, the International Rescue 
Commission, the Brookings Institution, and others who have wrestled 
with these issues.
    In the same vein, the Washington Post posed several questions last 
Sunday that have been the subject of much examination by this 
committee:

  <bullet> Who will rule Iraq, and how?

  <bullet> Who will provide security?

  <bullet> How long might U.S. troops conceivably remain?

  <bullet> Will the United Nations have a role?

  <bullet> Who will manage Iraq's oil resources?

    Unless the administration can answer these question in detail, the 
anxiety of Arab and European governments, as well as that of the 
American public, over our ``staying power'' will only grow.
    We want to work with the administration to formulate a clear post-
conflict plan. Such a plan must be embedded in a broader vision of how 
political liberalization and economic development can be fostered in 
the aftermath of military conflict.
    Today, we will lay out the overarching problems ahead and focus on 
the security aspects. Forthcoming hearings will examine humanitarian 
assistance, reconstruction, public governance, economic development, 
and other critical issues.
    We will have before us two distinguished panels. The first panel 
will feature Under Secretary of State Marc Grossman and Under Secretary 
of Defense Doug Feith, who will outline the administration's planning 
with respect to the future of Iraq.
    The second panel of defense security experts will attempt to paint 
a picture of the security challenges that the coalition will face 
should the current regime be displaced, by whatever means. We look 
forward to the insights to be provided by General Anthony Zinni, 
Colonel Scott Feil, and Professor Anthony Cordesman.
    I look forward to consulting closely with the members of this 
committee and with the administration on thoughtful preparations for a 
post-Saddam Iraq. Our security, our alliances, and our credibility will 
depend on undertaking a vigorous effort to move Iraq into the family of 
nations.
    I welcome our witnesses.

    The Chairman. I call now upon the distinguished ranking 
member of our committee, Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman, for 
having this hearing. I think in a sense you and I have been 
like a broken record since last summer, attempting to focus on 
this subject.
    All the members sitting here before you now are from a 
generation, the so-called Vietnam generation, we may have had 
different views during the conduct of that war and we may have 
different views as to the consequences of that war, but I 
suspect, without talking to any of my colleagues, we would all 
agree on one thing: that the one lesson universally learned 
from Vietnam is that a foreign policy, no matter how well or 
poorly articulated, cannot be sustained without the informed 
consent of the American people.
    There is no informed consent today. The American people 
have no notion what we are about to undertake. They have 
focused on, in my experience in my State and in my region and 
other parts of the country, they have focused on the war in 
Iraq in terms of and from the perspective of the last war in 
Iraq. I believe--and I do not know what the polls would say, 
but I can tell you what my anecdotal evidence is, and I suspect 
my colleagues do not have very different views. I think most of 
our constituents think if we go to war, the war will be swift 
and successful, as close to bloodless as they have become 
accustomed to in Kosovo and in the last gulf war, and that 
Johnny and Jane are going to come marching home again quickly.
    There has been an overwhelming reluctance on the part of 
the administration to speak to, even acknowledge, in the 
witnesses we had in the summer, the necessity to have a 
significant concentration of American forces in place in Iraq 
for some period of time.
    We are going to hear from Colonel Feil and Mr. Cordesman 
and General Zinni. We have heard from them in the past. I 
believe they were here about 5 months ago, 6 months ago, 
telling us: Get ready. Not do not do it, but get ready. We are 
about to undertake an enormous, an enormous, responsibility, 
not only for our own safety's sake, but for the region's.
    That is not a reason not to proceed against Saddam Hussein, 
but it is a compelling reason to discuss in as much detail as 
possible what we are about to ask of the American people. I 
think they are fully prepared to do whatever is asked of them 
if it is rational. But I am very concerned--and I will say 
this, although I do not speak for the military. I had an 
opportunity to speak with a couple hundred troops assembled in 
the gulf not long ago, and they wanted to know whether or not, 
we were going to be there when it is over and the guns go 
silent? Where are we going to be when it came down to deciding 
we had to put another $10, $20, $30, $40, $50 billion--and the 
estimates vary greatly and it will depend on how the fighting 
takes place if it occurs.
    Are we going to make sure we do not do what we have done in 
Afghanistan? We have now safely committed the fate of 
Afghanistan in large part to the warlords. I am told when I 
speak to members of the administration things are all right in 
western Afghanistan, Ishmael Khan is in charge. I find that 
very reassuring. We now have essentially a mayor of Kabul, a 
guy named Karzai, and a struggle between what we have in 
Afghanistan and the warlords for control of Afghanistan.
    As far back as last spring, speaking to the French--
speaking for myself--speaking to the French Foreign Minister 
and Defense Ministers, the one thing that was most often raised 
with me was: All right, we think he should go, but when he 
goes, what are you going to do? Are you going to do what you 
are doing in Afghanistan?
    We have authorized $3.3 billion for Afghan reconstruction 
and security assistance over the next 4 years. But very little 
of this has been appropriated. We are told we do not need any 
more in Afghanistan.
    To state the obvious, Iraq is a heck of a lot more 
complicated, a heck of a lot more sophisticated, and they live 
in a neighborhood that is very, very, very, very complex, and 
so I do not think we are talking about the day after. I do not 
think we are talking about post-conflict policy in terms of 
weeks. I think we are talking about the decade after. That is 
just my view. I hope I can be dissuaded that that is the extent 
of the commitment.
    Mr. Chairman, maintaining a secure environment after a 
possible war with Iraq is going to be the sine qua non for any 
positive change we wish to bring to Iraq. I suspect we will 
discover the definition of security will take on a very broad 
dimension: patrolling cities and borders, mediating between 
rival groups, helping refugees return peacefully, remaking a 
new Iraqi army, helping those discharged find employment, and 
arbitrating the most mundane of local disputes.
    I predict to you that Kirkuk is going to make Metrovica 
look like a picnic. When the Senator from Nebraska and I had 
our little 7, 8-hour car ride through the mountains of northern 
Iraq in the middle of the night to meet with the Kurds, they 
went way out of their way to demonstrate to us how much 
progress they had made, and it was obvious they had, in their 
semi-state of autonomy up there since the ``no-fly zone'' has 
been imposed.
    We also were impressed by how much out of the way they went 
to tell us that the Barzani and Talibani clans were together 
and they were united and they were resolved. But then they 
would say as we were leaving: But by the way, Kirkuk. We have 
been ethnically expelled from Kirkuk for the past 20 years, 
methodically replacing Indo-European Kurd Sunni with an Arab 
Sunni. We are going home.
    The oil is a national asset, they quickly add, but Kirkuk 
is ours. You are going to guarantee that for us, are you not?
    So I just think, whatever we do, we have to understand we 
are about to make a significant commitment. And I hope we will 
not do the kinds of things we have done over the 30 years I 
have been here, and that is, decide to leave the women and men, 
the soldiers, after they do the fighting without a long-term 
commitment. We are going to give them whatever they need, even 
if it means reducing the tax cut, not having health care, not 
increasing money for education, not moving to fix our highways, 
not doing anything else.
    That is the single solitary first fundamental commitment we 
make. And I quite frankly expect the President to keep the 
commitment he made publicly, privately to a bunch of us, and to 
me personally, that he will tell the American people that is 
the deal, that is the deal.
    So I ask unanimous consent that the remainder of my 
statement be placed in the record. I can think of no more 
important hearing than this at the moment, and I know you are 
going to follow through on not just a generic look at this, but 
we are going to go down the line to try to flesh this out. We 
do not expect all the answers, but we do expect an 
acknowledgment that this is a gigantic undertaking in what--a 
word that we do not like to hear--nation-building, nation-
building.
    Thank you.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for convening this hearing on a topic 
that could not be more timely. It marks a continuation of the dialogue 
that you and I initiated in the committee last summer to help the 
American people understand the enormous challenges facing us in a post-
Saddam Iraq.
    It is appropriate that our first hearing on the ``day after''--or 
more accurately the ``decade after''--concentrates on the critical 
questions of security and weapons of mass destruction.
    Mr. Chairman, it is essential that no one be under the illusion 
that if we go to war, that the experience will be anything resembling 
Desert Storm. Indeed, testimonials by many of the key participants in 
that last conflict with Iraq make clear that the very thorny issues we 
will be discussing today go a long way in explaining why we stopped 
short of unseating Saddam Hussein. In General Schwarzkopf's words: 
``Had we taken all of Iraq, we would have been like the dinosaur in the 
tar pit.''
    Mr. Chairman, if we want to avoid replacing a dictator with chaos . 
. . and precipitating the very problem that may require war--namely, 
the proliferation of weapons of mass destruction from Iraq--then we 
have got to follow through.
    I am confident that, if we act, our military will succeed swiftly 
and decisively. But I'm concerned that the temptation will be there to 
declare victory and walk away well before we should. Unfortunately, 
Afghanistan's deteriorating security situation demonstrates what that 
kind of approach breeds.
    I hope Iraq can emerge as a stable, pluralistic--even democratic 
society--in short order. I hope that its rival ethnic communities, and 
those that seek retribution can contain their anger and focus on 
building a new Iraq without any outside assistance. But given Iraqi 
history and the stakes involved for the United States, basing our plans 
on such a rosy outcome would be folly in my view. We can hope for the 
best, but we should prepare for the worst.
    And those who seek to make Iraq a model for democracy in the Arab 
world should be the loudest voices in favor of a robust American 
military presence after a war . . . a major international civilian 
administration . . . and a massive infusion of assistance.
    Mr. Chairman, maintaining a ``secure environment'' after a possible 
war will be the sine qua non for any positive change we wish to bring 
to Iraq. I suspect we will discover the definition of security will 
take on very broad dimensions--patrolling cities and borders, mediating 
between rival groups, helping refugees return peacefully, remaking a 
new Iraqi army, helping those discharged find employment, and 
arbitrating the most mundane local disputes.
    And, of course, we cannot assume that a swift military victory will 
settle the question of Iraqi weapons of mass destruction.
    In the post-war chaos, unless and until we get our hands on all 
weapons strewn around country, there is a real danger that they could 
be exported out of country, sold to the highest bidder, or hidden away 
for later access.
    Secretary Powell, in his presentation last week, said that Iraq 
possesses two of the three key components to build a nuclear bomb--a 
cadre of scientists with expertise and a bomb design. How does that 
change appreciably in the aftermath of a war when there will be a 
natural relaxation of vigilance by the international community? What 
pressures will Iraq face to pursue weapons of mass destruction given 
its neighborhood which includes a next door neighbor and former foe 
with its own nuclear ambitions?
    Disarming Iraq will require much more than a resounding military 
victory on the battlefield and even the destruction of those weapons 
that we do find.
    Mr. Chairman, it is critical that the American people be informed 
of the enormous burden that they may soon be asked to shoulder. Colonel 
Scott Feil, who we will hear from later today, told this committee last 
summer that a post-Saddam security force would require 75,000 troops at 
a cost of over $16 billion for the first year alone. Other independent 
studies have estimated that total security costs for the ``Decade 
After'' will be between $75 and $200 billion.
    The American people must know that this will be a major 
undertaking. Because no foreign policy, no matter how brilliant, can be 
sustained without the informed consent of the American people. I 
believe that the American people will support a massive commitment to 
securing, disarming, and rebuilding a post-Saddam Iraq, but only if 
they are informed ahead of time. Hopefully, we can begin the process of 
informing them today.

    The Chairman. I thank the distinguished ranking member and 
I assure him that his statement will be published in full. 
Furthermore, as we have indicated, this will be the first of 
our hearings about the future of Iraq, with the other 
situations that you have described certainly upfront in our 
attention as we proceed.
    I am going to call now upon our witnesses for their 
statements and then we will have a round of questioning by all 
Senators. It is a pleasure to have both of you here, and I call 
first on Secretary Grossman.

 STATEMENT OF HON. MARC I. GROSSMAN, UNDER SECRETARY OF STATE 
   FOR POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Grossman. Mr. Chairman, thank you very much, members of 
the committee. It is an honor to be here today and I join Under 
Secretary Feith in thanking you for inviting us to be at this 
hearing, to participate in this conversation, and to make this 
presentation to you.
    I would ask, Mr. Chairman, in the interest of time if I 
could just submit a statement for the record and perhaps 
summarize it if that would be acceptable to you.
    The Chairman. It will be published in full and please 
summarize.
    Mr. Grossman. May I also first of all say that it is my 
first opportunity to testify before this committee in the 108th 
Congress and I thank you for that opportunity. Senator Lugar, 
we congratulate you on your chairmanship, and Senator Biden, we 
wanted to thank you very much for your leadership of this 
committee over the past several years.
    I also want to endorse, to second, to come behind, what 
Secretary Powell said here on Thursday, and thank you for your 
strong support of the men and women at the State Department. We 
appreciate that.
    Mr. Chairman, you and the ranking member have talked about 
what this hearing is about today. Doug and I were talking 
before and, in fact, although it is all set up as testimony, in 
a way, what we are doing here is a consultation, because many 
of the policies that Under Secretary Feith and I will describe 
to you, as you and the ranking member have said, are not 
finished yet. They are not decided yet, and so, in a sense this 
is a very important hearing because we look forward to the 
chance to work with you and to hear your views and, as Senator 
Biden said, to help with the informed consent of the people of 
the United States.
    President Bush, as you know, has not made final decisions 
about if and when to use military force to disarm Iraq and, 
very importantly for us today, he has also not made final 
decisions about how exactly the United States will proceed with 
respect to Iraq after a conflict if one is required.
    But I want to tell you that we are not without guidance in 
this regard even if the President has not yet made final 
decisions, and that is because on the 20th of January President 
Bush directed all relevant agencies of the U.S. Government to 
focus their attention on post-war planning. Under Secretary 
Feith in his statement will describe to you the office that has 
been set up for this planning at the Pentagon.
    But let me tell you that the President's direction to us is 
clear. If it becomes necessary for the United States to lead a 
military coalition to liberate Iraq, the United States will 
want to be in a position to help meet the humanitarian, 
reconstruction, and administrative challenges facing the 
country in the aftermath of combat operations. And I think, 
Senator Lugar, that that tracks exactly with the kinds of 
concerns that you had in your opening statement.
    Before I offer some thoughts on our plan and where we 
stand, I'd like to offer this base since I think it is an 
important part of the debate today. If we have to act and that 
is what the President directs be done, I want to assure you 
that we have been working hard to make sure that we are going 
to have allies in this regard.
    As Deputy Secretary Armitage reported to you last week, 26 
countries are providing us with access, basing or overflight 
rights or some combination of those three. Another 18 countries 
have granted us access, basing or overflight rights or have 
come forward voluntarily to offer them if we need them. And 19 
countries are involved now in direct military planning for 
military assets. So if this has to be done, I think it is 
important for you and for people to recognize that there will 
be people with us.
    Mr. Chairman, just to go down the issues that you listed, 
let me highlight five subjects, all of them that you and the 
ranking member talked about: First, I think it is important 
that we quickly go through the guiding principles that we are 
working on as we move forward in thinking about the future of 
Iraq; second, to stress, as you did, the importance of ridding 
Iraq of its weapons of mass destruction; third, I want to 
report to you on where we stand in planning on the humanitarian 
issues; fourth, some words on planning on reconstruction; and 
then fifth, as you said, to talk a little bit about where we 
think politically we are headed in the future of Iraq.
    Mr. Chairman, if it is necessary for the United States to 
take military action here are the principles that will guide 
our thinking. First, we will demonstrate to the Iraqi people 
and to the world that the United States wants to liberate Iraq, 
not to occupy Iraq or control Iraqis or their economic 
resources.
    Second, we must--must--eliminate Iraq's chemical and 
biological weapons, its nuclear program, its related delivery 
systems, get at, as you said, weapons of mass destruction.
    Third, we must also eliminate Iraq's terrorist 
infrastructure and its ties to terrorism.
    Fourth, key to support and safeguard the territorial 
integrity of Iraq, which goes to the point that Senator Biden 
was making, the United States does not support Iraq's 
disintegration.
    Fifth, to begin the process of economic and political 
reconstruction, working to put Iraq on the path to become 
prosperous and free and, as you said, Mr. Chairman, part again 
of the international community. To Senator Biden I say that 
this job will take a sustained commitment and we are committed, 
as the President has said, as the Secretary has said, to stay 
as long as is necessary in Iraq, but I should also say not one 
day more.
    First, weapons of mass destruction. Mr. Chairman, it is 
clear that our job one today, during conflict, and in post-
conflict Iraq if there is one will be to locate, secure, and 
dispose of Iraq's weapons of mass destruction capabilities. 
That will be the most urgent priority. And we will focus on 
weapons, delivery systems, agents, related infrastructure, dual 
use infrastructure, and Iraq's technical and scientific 
expertise. Under Secretary Feith will have a little more to say 
on this.
    But what I want to tell you is that there is a very active 
interagency effort going on now, chaired by the National 
Security Council, to make sure that we are working to decrease 
the possibility of the Iraqi regime using WMD before or during 
any military action and we are in discussions with a larger 
number of countries to establish a program to eliminate Iraq's 
weapons of mass destruction program after a regime change in 
Baghdad.
    I also find it heartening that a number of countries are 
working with us in this area, including to help our response to 
the possibility that Saddam Hussein might use or provoke the 
use of these weapons. As I say, Under Secretary Feith will have 
more to say on this issue.
    Next issue, meeting Iraq's humanitarian needs. You have 
both raised this question. What are we doing? In the event of a 
military conflict our immediate objective will obviously be to 
provide humanitarian assistance to civilians. Those who flee 
their homes in fear will have to be cared for. Potential supply 
lines for food, for water, for medicine, fuel, will also have 
to be restored.
    Mr. Chairman, I can report to you that all of the relevant 
U.S. Government agencies are engaged in some very detailed 
planning to meet Iraq's humanitarian needs and we are 
emphasizing the absolutely necessary cooperation between 
civilian and military elements of our government. This effort 
is being led by the National Security Council and the Office of 
Management and Budget. I can tell you that the State Department 
and USAID are engaged in this and are also engaged in a very 
large program of outreach with nongovernmental organizations 
and international organizations who will be key partners in 
addressing Iraq's humanitarian needs.
    We are working hard to make sure that civilian and military 
elements in this planning are consulting and coordinating.
    President Bush has authorized $15 million to support this 
planning process and an additional $35 million has already been 
made available for existing accounts to make sure we can get 
the wherewithal prepositioned and respond to the United 
Nations' requests for preparedness. These areas are in food, 
are in shelter items, water, and a substantial amount of work 
has been done on meeting the humanitarian needs of the Iraqi 
people, and more will be done.
    I understand that members of the Senate Foreign Relations 
Committee staff received a briefing at the end of last week 
which goes into this in some considerable detail. I'm glad to 
talk about those issues in Q's and A's if that is useful to 
you.
    Let me turn now, Mr. Chairman, to what comes after 
humanitarian assistance, and that is reconstruction. Iraqis 
will face the task of reconstructing a country that has been 
subjected to decades of neglect and mismanagement. Here again, 
I can report to you that there is a very large interagency 
effort under way, again chaired by the National Security 
Council and the Office of Management and Budget, to think 
through our reconstruction needs and our reconstruction 
objectives.
    This effort is focused on a number of priority areas: 
education, health, water, sanitation, electricity, shelter, 
transportation, rule of law, agriculture, communications, and 
economic and financial policies. I hope you will not be 
surprised to find that that list of priorities of course tracks 
with work we are doing in the program on the future of Iraq.
    I hope you also will not be surprised that we are working 
in these areas to set for ourselves very clear benchmarks, very 
clear time lines, and very clear ways to see if this is 
necessary, if we are succeeding.
    With regard to the oil sector, Under Secretary Feith will 
talk about this in some detail, but our guiding principle is 
that Iraq's oil belongs to the Iraqi people, and we are 
committed to ensuring that any action taken in this area is for 
the benefit of the Iraqi people. Should military action be 
required, the United States will take steps to protect and 
preserve Iraq's oil sector and we will support the efforts of 
Iraqis to restore production.
    Mr. Chairman, you talked a bit and Senator Biden talked 
some about what kind of political future is it that we want to 
work with Iraqis. If we are going to rebuild this country or 
participate in rebuilding this country physically, it is also 
important that we do so politically. As you all know, last 
March the Bush administration announced and has stepped out on 
what we call a Future of Iraq Project. In consultations with 
Iraqis in the United States, Iraqis in Europe, Iraqis outside 
of Iraq, we developed 17 working groups and all 17 are listed 
in my statement. I will not go through them here.
    But the purpose of these groups is to begin practical 
planning for what might happen in Iraq after regime change. As 
I say, these groups run everywhere from transitional justice to 
public outreach to defense policy to foreign policy. Each of 
the groups has brought together a number of Iraqi experts and 
those interested in these issues, not to have an academic 
discussion but to consider thoughts and plans for what can be 
done immediately.
    I give you two examples. In the legal field, Iraqi lawyers 
and the transitional justice working group have drafted 600 
pages in Arabic of proposed reforms in the criminal code, the 
criminal procedure code, the civil code, nationality laws, and 
military procedures, and more. So that there is a functioning 
body of law if there is regime change.
    The economy and infrastructure group has focused on public 
finance, water, agriculture, the environment, and also how to 
transition from the U.N. Oil for Food Program into something 
run by and for Iraqis.
    I want to make one other point in this area, though. I 
think it's important. We are meeting with these Iraqis on a 
regular basis, on an intensive basis. But we also make the 
point, and they make the point as well, that Iraqis on the 
outside will not control the decisions that will ultimately 
have to be made by all Iraqis. The people we are working with 
are a great, great resource, but they know and we all know that 
all Iraqis in the end must be able to talk freely and work 
together to build a free and democratic Iraq.
    Finally, Mr. Chairman, let me conclude with a short 
observation about how we get to this future for Iraq, again 
recognizing that no decisions have been made on structure or 
timing. I report to you that the administration at the most 
senior levels is still considering these issues and discussing 
these ideas with free Iraqis, political opposition, 
technocrats, people like your second panel, and others. We are 
consulting also with our close allies and with you.
    Conceptually, getting to this future of Iraq there could be 
three stages: first stabilization, where an interim coalition 
military administration will focus on security, stability, and 
order, laying the groundwork for what I might call stage two, 
which would be transition, where authority is progressively 
given to Iraqi institutions as part of the development of a 
democratic Iraq. And finally, transformation, after Iraqis have 
drafted, debated, approved a new democratic constitution and 
held free and fair elections, which I think you would agree is 
the way for any future Iraqi Government to be truly legitimate.
    Senator Biden. Mr. Secretary, would you categorize or 
mention the three stages again?
    Mr. Grossman. Yes, sir. My words: stabilization, where an 
interim coalition military administration will focus on 
security, stability, and order, which we hope would then lay 
the groundwork for stage two, which might be called, if you 
accept my phrase here, transition, where authority is 
progressively given to Iraqi institutions as part of the 
development of a democratic Iraq; and then third, 
transformation, after Iraqis have defined their democracy, got 
a constitution, had an election, that they would regain their 
sovereignty and they would again become a normal country.
    Senator Biden. Thank you.
    Mr. Grossman. Mr. Chairman, I know that my testimony today 
has only been a start in this effort to answer your questions 
about the future of Iraq. As Senator Biden said, there are many 
uncertainties here. But what I am certain about is that we seek 
an Iraq that is democratic, that is unified, that is multi-
ethnic, which has no weapons of mass destruction, which has cut 
its links to terrorists, and is at peace with its neighbors.
    Mr. Chairman, I commit to you that we will stay in the 
closest possible consultation with you in the weeks ahead as we 
make further decisions in this regard. I thank you, sir.
    [The prepared statement of Mr. Grossman follows:]

 Prepared Statement of Hon. Marc I. Grossman, Under Secretary of State 
                         for Political Affairs

    Mr. Chairman, Members of the Committee.
    Thank you for inviting us to talk about post-Saddam Iraq.
    This is my first opportunity to testify before this committee in 
the 108th Congress. I congratulate Senator Lugar on his Chairmanship. 
Senator Biden, we thank you as well for your leadership in this 
committee last year.
    I also want to second Secretary Powell's thanks to all the members 
of the committee for your strong support for the men and women of the 
State Department.
    Mr. Chairman, members of this committee need no introduction to the 
subject of Iraq and the regime of Saddam Hussein. As Secretary Powell 
told the United Nations Security Council on February 5, ``Leaving 
Saddam Hussein in possession of weapons of mass destruction for a few 
more months or years is not an option, not in a post-September 11th 
world.''
    The day after his address to the UN Security Council, Secretary 
Powell came before this committee and said, ``The President does not 
like war, does not want a war. But this is not a problem we can walk 
away from.''
    Mr. Chairman, our testimony today will in some ways be like a 
consultation. Many of the policies Under Secretary Feith and I will 
describe are still under discussion in the Administration. President 
Bush has not made final decisions about if and when to use military 
force to disarm Iraq, nor has he made any final decisions about exactly 
how the United States will proceed with respect to Iraq after a 
conflict, if one is required. Although we may not be able to describe 
final decisions, we are not without clear guidance. On January 20, 
President Bush directed all relevant agencies of the government to 
focus their attention on Iraq post-war planning. Under Secretary Feith 
will describe to you the planning office at the Pentagon. The 
President's direction is clear: If it becomes necessary for a U.S.-led 
military coalition to liberate Iraq, the United States will want to be 
in a position to help meet the humanitarian, reconstruction and 
administrative challenges facing the country in the immediate aftermath 
of combat operations.
    Before I offer some views on what that future might look like, let 
me first lay this base. If we have to act, we will have allies.

  <bullet> 26 countries are providing us with access, basing or 
        overflight rights, or some combination of the three.

  <bullet> Another 18 countries have granted us access, basing or 
        overflight rights based on our contingency request for those 
        rights, or have come forward voluntarily to offer such rights 
        to us, should we wish to make use of them.

  <bullet> 19 countries have offered us military assets or other 
        resources. This number includes many countries that have 
        granted us access, basing and overflight rights, but also a 
        number of additional countries.

    Mr. Chairman, let me now highlight five subjects.
    First, I want to offer some of the principles that guide our 
thinking about the future of Iraq.
    Second, I want to stress the importance of ridding Iraq of its 
weapons of mass destruction.
    Third, a report on what we are planning on the humanitarian front.
    Fourth, some words on our planning for reconstruction.
    Fifth, on the political front, I want to tell you about the work we 
have been doing on what post-Saddam Hussein Iraq ought to look like.

                         I. GUIDING PRINCIPLES

    Mr. Chairman, if it should be necessary for the United States to 
take military action, these principles will guide our thinking.

  <bullet> First, we will demonstrate to the Iraqi people and the world 
        that the United States wants to liberate, not occupy Iraq or 
        control Iraqis or their economic resources.

  <bullet> Second, we must eliminate Iraq's chemical and biological 
        weapons, its nuclear program and its related delivery systems.

  <bullet> Third, we must also eliminate Iraq's terrorist 
        infrastructure.

  <bullet> Fourth, safeguard the territorial unity of Iraq. The United 
        States does not support Iraq's disintegration.

  <bullet> Fifth, begin the process of economic and political 
        reconstruction, working to put Iraq on a path to become a 
        prosperous and free country.

    This job will take a sustained commitment. The United States is 
        committed to stay as long as is necessary in Iraq, but not one 
        day more.

                    II. WEAPONS OF MASS DESTRUCTION

    Mr. Chairman, President Bush is determined to see Iraq disarmed of 
its weapons of mass destruction. That is job No. 1 today, during a 
conflict if there is one, and in the days after.
    Locating, securing and disposing of Iraq's WMD capabilities will be 
an urgent priority. We will focus on weapons and delivery systems, bulk 
agents, related infrastructure, dual-use infrastructure, and Iraq's 
technical and scientific expertise.
    Ensuring that the U.S. Government has the capacity to do all this 
is the work of a broad interagency task force, chaired at the NSC. We 
are working to decrease the possibility of the Iraqi regime using WMD 
before or during any military action, and we are in discussions with 
other countries to establish a program to eliminate the Iraqi WMD 
program after regime change in Baghdad. A number of our allies are 
cooperating with us in this area, including helping prepare for a 
response to incidents that Saddam Hussein might provoke.
    Under Secretary Feith will have more to say on this.

                 III. MEETING IRAQ'S HUMANITARIAN NEEDS

    Mr. Chairman, my third point is what we are planning to do to meet 
Iraq's humanitarian needs.
    In the event of a military conflict, our immediate objective will 
be to provide humanitarian assistance to civilians. Those who have fled 
their homes in fear will have to be cared for. Essential supply lines 
for food, medicine, water, and fuel will have to be restored.
    Mr. Chairman, U.S. Government agencies are engaged in planning to 
meet Iraq's humanitarian needs with an emphasis on civilian-military 
coordination. This effort is led by the National Security Council and 
OMB. USAID and State are engaged with the non-governmental 
organizations and international organizations who will be important 
partners in addressing Iraq's humanitarian needs. Civilian and military 
officials regularly consult and coordinate plans.
    President Bush has authorized $15 million dollars to support this 
planning process and an additional $35 million has been made available 
from existing accounts. Other donors are also responding to the UN's 
request for preparedness support. As a result, food, shelter items and 
water bladders are ready. A substantial amount of work has been done on 
meeting the humanitarian needs of the Iraqi people, and still more is 
being done by a number of agencies and organizations in Washington, New 
York and around the world.

                           IV. RECONSTRUCTION

    Mr. Chairman, let me turn to the fourth area: reconstruction. 
Iraqis will face the task of reconstructing of a country that has been 
subjected to decades of neglect and mismanagement. There has been a 
tremendous interagency effort, led by the National Security Council and 
the Office of Management and Budget, to think through reconstruction 
needs and objectives. The interagency effort has focused on a number of 
priority program areas including education, health, water and 
sanitation, electricity, shelter, transportation, rule of law, 
agriculture, communications and economic and financial policy. I hope 
you won't be surprised to learn that many of these priority program 
areas overlap exactly with the working groups in the Future of Iraq 
Project, which I will describe next.
    With regard to the oil sector, our guiding principle is that Iraq's 
oil belongs to all of the Iraqi people. We are committed to ensuring 
that any action taken in this area is for the benefit of the Iraqi 
people. Should military action be required in Iraq, the U.S. will take 
steps to protect and preserve Iraq's oil sector, and we will support 
the efforts of Iraqis to restore production. Under Secretary Feith will 
have more to stay on this.

                        V. THE POLITICAL FUTURE

    The United States is committed to helping Iraqis rebuild their 
country politically as well as physically.
    Last March, the Bush Administration announced the Future of Iraq 
Project. In consultations with ``free Iraqis,'' we developed 17 working 
groups. The purpose of these is to begin practical planning for what 
could be done between now and the date of a change of government in 
Baghdad, and in the immediate aftermath of a transition. The subjects 
of the working groups include:

         1. Transitional Justice
         2. Public Finance
         3. Democratic Principles
         4. Public Health and Humanitarian Issues
         5. Public Outreach
         6. Water, Agriculture & the Environment
         7. Economy and Infrastructure
         8. Local Government
         9. Defense Policy
        10. Oil & Energy
        11. Education
        12. Anti-Corruption Issues
        13. Civil Society-Capacity Building
        14. Building a Free Media
        15. Return of Refugees and Internally Displaced Persons
        16. Foreign Policy
        17. Preserving Iraq's Cultural Heritage

    Each of the working groups brings together about 10-20 Iraqi 
experts to discuss the Iraqis' thoughts and plans for what can be done 
now, and in the aftermath of a change of government in Baghdad, to 
improve the lives of the Iraqi people.
    Here are some examples of the work that Iraqi experts have done:

  <bullet> In the legal field, for example, the Iraqi lawyers in the 
        Transitional Justice working group have drafted 600 pages, in 
        Arabic, of proposed reforms of the Criminal Code, the Criminal 
        Procedure Code, the Civil Code, the Nationality Law, the 
        Military Procedure Code and more; proposals for the trial of 
        Saddam Hussein and his top associates; proposals for national 
        reconciliation, and the reform of the police, the courts and 
        the prisons.

  <bullet> The Economy and Infrastructure; Public Finance; and Water, 
        Agriculture and the Environment working groups have prepared 
        proposals for the transition of the Oil-for-Food program to 
        better meet the basic needs of food and medicine of the Iraqi 
        people. The Iraqis also have plans for reconstruction of four 
        key sectors: Electricity, Communications, Water, and 
        Agriculture.

    Both we and the Iraqis we are meeting make the point that Iraqis on 
the outside will not control decisions that will, ultimately, have to 
be made by all Iraqis. The Iraqi diaspora is a great resource but not a 
substitute for what all Iraqis will need to do together to work towards 
democracy in their country. Both we and free Iraqis look forward to the 
day when all Iraqis are able to talk freely and work together to build 
a free and democratic Iraq.
    And while we are listening to what the Iraqis are telling us, at 
the end of the day, the United States Government will make its 
decisions based on what is in the national interest of the United 
States.

                  WHAT THE TRANSITION MIGHT LOOK LIKE

    Mr. Chairman, let me conclude with a short observation about how we 
get to this future for Iraq, recognizing that no decisions have been 
made on structure or timing. The Administration is still considering 
these issues, and discussing ideas with free Iraqis who are in the 
political opposition, technocrats, intellectuals and others. We are 
also consulting with our close allies and with you.
    Conceptually, there are three stages:

          (1) Stabilization, where an interim coalition military 
        administration will focus on security, stability and order; 
        laying the groundwork for stage 2.

          (2) Transition, where authority is progressively given to 
        Iraqi institutions as part of the development of a democratic 
        Iraq.

          (3) Transformation, after Iraqis have drafted, debated and 
        approved a new, democratic constitution and held free and fair 
        elections, the only way for any future Iraqi government to be 
        truly legitimate.

    Mr. Chairman, I recognize my testimony today has been only the 
start of an effort to answer your questions about the future of Iraq. 
There are many uncertainties.
    What I am certain about is that we seek an Iraq that is democratic, 
unified, multi-ethnic, with no weapons of mass destruction, which has 
cut its links to all terrorists, and is at peace with its neighbors.
    We expect to stay in close touch with you over the coming weeks.

    The Chairman. We thank you very much for the testimony and 
those important assurances to the committee.
    Secretary Feith, would you give us your testimony.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
       FOR POLICY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Feith. Thank you, Mr. Chairman. Good morning to you and 
to the members of the committee. I am pleased to have this 
opportunity to talk with you today about the efforts under way 
in the Defense Department and in the U.S. Government generally 
to plan for Iraq in the post-conflict period should war become 
necessary.
    With your permission, I would like to submit my statement 
for the record and just provide you now with a summary of it.
    The Chairman. It will be published in full and please 
proceed with the summary.
    Mr. Feith. Thank you.
    If U.S. and other coalition forces take military action in 
Iraq, they will, after victory, have contributions to make to 
the country's temporary administration and to the welfare of 
the Iraqi people. It will be necessary to provide humanitarian 
relief, organize basic services, and work to establish security 
for the liberated Iraqis. Our work will aim to achieve the 
objectives outlined by my colleague, Under Secretary of State 
Grossman. I will not repeat those initial five objectives that 
he mentioned, but they are very important and I will just 
summarize them in a few words.
    That we aspire to liberate, not occupy the country; that we 
are going to eliminate Iraq's weapons of mass destruction; and 
likewise eliminate the terrorist infrastructure; safeguard 
Iraq's territorial integrity; and begin the process of economic 
and political reconstruction.
    If there is a war, the United States would approach its 
post-war work with a two-part resolve: a commitment to stay and 
a commitment to leave. That is, a commitment to stay as long as 
required to achieve the objectives that we have just listed. 
The coalition cannot take military action in Iraq to eliminate 
weapons of mass destruction and the Iraqi tyranny's threats to 
the world as an aggressor, as a state supporter of terrorism, 
and then leave a mess behind for the Iraqi people to clean up 
without a helping hand. That would ill serve the Iraqis, the 
United States, and the world.
    But it is important to stress also that the United States 
would have a commitment to leave as soon as possible, for Iraq 
belongs to the Iraqi people. Iraq does not and will not belong 
to the United States, the coalition, or to anyone else.
    As Iraqi officials are in a position to shoulder their 
country's responsibilities and they have in place the necessary 
political and other structures to provide food, security, and 
other necessities, the United States and its coalition partners 
will want them to run their own affairs. U.S. post-war 
responsibilities will not be easy to fulfill and the United 
States by no means wishes to tackle them alone, will encourage 
contributions and participation from coalition partners, from 
nongovernmental organizations, the United Nations, other 
international organizations, and others.
    Our goal is to transfer as much authority as possible, as 
quickly as possible, to the Iraqis themselves. But the United 
States will not try to foist onto those who are not in a 
position to carry them burdens that cannot be managed.
    The faster all the necessary reconstruction tasks are 
accomplished, the sooner the coalition will be able to withdraw 
its forces from Iraq and the sooner the Iraqis will assume 
complete control of their country. Accordingly, the coalition 
officials responsible for post-conflict administration in Iraq, 
whether military or civilian, from the various agencies of the 
government will report to the President through General Tom 
Franks, the commander of the U.S. Central Command, and the 
Secretary of Defense.
    To prepare for all this, as Secretary Grossman mentioned, 
President Bush directed on January 20 the creation of a post-
war planning office. Although the office is located within the 
policy organization in the Department of Defense, it is staffed 
by officials detailed from departments and agencies throughout 
the government. Its job is planning and implementation. The 
intention is not to theorize, but to do practical work.
    In the event of war, most of the people in the office will 
deploy to Iraq. We have named it the Office of Reconstruction 
and Humanitarian Assistance and we describe it as an 
expeditionary office. It is charged with establishing links 
with United Nations specialized agencies and with 
nongovernmental organizations that will play a role in post-war 
Iraq. It will reach out also to counterpart offices in the 
governments of coalition countries and to the various free 
Iraqi groups.
    The immediate responsibility for administering post-war 
Iraq will fall on the commander of the U.S. Central Command as 
the commander of U.S. and coalition forces in the field. 
Various parts of our government have done a great deal of work 
on aspects of post-war planning for months now. Some of this 
was outlined by Under Secretary Grossman. He mentioned the 
interagency working group that has been doing contingency 
planning for humanitarian relief. That group is linked to the 
U.S. Central Command and has established links with the U.N. 
specialized agencies and the NGOs involved in humanitarian 
relief efforts.
    It has developed a concept of operations that would 
facilitate U.N. and nongovernmental organization provision of 
aid. It would establish civil-military operations centers by 
means of which U.S. forces would coordinate the provision of 
relief and restart the U.N. ration distribution system using 
U.S. supplies until the U.N. supplies and the NGO supplies can 
arrive.
    There are other interagency groups planning for 
reconstruction of post-Saddam Iraq, also planning for the 
vetting of current Iraqi officials to determine with whom we 
should work, and working on post-war elimination of Iraqi 
weapons of mass destruction. The new planning office's function 
is to integrate all of these efforts and make them operational. 
It is building on the work done, not reinventing it.
    I would like to spend a moment if I can stressing in 
particular the crucial task of eliminating weapons of mass 
destruction. We have begun detailed planning for this task, 
which includes securing, assessing, and dismantling Iraq's WMD 
capabilities, its facilities and stockpiles. This will be a 
huge undertaking. The point that Senator Biden made about the 
magnitude of the task is very well taken. This is one of a 
number of tasks whose magnitude is very large.
    The Defense Department is building the necessary 
capabilities for this WMD elimination effort. We will have to 
first locate Iraq's widespread WMD sites and then be prepared 
to secure the relevant weapons or facilities or rapidly and 
safely disable them so they are no longer a threat to coalition 
forces. This will have to be done in many places and as quickly 
as possible.
    The mission, though, does not end there. After hostilities 
we will have to dismantle, destroy, and dispose of nuclear, 
chemical, biological, and missile capabilities and 
infrastructure. Equally important will be plans to redirect 
some of Iraq's dual use capability and its scientific and 
managerial talent to legitimate civilian activities in a new 
Iraq.
    Clearly, this will not be a mission that falls entirely on 
the U.S. military forces. Other U.S. Government personnel can 
contribute. Coalition partners can play an important role, and 
the United Nations, IAEA, and other international organizations 
should be in a position to contribute valuably. Of course, the 
new Iraqi Government will also have a key responsibility here.
    Eliminating all nuclear, chemical, and biological 
stockpiles, facilities, and infrastructure will take time and 
we cannot now even venture a sensible guess as to the amount of 
time.
    Now, on the subject of oil infrastructure, the U.S. and its 
coalition allies may face the necessity of repairing Iraq's oil 
infrastructure if Saddam Hussein decides to damage it, as he 
put the torch to Kuwait's oil fields in 1991. Indeed, as I am 
sure you know, we have reason to believe that Saddam's regime 
is planning to sabotage Iraq's oil fields.
    Detailed planning is under way for resumption of oil 
production as quickly as possible to help meet the Iraqi 
people's basic needs. The oil sector is Iraq's primary source 
of funding. As noted by Under Secretary Grossman, the United 
States is committed to preserving Iraq's territorial integrity, 
so we are intent on ensuring that Iraq's oil resources remain 
under national Iraqi control, with the proceeds made available 
to support Iraqis in all parts of the country.
    As Senator Biden noted, there is an awareness even inside 
Iraq of the importance of preserving those oil assets as 
national assets. No one ethnic or religious group will be 
allowed to claim exclusive rights to any part of the oil 
resources or infrastructure. In other words, all of Iraq's oil 
belongs to all of the people of Iraq.
    The administration has decided that in the event of war the 
U.S.-led coalition would protect Iraq's oil fields from acts of 
sabotage and preserve them as a national asset of the Iraqi 
people and rapidly start reconstruction and operation of the 
sector so that its proceeds, together with humanitarian aid 
from the United States and others, can help support the Iraqi 
people's needs.
    Just as we have warned Iraqis in a position to control the 
release of weapons of mass destruction that they should not 
obey orders to use WMD, we are warning them not to commit an 
atrocity in the form of the destruction of Iraq's oil 
infrastructure.
    Now, again as Under Secretary Grossman stressed, we are 
working in an area now and we are discussing here today work 
where important decisions have yet to be finalized within the 
administration. This is a good opportunity to have a real 
consultation and we are eager for your input into all of these 
matters. We have not yet decided on the organizational 
mechanisms, for example, to do this work regarding the oil 
infrastructure. We will be consulting on this, in addition to 
our consultations here with you and with other Members of 
Congress, will be consulting with parties in various countries, 
including Iraqi experts and groups.
    Now, I think this may be a good point at which to address 
head-on the accusation that in this confrontation with the 
Iraqi regime the administration's motive is to steal or control 
Iraq's oil. The accusation is common, reflected in the slogan 
``No War for Oil.'' But it is false and malign. If there is a 
war, the world will see that the United States will fulfill its 
administrative responsibilities, including regarding oil, 
transparently and honestly, respecting the property and other 
rights of the Iraqi State and people.
    The record of the United States in military conflicts is 
open to the world and well-known. The United States became a 
major world power in World War II. In that war and since, the 
United States has demonstrated repeatedly and consistently that 
we covet no other country's property. The United States does 
not steal from other nations. We did not pillage Germany and 
Japan. On the contrary, we helped rebuild them after World War 
II. After Desert Storm we did not use our military power to 
take or establish control over the oil resources of Iraq or any 
other country in the gulf region.
    The United States pays for whatever we want to import. 
Rather than export its power to beggar its neighbors, the 
United States, as probably no group of people more than this 
committee knows, has been a source of large amounts of 
financial aid and other types of assistance for many countries 
for decades.
    If U.S. motives were in essence financial or commercial, we 
would not be confronting Saddam Hussein over his weapons of 
mass destruction. If our motive were cold cash, we would 
instead downplay the Iraqi regime's weapons of mass destruction 
and pander to Saddam in hopes of winning contracts for U.S. 
companies.
    The major costs of any confrontation with the Iraqi regime 
would of course be the human ones. But the financial costs 
would not be small either. This confrontation is not and cannot 
possibly be a moneymaker for the United States. Only someone 
ignorant of the easy-to-ascertain realities could think that 
the United States would profit from such a war, even if we were 
willing to steal Iraq's oil, which we emphatically are not 
going to do.
    Now, returning to the Pentagon Office of Reconstruction and 
Humanitarian Assistance, I would just like to give you a few 
comments about how it is organized. There are three substantive 
operations within the office, each under a civilian 
coordinator: humanitarian relief, reconstruction, and civil 
administration. A fourth coordinator is responsible for 
communications, logistics, and budgetary support. These 
operations are under the overall leadership of Jay Garner, a 
retired lieutenant general who held a senior military position 
in the 1991 humanitarian relief operation in northern Iraq. He 
is responsible for integrating the work of the three 
substantive operations and ensuring that the office can travel 
to the region when necessary and plug in smoothly to CENTCOM's 
operations.
    The office has only just begun the task of estimating the 
cost of post-war work. It is clear that the overall Iraq 
reconstruction and relief budget would require a fiscal year 
2003 supplemental appropriation. Timing of a supplemental is 
important. Delays would hinder relief and reconstruction 
programs.
    Because the commander of the U.S. Central Command will have 
a key role in the administration in Iraq, many have thought 
that our plans are based on what the allies did in Germany 
after World War II, but that is not the case. Our intention in 
case of war would be, as we have said, to liberate, not occupy, 
Iraq. Our administration would involve Iraqis as soon as 
possible and we would transfer responsibility to Iraqi entities 
as soon as we could.
    The following are examples, just notions, of the ways in 
which Iraqis might play a progressively greater role in 
administering the country even in the immediate aftermath of a 
conflict. An Iraqi consultative council could be formed to 
advise U.S. and coalition authorities. A judicial council could 
undertake to advise the authorities on the necessary revisions 
to Iraqi's legal structure and statutes, to institute the rule 
of law and protect individual rights. As my colleague noted, a 
great deal of thinking has already been done under the State 
Department leadership with various Iraqis on the issue of 
judicial reform.
    A constitutional commission could be created to draft a new 
constitution and submit it to the Iraqi people for 
ratification. Major Iraqi governmental institutions, such as 
the central government ministries, could remain in place and 
perform the key functions of government after the vetting of 
top personnel to remove any who might be tainted with the 
crimes and excesses of the current regime. Also, town and 
district elections could be held soon after liberation to 
involve Iraqis in governing at the local level.
    In conclusion, regarding post-war planning, much 
preparatory work has been done, but much more remains. The 
Office of Reconstruction and Humanitarian Assistance will serve 
as the U.S. Government's nerve center for this effort going 
forward. We look forward to consulting with this committee and 
the Congress generally as we develop our ideas and plans for 
post-conflict Iraq reconstruction. War is not inevitable, but 
failing to make contingency plans for its aftermath would be 
inexcusable.
    Thank you.
    [The prepared statement of Mr. Feith follows:]

Prepared Statement of Hon. Douglas J. Feith, Under Secretary of Defense 
                               for Policy

                           POST-WAR PLANNING

    Mr. Chairman and Members of the Committee:
    I am pleased to have this opportunity to talk with you today about 
efforts underway in the Defense Department and the U.S. Government to 
plan for Iraq in the post-conflict period, should war become necessary.
    If U.S. and other coalition forces take military action in Iraq, 
they will, after victory, have contributions to make to the country's 
temporary administration and the welfare of the Iraqi people. It will 
be necessary to provide humanitarian relief, organize basic services 
and work to establish security for the liberated Iraqis.
    Our work will aim to achieve the objectives outlined by my 
colleague, Under Secretary of State Grossman:

  <bullet> First, demonstrate to the Iraqi people and the world that 
        the United States aspires to liberate, not occupy or control 
        them or their economic resources.

  <bullet> Second, eliminate Iraq's chemical and biological weapons, 
        its nuclear program, the related delivery systems, and the 
        related research and production facilities. This will be a 
        complex, dangerous and expensive task.

  <bullet> Third, eliminate likewise Iraq's terrorist infrastructure. A 
        key element of U.S. strategy in the global war on terrorism is 
        exploiting the information about terrorist networks that the 
        coalition acquires through our military and law enforcement 
        actions.

  <bullet> Fourth, safeguard the territorial unity of Iraq. The United 
        States does not support Iraq's disintegration or dismemberment.

  <bullet> Fifth, begin the process of economic and political 
        reconstruction, working to put Iraq on a path to become a 
        prosperous and free country. The U.S. government shares with 
        many Iraqis the hope that their country will enjoy the rule of 
        law and other institutions of democracy under a broad-based 
        government that represents the various parts of Iraqi society.

    If there is a war, the United States would approach its post-war 
work with a two-part resolve: a commitment to stay and a commitment to 
leave.

  <bullet> That is, a commitment to stay as long as required to achieve 
        the objectives I have just listed. The coalition cannot take 
        military action in Iraq--to eliminate weapons of mass 
        destruction and the Iraqi tyranny's threats to the world as an 
        aggressor and supporter of terrorism--and then leave a mess 
        behind for the Iraqi people to clean up without a helping hand. 
        That would ill serve the Iraqis, ourselves and the world.

  <bullet> But it is important to stress also that the United States 
        would have a commitment to leave as soon as possible, for Iraq 
        belongs to the Iraqi people. Iraq does not and will not belong 
        to the United States, the coalition or to anyone else.

    As Iraqi officials are able to shoulder their country's 
responsibilities, and they have in place the necessary political and 
other structures to provide food, security and the other necessities, 
the United States and its coalition partners will want them to run 
their own affairs. We all have an interest in hastening the day when 
Iraq can become a proud, independent and respected member of the 
community of the world's free countries.
    U.S. post-war responsibilities will not be easy to fulfill and the 
United States by no means wishes to tackle them alone. We shall 
encourage contributions and participation from coalition partners, non-
governmental organizations, the UN and other international 
organizations and others. And our goal is to transfer as much authority 
as possible, as soon as possible, to the Iraqis themselves. But the 
United States will not try to foist burdens onto those who are not in a 
position to carry them.

Security and Reconstruction
    Administration officials are thinking through the lessons of 
Afghanistan and other recent history. We have learned that post-
conflict reconstruction requires a balance of efforts in the military 
sphere and the civil sphere. Security is promoted by progress toward 
economic reconstruction. But economic reconstruction is hardly possible 
if local business people, foreign investors and international aid 
workers do not feel secure in their persons and property.
    To encourage the coordinated, balanced progress of economic and 
security reconstruction in a post-conflict Iraq, President Bush has 
directed his administration to begin planning now.
    The faster the necessary reconstruction tasks are accomplished, the 
sooner the coalition will be able to withdraw its forces from Iraq, and 
the sooner the Iraqis wiIl assume complete control of their country. 
Accordingly, the coalition officials responsible for post-conflict 
administration of Iraq--whether military or civilian, from the various 
agencies of the governments--will report to the President through 
General Tom Franks, the Commander of the U.S. Central Command, and the 
Secretary of Defense.
The Office of Reconstruction and Humanitarian Assistance
    To prepare for all this, the President directed on January 20 the 
creation of a post-war planning office. Although located within the 
Policy organization in the Department of Defense, this office is 
staffed by officials detailed from departments and agencies throughout 
the government. Its job is detailed planning and implementation. The 
intention is not to theorize but to do practical work--to prepare for 
action on the ground, if and when the time comes for such work. In the 
event of war, most of the people in the office will deploy to Iraq. We 
have named it the Office of Reconstruction and Humanitarian Assistance 
and we describe it as an ``expeditionary'' office.
    The Office of Reconstruction and Humanitarian Assistance is charged 
with establishing links with the United Nations specialized agencies 
and with nongovernmental organizations that will play a role in post-
war Iraq. It will reach out also to the counterpart offices in the 
governments of coalition countries, and, in coordination with the 
President's Special Envoy to the Free Iraqis, to the various Free Iraqi 
groups.
    The immediate responsibility for administering post-war Iraq will 
fall upon the Commander of the U.S. Central Command, as the commander 
of the U.S. and coalition forces in the field. The purpose of the 
Office of Reconstruction and Humanitarian Assistance is to develop the 
detailed plans that he and his subordinates will draw on in meeting 
these responsibilities.
    Various parts of the government have done a great deal of work on 
aspects of post-war planning for months now. Several planning efforts 
are underway.
    An interagency working group led by the NSC staff and the Office of 
Management and Budget has undertaken detailed contingency planning for 
humanitarian relief in case of conflict with Iraq. The group also 
includes members from the State Department, USAID, the Office of the 
Vice-President, Treasury, the Office of the Secretary of Defense, the 
Joint Staff, and the CIA. The group is linked to U.S. Central Command. 
It has also established links with the UN specialized agencies and NGOs 
involved in humanitarian relief efforts.
    This group has developed a concept of operations that would:

  <bullet> facilitate UN/NGO provision of aid,

  <bullet> establish Civil-Military Operations Centers by means of 
        which U.S. forces would coordinate provision of relief, and

  <bullet> restart the UN ration distribution system using U.S. 
        supplies until UN/NGOs arrive.

    Other interagency groups are planning for:

  <bullet> the reconstruction of post-Saddam Iraq,

  <bullet> vetting current Iraqi officials to determine with whom we 
        should work, and

  <bullet> post-war elimination of Iraqi Weapons of Mass Destruction.

    The new planning office's function is to integrate all these 
efforts and make them operational. It is building on the work done, not 
reinventing it.

Elimination of Weapons of Mass Destruction
    Detailed planning is underway for the task of securing, assessing 
and dismantling Iraqi WMD capabilities, facilities and stockpiles. This 
will be a huge undertaking. The Defense Department is building the 
necessary capabilities.
    This will be a new mission for the Department and for our nation. 
It is complex and will takeplace as part of military operations, 
continuing into the post-conflict period.
    We must first locate Iraq's widespread WMD sites. We must then be 
prepared to secure the relevant weapons or facilities, or rapidly and 
safely disable them, so they are no longer a threat to coalition 
forces. This will have to be done in many places and as quickly as 
possible.
    But the mission does not end there. After hostilities, we will have 
to dismantle, destroy or dispose of nuclear, chemical, biological and 
missile capabilities and infrastructure.
    Equally important will be plans to re-direct some of Iraq's dual-
use capability and its scientific and managerial talent to legitimate, 
civilian activities in a new Iraq.
    Clearly, this will not be a mission that falls entirely to the U.S. 
military forces. Other U.S. government personnel, including those 
within the DoD, the Department of Energy's laboratory system, and in 
other government agencies can contribute.
    Coalition partners, including many NATO Allies, have nuclear, 
chemical and biological defense-related capabilities and expertise that 
can play an important role. The UN, IAEA and other international 
organizations should be in a position to contribute valuably to the 
elimination effort and perhaps to ongoing monitoring afterward.
    The task of eliminating all nuclear, chemical and biological 
stockpiles, facilities and infrastructure will take time. We cannot now 
even venture a sensible guess as to the amount. The new Iraqi 
government will also have an important role to play.
0il Infrastructure
    The U.S. and its coalition allies may face the necessity of 
repairing Iraq's oil infrastructure, if Saddam Hussein decides to 
damage it, as he put the torch to Kuwait's oil fields in 1991. Indeed, 
we have reason to believe that Saddam's regime is planning to sabotage 
Iraq's oil fields. But even if there is no sabotage and there is no 
injury from combat operations, some repair work will likely be 
necessary to allow the safe resumption of operations at oil facilities 
after any war-related stoppage.
    Detailed planning is underway for resumption of oil production as 
quickly as possible to help meet the Iraqi people's basic needs. The 
oil sector is Iraq's primary source of funding. As noted, the United 
States is committed to preserving Iraq's territorial integrity. So we 
are intent on ensuring that Iraq's oil resources remain under national 
Iraqi control, with the proceeds made available to support Iraqis in 
all parts of the country. No one ethnic or religious group would be 
allowed to claim exclusive rights to any part of the oil resources or 
infrastructure. In other words, all of Iraq's oil belongs to all the 
people of Iraq.
    The Administration has decided that, in the event of war, the U.S.-
led coalition would:

  <bullet> protect Iraq's oil fields from acts of sabotage and preserve 
        them as a national asset of the Iraqi people, and

  <bullet> rapidly start reconstruction and operation of the sector, so 
        that its proceeds, together with humanitarian aid from the 
        United States and other countries, can help support the Iraqi 
        people's needs.

    The Administration has not yet decided on the organizational 
mechanisms by which this sector should be operated. We shall be 
consulting on this important matter with many parties in various 
countries, including Iraqi experts and groups.
``No War for Oil''
    This is a good point at which to address head-on the accusation 
that, in this confrontation with the Iraqi regime, the Administration's 
motive is to steal or control Iraq's oil. The accusation is common, 
reflected in the slogan ``No War for Oil.'' But it is false and malign.
    If there is a war, the world will see that the United States will 
fulfill its administrative responsibilities, including regarding oil, 
transparently and honestly, respecting the property and other rights of 
the Iraqi state and people. The record of the United States in military 
conflicts is open to the world and well known.
    The United States became a major world power in World War II. In 
that war and since, the United States has demonstrated repeatedly and 
consistently that we covet no other country's property. The United 
States does not steal from other nations. We did not pillage Germany or 
Japan; on the contrary, we helped rebuild them after World War II. 
After Desert Storm, we did not use our military power to take or 
establish control over the oil resources of Iraq or any other country 
in the Gulf region. The United States pays for whatever we want to 
import. Rather than exploit its power to beggar its neighbors, the 
United States has been a source of large amounts of financial aid and 
other types of assistance for many countries for decades.
    If U.S. motives were in essence financial or commercial, we would 
not be confronting Saddam Hussein over his weapons of mass destruction. 
If our motive were cold cash, we would instead downplay the Iraqi 
regime's weapons of mass destruction and pander to Saddam in hopes of 
winning contracts for U.S. companies.
    The major costs of any confrontation with the Iraqi regime would of 
course be the human ones. But the financial costs would not be small, 
either. This confrontation is not, and cannot possibly be, a money-
maker for the United States. Only someone ignorant of the easy-to-
ascertain realities could think that the United States could profit 
from such a war, even if we were willing to steal Iraq's oil, which we 
emphatically are not going to do.

     THE STRUCTURE AND FUNDING OF THE OFFICE OF RECONSTRUCTION AND 
                        HUMANITARIAN ASSISTANCE

    Returning now to the new Pentagon Office of Reconstruction and 
Humanitarian Assistance: There are three substantive operations within 
the Office, each under a civilian coordinator: Humanitarian Relief, 
Reconstruction, and Civil Administration. A fourth coordinator is 
responsible for communications, logistics and budgetary support. These 
operations are under the overall leadership of Jay Garner, a retired 
Lieutenant General who held a senior military position in the 1991 
humanitarian relief operation in northern Iraq. He is responsible for 
organizing and integrating the work of the three substantive operations 
and ensuring that the office can travel to the region when necessary 
and plug in smoothly to CENTCOM's operations. His staff consists of 
representatives from the Departments of State, Defense, Justice, 
Treasury, Energy, and Agriculture, the U.S. Agency for International 
Development and the Office of Management and Budget.
    The Office of Reconstruction and Humanitarian Assistance has only 
just begun the task of estimating the cost of post-war humanitarian 
assistance. In addition, it is working to identify the projected post-
conflict costs of dealing with the Iraqi armed forces, including the 
costs of disarming, demobilizing and reintegrating Iraqi troops into 
civilian society.
    Except for the Defense Department, the USG is currently operating 
under a FY 2003 continuing resolution. This has affected the level of 
funding that can be made available now, as agencies have access only to 
limited amounts of money.
    In any case, the overall Iraq reconstruction and relief budget 
would require a FY 2003 supplemental appropriation. Timing of a FY 2003 
supplemental is important. Delays would hinder relief and 
reconstruction programs.
    As part of our post-war planning, CENTCOM has also established a 
Combined Joint Task Force that will be responsible for U.S. and 
coalition forces in Iraq in the immediate aftermath of a conflict. The 
task force will work closely with the Office of Reconstruction and 
Humanitarian Assistance to facilitate relief and reconstruction 
activities.

                  THE RESPONSIBILITIES OF FREE IRAQIS

    Because the Commander of the U.S. Central Command will have a key 
role in administration in Iraq, many have thought that our plans for 
Iraq are based on what the Allies did in Germany after World War II. 
But that is not the case. Our intention, in case of war, would be to 
liberate Iraq, not to occupy it.
    Our administration would involve Iraqis as soon as possible, and we 
would transfer responsibility to Iraqi entities as soon as possible. 
Following the initial period of U.S./coalition military government, we 
envisage a transitional phase in which responsibility is gradually 
transferred to Iraqi institutions, leading to the eventual 
establishment of a new Iraqi government in accordance with a new 
constitution.
    The following are examples of the ways in which Iraqis might play a 
progressively greater role in administering the country. While final 
decisions have not been made, and, in the nature of the case, cannot be 
made until the actual circumstances are known, these examples 
illustrate various mechanisms under consideration:

  <bullet> An Iraqi consultative council could be formed to advise the 
        U.S./coalition authorities.

  <bullet> A judicial council could undertake to advise the authorities 
        on the necessary revisions to Iraq's legal structure and 
        statutes to institute the rule of law and to protect individual 
        rights.

  <bullet> A constitutional commission could be created to draft a new 
        constitution and submit it to the Iraqi people for 
        ratification.

  <bullet> Major Iraqi governmental institutions--such as the central 
        government ministries--could remain in place and perform the 
        key functions of government after the vetting of the top 
        personnel to remove any who might be tainted with the crimes 
        and excesses of the current regime.

  <bullet> Town and district elections could be held soon after 
        liberation to involve Iraqis in governing at the local level.

    Regarding post-war planning, much preparatory work has been done, 
but much more remains. The Office of Reconstruction and humanitarian 
Assistance will serve as the U.S. Government's nerve center for this 
effort.
    We look forward to consulting with this Committee and with the 
Congress generally as we develop our ideas and plans for post-conflict 
Iraqi reconstruction. War is not inevitable, but failing to make 
contingency plans for its aftermath would be inexcusable.

    The Chairman. Thank you very much, Secretary Feith.
    Let me mention we have once again great attendance by the 
committee and I will ask unanimous consent that we have a 5-
minute rule. With 12 members currently present, that is at 
least an hour of questions if members roughly respect the 5 
minute period. And we have a distinguished panel and another 
round following that. So I will begin, and please start the 
clock on me.
    Secretaries, let me just mention specifically that in the 
New York Times this morning there is criticism that NGOs, 
nongovernmental organizations, are not able to get needed 
answers, support, and other things. I am pleased to know the 
office was set up 3 weeks ago, and clearly General Garner 
cannot do everything at once, but at the same time we should 
note that a great deal of the money, the international 
support--particularly in the initial feeding and shelter--and 
other attentions to the humane situation, will come not only 
from NGOs in our country and other countries, but is a very 
important part of the budget, which is currently being 
formulated.
    The New York Times article this morning details the 
criticism. Another New York Times story addresses the 
recruitment of a leader who might take part in the Government 
of Iraq later on, but also states that our government has come 
to the conclusion that we will not support the idea of an 
initial government in exile to be foisted upon the Iraqis.
    Clearly, another London meeting may occur, where various 
contentious groups may come together. We would like as a 
committee to be briefed from time to time on what is going on 
with regard to the murky shadows of exiled Iraqis, to their 
aspirations, and to how Iraqis on the ground might feel about 
all this. This is the transition period, but we want to make 
sure the transition period is just that--as opposed to some 
pre-transition or pre-military phase or what have you, as you 
describe it.
    Now, the oil question that you have raised, Secretary 
Feith, is very important. The papers also have polls which you 
have cited at least tangentially, that show large majorities of 
people in other countries believe our sole objective in all of 
this is oil. That is wrong. You have stated that categorically.
    But the issue will not be cleared away without implementing 
a policy for the admission of the oil fields including how the 
people of Iraq are to receive the benefits, and in fact 
addressing how much of this operation that you are describing 
might be paid for through oil revenues. There is a distinct 
connection: if the oil wells are destroyed, the revenues do not 
come in. That changes the budget situation, which the Iraqi 
people on the ground now ought to understand, as well as the 
Russians, the French, all the people that likewise in a murky 
way we discuss as potential members of the coalition, or the 
Security Council. All these parties are publicly discussing 
oil, and it really cannot be hidden behind the bushes.
    Now, to the extent that there is a distinct plan on our 
part to be, as you suggest, transparent, and to think in terms 
of the humane treatment of the Iraqi people and their future, 
that can be stated and that can be organized. As you say, you 
cannot do everything, but it is still out there. It needs to be 
finalized in a hurry because that is in the nub of many of the 
consultations diplomatically at the U.N. now, and I am hopeful 
that everybody is mindful of that.
    Let me just ask as my question: With this organization 
clearly in the Department of Defense, but, not exclusively 
that, you have detailed people from many departments, and that 
is important. You establish a chain of command, General Franks 
and/or others who are there on the ground, and they try to 
administer the country, at least keep the territorial 
integrity, get to the weapons of mass destruction. You probably 
need military authority to do both of those.
    How do you begin the transition? In other words, how do you 
begin to identify? Does General Franks identify political 
leadership? Are there other persons in his administration who 
are detailed to sort of scout the horizons for a President 
Karzai or for whoever may arise or for a group of such 
promising people?
    In other words, the audacious aspect of what we are 
attempting in Iraq is not just eliminating weapons of mass 
destruction arising from our September 11 genuine fear of 
weapons that may come and be proliferated but likewise we are 
trying to create a changed State in Iraq that will be 
different, that will offer some hope to all the States in the 
surrounding territory, that will be so good that it exists and 
that it continues, as opposed to an experiment that fails and 
becomes a vacuum, like the former Afghanistan.
    How does this transition start? Who is responsible for it?
    Mr. Grossman. Mr. Chairman, let me start with a couple of 
answers and then I would be glad, obviously, for Doug's 
assistance here. Let me first, if I could, talk a little bit 
about the nongovernmental organizations since, as you raised 
it, they are extremely, extremely important. In fact, we 
believe as you look through all of the effort that has been 
made on the humanitarian and the reconstruction areas, without 
NGOs this will not be possible, it will not be possible to 
accomplish this task.
    We have been focused on our relations with NGOs. There is 
now a weekly meeting, civil, military, where we have about 30 
NGOs represented. So that coordination I think is happening in 
a much more systematic way.
    No doubt, though, sir, that there was--it was slow in 
getting NGOs the licenses they need to go into Iraq. The reason 
this got slowed down, as both Under Secretary Feith and I 
learned, is of course the NGOs wanted to import or take things 
into northern Iraq or into Iraq that of course were sanctioned, 
that were under the Oil for Food Program, that were under OFAC 
licenses. And it took us some time to work our way through 
that.
    I can report to you now that, with good work between the 
State Department, the Treasury Department, the Defense 
Department, we have now cleared away a very large amount of 
that backlog for our own people to work in Iraq, some NGOs to 
work in Iraq, and we are down, at the State Department anyway, 
to a backlog of two NGOs as opposed to about 25 a week or so 
ago.
    So we are working on this. There is still more work to do. 
But I just want to emphasize the importance of nongovernmental 
organizations.
    Second, just to pick up the point that you made about where 
we stand. We actually have come to the conclusion that now is 
not the time to have a provisional government or a government 
in exile because, as I tried to say in my testimony, yes, we 
are working with some extremely good, talented and wonderful 
people who are outside of Iraq, but we have to also take into 
account the views of people inside Iraq.
    I think, as Secretary Rumsfeld has said and I know 
Secretary Powell has said, a lot of this has to come from the 
bottom up. That is a very important answer to the question 
about how it will be maintained and how it will go on for more 
than 6 or 8 or 10 months or even a year.
    Finally, that leads me to say that how exactly this 
transition will take place is, as you say, perhaps opaque at 
the moment. But what we are planning for is with the Future of 
Iraq Project, with our efforts to publicize our campaign inside 
of Iraq, with the fact that I hope Iraqis will consider this, 
if there has to be a military operation, as liberation, that 
there will be people who will come up and want to participate 
in the future of their government.
    That is what we expect, that is what we hope, and that is 
what we will be planning to achieve.
    Mr. Feith. Mr. Chairman, I think that much of the issue 
that you have raised about how a transition would occur is not 
knowable precisely right now. But what we have been working on 
through the various groups that Under Secretary Grossman is 
talking about is developing principles and guidelines how we 
would approach the question of encouraging, cultivating, and 
permitting to function new Iraqi leadership after a conflict.
    It is not our thinking that we are going to be able to 
impose particular people or even a particular governmental 
system on the Iraqis. I think that we recognize that it would 
not be a right thing to do and it probably would not even be 
something that we could pull off if we attempted it. The 
governmental structures that exist right now may be, as I 
mentioned in my testimony, may be usable to some extent within 
a reconfigured Iraq where the technocratic aspects would be 
perhaps salvageable to some extent, even though the fundamental 
politics of the country would no longer be tyrannical and 
would, on the contrary, we hope build democratic institutions 
for the benefit of the people of Iraq.
    The point that you made about oil, Mr. Chairman, is 
obviously at the fore of everybody's mind. We have given a 
great deal of thought to the importance of securing and, if 
necessary, repairing and producing the oil. We do not have 
final decisions within the administration on exactly how we 
would organize the mechanism to produce and market the oil for 
the benefit of the people of Iraq.
    Obviously, it would be beneficial to have that done to the 
maximum extent possible by Iraqis, by a mechanism that would be 
international in nature and show the world the points that I 
made in my opening statement, that our intention is to be 
completely honest, transparent, and respectful of the rights, 
the property rights in particular, of the Iraqi State and 
people.
    This is something where the actual decisions will be made 
through a consultative process with lots of parties. We have 
begun our thinking. We have laid down some principles. We are 
beginning the consultative process, but the final decisions 
have not yet been made.
    The Chairman. Thank you. I would just encourage 
acceleration.
    Senator Biden.
    Senator Biden. Mr. Chairman, first of all, I want to thank 
both witnesses for being here.
    Secretary Feith, I think your explanation of the response 
to ``we are going for oil'' needs to be repeated and repeated 
and repeated. I was recently on French television when I was at 
the World Economic Forum and a group of French journalists 
asked me if this this about oil and I said yes. And they said, 
Ah, America admits it. I said, it is about French oil, it is 
about French oil, because they are the ones with significant 
investment, they are the ones with a significant opportunity. 
They are the ones, along with the Russians, who have a 
phenomenal opportunity, they think, under Saddam to be able to 
benefit.
    So I think that should be repeated. And again, I thank you 
both for being here, and you are not the ones to whom I am 
directing this. I have been publicly and privately, I think, as 
supportive as I can be of this administration. But I must tell 
you, I think it has been close to irresponsible that we did not 
have the office that you are talking about now set up until 3 
weeks ago. I think it is irresponsible.
    I think the comments of the Secretary of Defense as 
recently as this summer with us, where he said to us--and I am 
paraphrasing--that he did not think there would be a need for 
any large commitment of U.S. forces after a victory because 
this is a country rich with oil and well-trained people. 
Secretary Weinberger, as Mr. Feith will remember testifying 
when he testified, told us this was just a red herring to keep 
us from going on, the people who raised this issue were people 
who really did not want to deal with Saddam Hussein.
    It does disturb me that, although you say that how this 
transition is going to take place is not knowable, you have 
guidelines. Certain things are knowable. At least you should 
know them by now, with all due respect. Even though you may 
find this bevy of incredibly neutral technocrats and 
bureaucrats who will be accepted by the Kurds, the Shia, and 
the Sunni, who are not part of the security apparatus, to keep 
the water running, the lights on, the traffic flowing, et 
cetera, they have to answer to somebody.
    Who is that going to be? Is that going to be an American 
general? Is that going to be, like we have in Bosnia, the EU or 
some European? Is it going to be the United Nations?
    Those decisions I cannot fathom, when we are 3 weeks away 
from war or 5 weeks away from war possibly, you do not know the 
answer to yet. You have not made a decision yet. They are 
monumental. The debate is still going on in the press, at 
least, as to whether or not the model is going to be a 
MacArthur model in Japan or a, for lack of a better phrase, as 
is often used, a Kosovo model, where you have someone else 
taking the responsibility day to day.
    Somebody is going to have to make the judgments. Somebody 
is going to be sitting in a chair and it will not be a 
technocrat, who when you have 2,000 Kurds standing on the 
outskirts of Kirkuk saying, we want our houses back, we want 
our property back, somebody is going to have to negotiate that. 
Somebody is going to be standing there, as my friend the former 
Governor of Ohio knows from all his work he and I did in the 
Balkans, somebody.
    And you have not figured out whether that is going to be a 
U.N. official backed by American forces and others, that is 
going to be an EU official, that is going to be a NATO 
official, that is going to be an American.
    So my question is this. Rather than tell me--and you have 
done more than generically respond--but generically what the 
guidelines are, what are the missions that you believe, the 
military and the civilian side, are going to have to be 
fulfilled in the first 6 months after the shooting stops? By 
missions I mean: securing the borders--I am not telling you 
what the missions should be. I am just giving you illustrative.
    What are the missions that you must know by now must be 
undertaken by some entity other than an Iraqi entity at the 
front end of this? What are the missions? Not even who is going 
to do them. What are the missions? Preventing ethnic conflict, 
securing the borders? You mentioned one clearly we focused on, 
correctly, is securing the oil fields or getting them back up 
and running.
    What are the missions that must be fulfilled and can only 
be fulfilled by some outside entity or group of people, outside 
entity overseeing an indigenous group of Iraqis, that must be 
fulfilled to prevent this country from splitting apart like a 
gyroscope out of kilter?
    I thank you for listening to me and I am anxious to hear 
your answer.
    Mr. Grossman. Mr. Biden, let me try to answer all that I 
can, and I know Doug will have some views as well.
    Senator Biden. All you have to do is answer the mission 
part. You can respond to my comments.
    Mr. Grossman. I would like to respond to the question of 
the decision of what runs that section two, the middle section 
if you will.
    Senator Biden. Well, I am worried about section one.
    Mr. Grossman. No, but I think it is related and important 
if you do not mind, sir.
    Senator Biden. Sure.
    Mr. Grossman. One of the reasons that we have not made this 
decision or, I should properly say, the President has not made 
this decision is if you list, as you did, the possible groups 
that could take on that mission, who do you list? The United 
Nations, the European Union, the United States. I think you 
will understand that from our perspective, and perhaps we are 
doing this too slow, but from our perspective I cannot answer 
the question yet of whether we want to have a United Nations 
transitional authority until I know what the United Nations is 
or is not going to do if there has to be military conflict.
    For example, if we go through, as the President said last 
week, and he now welcomes and supports a second resolution and 
we are successful in getting a second resolution and 15 to 
nothing or something less than 15 to nothing the United Nations 
says yes, Saddam Hussein has not met his obligations under 
1441, let us go, then the United Nations' role possibly in a 
transition or in the first 6 or 8 weeks could be a big one.
    Senator Biden. Marc, you are the single best negotiator I 
have observed in my last 10 years here. You know darn well the 
way you would be talking with the United Nations is to say: 
Look, if you guys are in on the deal here this is what we would 
like you to do. What they wonder about is whether or not you 
want them in on the deal. And if that does not work, you should 
be talking to the EU.
    You can walk and chew gum at the same time. You do not have 
to wait to see what they are going to do. One of the problems 
is they are worried that you all do not have a plan. Every 
European leader I have met with in the last year is worried you 
do not have any plan, because they have heard all this rhetoric 
about no nation-building, heard all this rhetoric about we are 
warriors, we are going to fight the war and we are going to 
leave.
    They have heard all this rhetoric and, guess what, they 
believe our rhetoric. Fortunately we do not, but they believe 
it.
    Mr. Grossman. Just let me come back. Let us say that the 
opposite----
    Senator Biden. I apologize for----
    Mr. Grossman. No, you make a fair point. But in terms of a 
negotiation right now, the United Nations--this issue is to the 
United Nations. It is to the Security Council. The Security 
Council has a decision to make about whether it is going to 
back its 15 to nothing vote under 1441. I will speak purely for 
myself here, and again I say no decisions have been made.
    But you can see a completely different path, Mr. Biden, if 
the United Nations Security Council votes again 15 to nothing 
for a new resolution. Then it seems to me we might consider a 
role or some role for the United Nations. I say, no decisions 
have been made. That is my view.
    But if the United Nations does not meet its 
responsibilities, then it is very much harder, I think, for us 
to come and argue in front of all of you that in a part of 
phase one or part of phase two that we would turn this over to 
some international body. I do not know the answer to that 
question, but I just want to let you know that it is not for 
lack of thinking about it. It is the fact that you have got, 
from our perspective, you have got to get the sequence right.
    I believe the same thing would apply to the European Union. 
I would guess that if you went to an EU meeting today and you 
made a proposition to them, the first thing they would say is, 
well, when--is there going to be another U.N. Security Council 
resolution? We would say: We sure hope there is----
    Senator Biden. A 10-second interruption. We have had no 
trouble saying all along: Look, we want the U.N. to go with us, 
we want a U.N. resolution; if we do not get that U.N. 
resolution, we will go ourselves. You could easily have been 
saying: We want you all to participate in this, we want this to 
be a joint operation, we want this to be a joint occupation, we 
want this to be run by the United Nations, if in fact you say 
that. And by the way, if you do not, then we may have to do it 
ourselves. You all have not done that.
    I have talked to several Foreign Ministers. I have talked 
to all those foreign heads of state. Unless they are not 
telling me something you are telling them, I do not think you 
have told them any of that.
    Mr. Grossman. Well, part of the--I do not mean to get into 
a colloquy here, but part of the challenge of course is that we 
are here today to talk to you about our plan for humanitarian 
reconstruction, for political reconstruction. I think it is 
right that we would be consulting with the U.S. Senate before 
we do much more with a lot of people outside of the United 
States.
    So we are here----
    Senator Biden. You are good, pal. You are good.
    Mr. Grossman. We are here to do consultation and the is 
what we are trying to do.
    So I think people should be in no doubt about our plan. Let 
me try to answer the question that you posed about every 6 
months--or for the first 6 months, excuse me. You hit I think 
all the important ones: security; we both emphasized weapons of 
mass destruction; trying to bring basic human services to 
Iraqis. One of the things that I think is very impressive, and 
we are glad to consult further on this or provide further 
information, USAID for example has laid out a very detailed 
plan for their operations in the first months, months 1 to 3, 3 
to 6, and areas of water, sanitation, public health, 
humanitarian, sea port, airports, establishing food 
distribution, emergency electricity.
    So as I said in my introduction, we now have a stack of 
these plans that are not just ideas, but actually lay out 1, 3, 
and 6-month timetables, and I would be glad to put them into 
the record and I think you would be interested in them and take 
a look at them and see the mile markers and you can see our 
goal is to make real progress.
    Senator Biden. That is two functions. You only named--are 
they the only two functions? In other words, what two--you said 
humanitarian. Are we going to secure the borders? Are we going 
to secure the borders of Iraq? Is that a mission?
    Mr. Feith. Yes.
    Senator Biden. Is that going to require troops on the 
Iranian border? Is it going to--I mean, what is the mission? 
What are you anticipating?
    Mr. Feith. Senator, it is hard to answer a lot of these 
what-if's because a lot depends on future events that we do not 
know. As Secretary Rumsfeld likes to say, he says he does not 
know whether, if there is a war, it is going to be ``4 days, 4 
weeks or 4 months.''
    A lot depends on, if there is a war, what the nature of the 
war is, how much destruction there is, how much cooperation one 
gets, how many Iraqi units defect. There are enormous 
uncertainties. And the most you can do in planning is develop 
concepts on how you would proceed, not rigid plans based on 
some inflexible assumptions about how future events are going 
to unfold.
    That is our problem. You know that as well as we do. So 
what we have done is we have been thinking this through as 
precisely as we can in light of the uncertainties.
    Now, on one question that you posed, just so that there is 
no lack of clarity on that, if there is a war and if U.S.-led 
coalition forces come into control of Iraq, then the 
responsibility for administering the country in the immediate 
aftermath of the war--and the administration is the entire 
range of missions that you could imagine that any responsible 
authority would need to perform for the benefit of the people 
of the country. That entire range of responsibilities falls to 
the military commander. It would fall to General Franks.
    The goal then would be, when he has those responsibilities 
in his hands, to do the things that I outlined, that Under 
Secretary Grossman outlined, in our opening statements, which 
is make as much use of international contributions as we can so 
that we spread the responsibilities and burdens, and help get 
as much international involvement and legitimacy into our work 
there, to work as quickly as we can to find Iraqis to whom we 
could transfer responsibility so that it is clear that we are 
liberating and not occupying the country.
    Those are the kinds of missions that we would perform. 
There would be no question about who ultimately would be 
responsible if we wind up leading the coalition that takes 
control of the country. It would be the military commander. 
There would be no vacuum of authority. But there would be a 
process that would begin immediately to try to bring us sector 
by sector into the transition phase that Under Secretary 
Grossman talked about.
    Senator Biden. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for coming before us this morning and 
we are grateful for your leadership and your efforts. These are 
not simple tasks, as you have laid out. There are no specific 
answers to any of these questions.
    But as I have listened to the exchange here, it seems to 
me, and using, Secretary Feith, your last comment about 
international legitimacy, that if you are making the case--and 
this is what I am understanding, the case that you both are 
making--that the great uncertainties of a post-Saddam Hussein 
rest to a considerable extent on our coalition partners who 
will be with us, their role in whatever we have to do, United 
Nations, NATO, IAEA--in fact, you mentioned in your testimony, 
Secretary Feith--although you did not read it, it is in here, 
reference to those organizations--then are we not wiser to 
bring our coalition partners along here, rather than laying 
down a time line, as we have heard the last couple of weeks, 
either you do it our way or we will do it?
    I think your arguments, at least this morning what I have 
heard, argue very strenuously and I think correctly to working 
our way along with our coalition partners. I might read a 
Newsweek piece that came off the wire yesterday, and it quotes 
a State Department official, not by name. I know that is 
strange in this town. But let me read it to you because, 
Secretary Grossman, you might know about this. This Newsweek 
story that appeared on the wire yesterday says:
    ``Administration officials are keenly wary of a long-term 
occupation in the heart of the Arab world, where anxieties 
about Western invaders date back to the Crusades. `Every day 
you get past 3 months, you have got to expect peacekeepers to 
have a bullseye on their head,' '' one State Department 
official tells Newsweek.
    As you have laid out the framework for the office that we 
intend to set up--again I go back to your original points--much 
of this is uncertain. But can you tell this committee which 
nations specifically have committed specific resources to a 
post-Saddam Iraq? Surely you must have some budgetary numbers. 
You mentioned a supplemental. Surely you must have some numbers 
of people it would take. Uncertain, I know that.
    But as much time and precision that you have put into 
this--obviously you are proud of it and it is impressive--to 
disconnect that from any budget numbers or timeframe or people 
seems to me not to be very realistic.
    So I would appreciate hearing from both of you on those 
questions. Thank you.
    Mr. Feith. Senator, the United States has been talking with 
friends around the world on this subject for a long time. I 
hope that Senator Biden's remarks do not lead anybody to think 
that we have not been engaging our various potential coalition 
partners in discussions on this subject. We have been. I mean, 
I could understand that----
    Senator Biden. Who?
    Mr. Feith. Well, I am reluctant to get into the who because 
of the political realities and diplomatic realities, with which 
you are all familiar.
    Senator Hagel. Excuse me, Mr. Secretary. If you are having 
a problem now getting into it, what the devil do you think you 
are going to have a problem when we get in there?
    Mr. Feith. Well, Senator----
    Senator Hagel. With real men and women on the ground and in 
a war and trying to rebuild Iraq. And if you cannot define any 
of this now----
    Mr. Feith. Let me suggest the following way to think about 
it, which is the way we have been thinking about it within the 
administration. We have been talking with scores of countries 
about this whole issue of potential contributions to a 
coalition effort in Iraq for many months now. As we have these 
discussions, the countries in effect fall into different 
baskets.
    There are some countries that say: We are with you in very 
specific ways no matter what. There are other countries that 
say: We will be with you in certain ways, and the ways range 
from, as we were talking about before, contributions of combat 
personnel or access, basing, and overflight rights. or in some 
cases some countries have specifically said: We are not 
interested in being involved in the war, but we would be 
interested in being involved in stability operations afterward.
    But there is a great sensitivity, that many countries are 
not interested in having their role publicized because it 
depends on--they are not interested in making public 
commitments until other things happen, whether the U.N. acts or 
acts in a certain way, whether there is another U.N. meeting or 
there is another, second resolution, or whether the second 
resolution says some particular formula or not.
    So we are not in a position, although we have had extensive 
consultations and we have ideas about who is willing to 
contribute what--it would not be good coalition management for 
us to be publishing lists of what countries have told us they 
are interested in doing under what circumstances. That is why 
we have to be a little guarded in how we talk about this. It is 
not that we have failed to talk to people and it is not that we 
have not pinned down possible contributions to the extent that 
countries are willing to be pinned down at this point.
    Senator Hagel. Thank you.
    Mr. Grossman. Senator Hagel, with Doug's permission, 
perhaps if there was some way, Mr. Chairman, that we could 
transmit that information to you in a classified way, we would 
be glad to do it. It is all laid out----
    The Chairman. We would appreciate that very much.
    Mr. Grossman. We are not trying to duck your question here, 
but I think you can understand the difference between saying it 
and giving you a list in public. But we are very glad to give 
you an update on exactly where we stand in all of these 
consultations.
    Senator Hagel. If I might make one more point, Mr. 
Chairman, and thank you for your indulgence. I go back to where 
I started, and you gentlemen understand this better than most 
of us because you have the responsibility of putting this 
together. You keep using the term ``coalition,'' ``our 
coalition partners.'' Again I say, does that not say something 
about the point of trying to bring our coalition partners along 
with us, NATO, United Nations, Security Council, because we are 
going to need them after this. And you have said that. In fact, 
we cannot get to much below what you have just presented today 
because you do not know.
    Thank you.
    Mr. Grossman. Senator Hagel, may I? I, with the chairman's 
permission, was going to respond to exactly that point. Again, 
possibly a difference in perspective, but I think if you go 
back to the debate in this country in July and August of last 
year, when the debate was about what is the United States going 
to do, is the United States going to act alone, will the 
President of the United States involve the international 
community in this, and then look at what the President said on 
the 12th of September, which is what I thought was a very 
effective speech at the United Nations and essentially turned 
this debate around.
    I think it was the beginning, sir, of a very public effort 
to bring our partners along. We spent, all of us, 7 or 8 
weeks--I cannot remember which one--negotiating Resolution 
1441, which was a way to bring partners along. You will 
remember when we started that negotiation. What would you have 
all bet that it was going to be 15 to nothing? Not much. But 15 
to nothing was the outcome, and I think that brought a large 
number of people along.
    I think the fact that President Bush has said last week 
that he welcomes and would support another resolution in the 
United Nations would do more of that. And if you look at NATO, 
which, as you and I have talked about a number of times, a very 
important part of this, we took a lot of criticism for not 
involving NATO in Afghanistan, like it or not. But Paul 
Wolfowitz went to NATO on the 2nd of December or 3rd of 
December of last year and laid out a whole series of things 
that NATO might be able to do in Iraq.
    I think it is terrible what has happened these last few 
days with NATO. But I must say, sir, from my perspective 
anyway, it is not for the lack of us trying to bring people 
along. I think there is some reluctance to be brought along in 
some of this.
    But if you look at the statement of the Vilnius 10, if you 
look at the statement of the 8 other countries in Europe, if 
you look at the fact that 16 of 19 allies are prepared to move 
along with George Robertson, who I think has done a wonderful 
job in this, we are trying to do this. Are we 100 percent 
successful? No, sir, but I think our objective is to meet your 
objective, which is to bring along as many people as we 
possibly can.
    The Chairman. Well, we thank you for the response. I would 
just say on behalf of both of my colleagues, Senator Biden and 
Senator Hagel, that we are all of one mind that a lot of people 
have to be brought along. Senator Biden has just shared with me 
a Washington Post survey this morning which indicates that two-
thirds of Americans are prepared to support military action if 
necessary, but a huge number are not with us on what we are 
talking about today. In other words, they have not even come to 
the table of understanding.
    That is our fault here in the Congress. It is your fault in 
the administration. We are playing catch-up ball. And the same, 
as Senator Hagel has said, with our allies, who have publics 
likewise, even if their leaders are up front affirming through 
the Vilnius letter and others their support.
    Senator Biden. And 56 percent of the people in that poll 
say if we have to stay for 2 years and spend $15 million a 
year, which is the lowest estimate I have heard, they are 
against doing that. And 46 percent of the Republicans polled 
who support going to war with Iraq oppose staying for 2 years 
at $15 million a year--$15 billion a year. You have got a lot 
of work to do.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I thank both of you gentlemen and I know you are getting 
some pretty tough questioning. And these are the basic 
questions. I guess what I am still confused by is, why did we 
give the President a blank check to go ahead with this before 
we had the answers to these questions? How can we expect our 
allies to join us when we do not have the answers to these 
questions?
    That is what is going on here. We gave the President the 
authority to go ahead and do this before we knew what we were 
really getting into. So I frankly have sympathy for your task 
here, in that we are trying to make this up as we go along. 
This is the fundamental question: What happens after, the day 
after or the 10 years after?
    I agree with you that it is a wonderful vision to liberate 
the Iraqi people from Saddam Hussein. The Iraqi people need to 
be liberated from Saddam Hussein. How exactly that can happen, 
how legitimately that happens, and at what cost are important 
questions. But that has to happen.
    But just yesterday the President asserted that the Iraqi 
Government is placing troops in civilian areas to create human 
shields for its military. In light of this information and 
various informed scenarios focusing on the likelihood of urban 
warfare in Iraq, the United States may well be drawn into 
fighting that results in fact in heavy civilian casualties if 
we go to war with Iraq.
    Then, under your scenario, we are going to turn to the same 
people who lost loved ones and were injured in the conflict and 
the same people who have been told over and over again the lie 
that U.S. sanctions are the cause of all their hardships in 
recent years and we are going to tell these people that the 
U.S. military will be governing Iraq and looking out for their 
welfare.
    I know that many Iraqis will be delighted to see Saddam 
Hussein go. But I am also concerned that under these 
circumstances the United States may well find itself asserting 
authority over what may well be a substantially hostile people.
    So let me ask you, what kind of stability can be 
consolidated in such an antagonistic situation? And if you then 
factor in the many, many actors who will be incensed by the 
notion of a U.S. occupation of a Middle Eastern country, I have 
to ask, what kind of conditions will U.S. soldiers be facing 
for months on end?
    Mr. Grossman.
    Mr. Grossman. Senator, thank you. And I appreciate the fact 
that you recognize where we are on this. If I could make one 
general point, which is that when you say that we need to do a 
better job in putting out answers, I say that is absolutely 
true and I want to report to you and to the chairman that Doug 
and I yesterday asked that many, many, many of the slides and 
the briefings on all of these things be declassified, so that 
we might be able to come to you and show you the work that has 
been done on the humanitarian and reconstruction. That is a 
challenge for us at the moment, but I hope we will break 
through that over the next couple of weeks, so that you can see 
that there are answers we would like to give you in public. I 
apologize, we just cannot do that right now.
    In terms of what are the challenges we face, all of those 
revolve around two things, it seems to me: one, the commitment 
that both Doug and I made to you that our objective here is to 
stay in Iraq as long as it takes but not one day longer, and 
that will be a judgment that we will have to make as we go 
there if there is military action; second, that if the United 
States is the authority in Iraq it will be the job of that 
authority, of all of us, to make sure that Iraq for the very 
first time in a very, very long time is run for the benefit of 
the Iraqi people.
    I believe that is a case that can be made, and if it is a 
case that can be made in the humanitarian area, in the 
reconstruction area, and in the oil area, I think we will allow 
ourselves some space to transit quickly to Iraqi authority.
    For example, 60 percent of Iraq's people today get their 
food through the Oil for Food Program through a government 
handout. The economy does not work. There is infrastructure 
there that has been decaying the last 10 or 15 years. What we 
learned in Afghanistan was that if we could quickly do things 
that show people that there is a tangible benefit to this 
change, then we are able to bring people along.
    I do not say to you for a second that this is an easy 
thing, but I think it is a doable thing.
    Senator Feingold. Let me ask you this. I mean, obviously 
you are operating with different scenarios.
    Mr. Grossman. Yes, sir.
    Senator Feingold. Can you give me some sense of how long 
this might take under different scenarios? What are the 
different scenarios you are working with in terms of turning 
over the occupation from the American forces to the Iraqi 
people? You must have some kind of a timeframe in mind. I do 
not mind if it is several different ones, but some sense of 
what we are talking about here?
    Mr. Grossman. Sure. Let me sort of give you an insight into 
how thinking has evolved on this. I think when Doug and I first 
started on this 6 or 8 or 10 months ago we saw this as a rigid 
thing. We would do phase one for x number of months, phase two 
for x number of months, phase three for x number of months. But 
as we have learned more about this and as we have made more 
proposals to our bosses, what we have come to conclude is that 
you could have this transition take place at different rates in 
different places.
    For example, let us say that you went into the Ministry of 
Health and, after getting rid of the top x layers and dug down 
and found, as you said or Senator Biden said, that there are 
very competent people working in the Ministry of Health, that 
you might be able to transition the Ministry of Health back to 
Iraqi control quite rapidly. But if you went over to the 
ministry of weapons of mass destruction, that might take a very 
long time.
    Senator Feingold. Give me one scenario where that is all 
done; how much time does it take? Give me one estimate of how 
long you think the entire process of turning all those over 
takes?
    Mr. Grossman. Twelve years.
    Senator Feingold. Twelve years?
    Mr. Grossman. Yes, sir.
    Senator Feingold. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    I think some of the feelings on both sides of the aisle 
here are that there is a kind of a disconnect between the 
rhetoric we are hearing on all the rosy scenarios and a strong 
feeling of what might be another scenario and why are we not 
hearing some more about a worst-case and what are we prepared 
for in that instance?
    It seems to me worst case would be that this is not viewed 
as or interpreted as a liberation. It is interpreted by many 
people, not only in Iraq but around the region, as a war on 
Islam and then we see all around the region, whether it is 
Jordan or Saudi Arabia, governments toppled. This is a worst-
case scenario.
    How are we prepared for that? Not only, as we saw years 
ago, looking back in history, did not Chiang Kai-shek and Mao 
get together to fight the Japanese? Will the Sunnis and the 
Kurds get together to fight the invaders? What happens then? Do 
we have an exit strategy? Or do you have plans? Are you being 
forthcoming?
    Then is it on into Syria if we have problems there? Is it 
on into Saudi Arabia if there are problems there? I think those 
are our questions.
    Mr. Feith. Senator, it may be useful to take a step back 
from this issue of post-war planning and just remind ourselves 
for a moment of why we are talking about any of this at all. On 
September 11, 2001, we got hit and it was a big surprise for 
the country and the world, and it helped highlight that we live 
in a world that does not unfold like a script written in 
advance.
    We are living in a world full of uncertainties and some of 
those uncertainties, which--I mean, I know that Senator Lugar 
was a pioneer in helping call attention to some of the kinds of 
dangers that weapons of mass destruction pose to us over a very 
long period of time. What September 11 helped focus us on is 
that, as bad as that problem of weapons of mass destruction 
proliferation was, when you link it to the terrorist problem it 
exists in aggravated form, because the whole concept of, for 
example, deterring proliferant countries needs to be reassessed 
if it turns out that those dangerous rogue states can use 
weapons of mass destruction through terrorist organizations in 
a way that does not leave any fingerprints and does not have a 
return address. You cannot deter such a country.
    So we are dealing with very serious threats and great 
uncertainties, there is no question about it. I think that many 
of the questions here reflect the frustrations that we cannot 
provide greater certainty talking about the future. But we 
cannot. It is an essential part of our national security 
thinking and in particular our defense thinking, embodied in 
the documents that we use within the Pentagon for planning, it 
is an essential part of our thinking that there are enormous 
uncertainties and you cannot answer a lot of these questions 
precisely, but you can think about them as carefully as 
possible.
    When we consider what it is that is at stake and we think 
about the risks to us, the President has decided that the risks 
are such that we have to insist that Iraq disarm. He has said 
it is either going to disarm cooperatively or we are going to 
lead a coalition of the willing to disarm it by force.
    We have been thinking for a long time about what happens in 
the post-war period if we do have to disarm Iraq by force. But 
the same kinds of uncertainties that you have when you are 
talking about military threats apply to the post-war period. 
What we are planning for is we are planning to ensure that we 
can fulfill our responsibilities. We are looking to fulfill 
them in a way that takes into account all of the considerations 
that have been raised here, all of which are enormously 
important. We do not dispute----
    Senator Chafee. I see the yellow light on. Do you have a 
plan, either an exit strategy or some kind of planning if this 
turns into a debacle, if everybody's against us on this?
    Mr. Feith. We are planning--the short answer is yes, we are 
planning for worst-case eventualities. What I would like to 
assure the committee is that every one of the----
    Senator Chafee. When will you share those plans with us?
    Mr. Feith. Well, we are in the process today and we will be 
happy to talk further, both publicly or in closed session. Some 
obviously involve classified information, but some do not. The 
process of--this is the first hearing you have had on the 
subject and we are here and we will be happy to pursue the 
conversation with you.
    What I do want to say, though, is that all of the anxieties 
and the questions and the worst-case projections that you have 
made I think are well grounded. I mean, these are all things 
worth worrying about and these are all things that we have in 
fact been worrying about.
    Senator Chafee. I know my red light is up and I will just 
say that in both of your testimonies it was all so rosy. It was 
democratization, without the understanding that, suppose we 
democratize and an anti-American government is elected. It is a 
real possibility, but it was not a thread of either of your 
testimonies, and that is what I found surprising.
    The Chairman. Thank you, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    I agree very strongly with Senator Feingold. The questions 
that we are asking today should have been asked and answered 
before the President was given unilateral authority to go into 
Iraq. Now it is 4 months later, after he has got that 
authority, and you are sitting here doing the best you can, and 
you are not giving us much.
    I agree with Senator Chafee's point, you have given us a 
rosy scenario. And the American people are smart. I think 
Senator Biden said this from day one: They want to know the 
truth.
    So if I go home and I am asked, you know, what is the 
worst-case scenario, what is going to happen to our men and 
women over there, what is going to happen, I cannot give them 
an answer. It is not enough for me to say, well, they are going 
to tell me next week. They need to know.
    You know, I have to say, maybe you cannot have one plan. I 
agree with that. But you got to have four or five or six or ten 
for every problem that we face. I have to say, Mr. Feith, you 
are being very honest with us. You are saying there are 
enormous uncertainties. You have used the word 
``uncertainties'' more than you used any other word, and it is 
honest. But it is very disconcerting.
    I can tell you, my people at home are anxious, and if they 
are watching this they are going to be more anxious. I do not 
know if they are more anxious about being told they have got to 
get duct tape and plastic to cover their windows at home in 
case there is a terrorist attack here, or listening to you say, 
gee, we just do not know.
    The things we do know are that there are enormous 
uncertainties here and we do not have answers. Now, I have read 
reports produced by this committee, both sides, that say--some 
reports are that 500,000 Iraqis might be killed, might. We pray 
to God if this goes that way we do not have to kill anybody. We 
pray to God they throw down their arms and we all sing Kumbayah 
together. We hope that. That would be the most wonderful thing, 
you know, to have peace without fighting.
    But if it goes wrong and we do kill so many people, as 
Senator Feingold says, as we try to run this country how are 
they going to look at our men and women in uniform? Will they 
see them as liberators? Will we explain, gee, we had to do it; 
Saddam Hussein would not disarm, so we had to kill 500,000 
people? And will we be alone?
    I remember the first gulf war, how proud President Bush 
was, and rightly so, President Bush I: These are the people who 
are helping us, these are how many troops they are going in 
with, they are going to be by our side. Here is how much money 
they are giving. And in the end, Mr. Chairman, 88 percent of 
the costs were picked up by our friends.
    I cannot tell my people at home what is going to happen. So 
do we know if Saddam is going to use his weapons of mass 
destruction? CIA says yes. I do not know what your contingency 
calls for, how we clean that up; whether he puts his oil fields 
on fire, what is the ecodamage there; what happens next.
    I just use this opportunity to say that our allies are 
trying hard to resolve this another way. Speaking for myself, 
someone who believes that Saddam must be disarmed, he said he 
would be disarmed, he must act to disarm.
    I do not think that we should be showing a lack of respect 
to our allies, who today came out together, and one of them is 
a man of whom President Bush said: ``I looked the man in the 
eye. I found him to be very straightforward and trustworthy. I 
was able to get a sense of his soul. He is an honest, 
straightforward man.'' That is President Bush about Mr. Putin.
    Well, Mr. Putin is standing today with several of our 
allies and, as I understand it from today's news, 11 of the 15 
Security Council members say the same thing: Give inspections a 
chance.
    Now, as for me, we will see the next report by Mr. Blix on 
Valentine's Day and it is going to be very important to see 
what happens from there. But as we look here at post-war Iraq, 
I have a gnawing feeling that we are already agreeing that, 
even though the President said he has not decided to go to war, 
that we are going to go to war, without a lot of our allies.
    I have to use this opportunity to say that as I think of 
the burdens that will be laid out, that will be on the 
shoulders of our men and women there, without--``who knows'' is 
your answer as to how much help we get moneywise or with 
people, our friends helping us in the field--I say there is a 
lot more work that I hope you will do with us, in hearing us.
    As it is, this would be a precedent-setting attack, the 
first time the United States has launched a preemptive strike. 
I know the President feels he has everything going for him to 
substantiate that attack. But as I look at all the scenarios, I 
think the best one is if we can avoid war. That is the best 
scenario, and that we can work with the people of Iraq to form 
democracy. And I still come back to that and I just may be in a 
minority here, but I want to say that.
    Thank you.
    Mr. Feith. Thank you, Senator. If I may, I would like to 
make a distinction between plans and predictions. When we have 
been asked here this morning in a number of respects to give 
our assessment in the nature of a prediction of what is going 
to happen, how long an occupation may take, how easily one 
might transition politically and the like, and it is in that 
regard that I stressed uncertainty, because we are not in the 
predicting business.
    That is what I was referring to when I was talking about 
uncertainties. On the other hand, planning we have to do. And I 
think that Senator Chafee's point is a good one when he talks 
about plans have to take into account a full range of 
possibilities, from good case to really bad case.
    I do want to assure the committee that when we talk about 
all of the key functions that are going to need to be performed 
in post-war Iraq, we have thought about them across the range 
from worst case to very good case. In the case of oil, for 
example, if Saddam utterly destroys Iraq's oil infrastructure 
that is the worst case, and that has been taken into account. 
That makes for a horrific problem for reconstruction. It's 
enormously expensive to repair it and you do not have the oil 
revenues in the interim to repair it. But we are planning with 
that in mind.
    We have also planned for----
    Senator Boxer. How much will it cost to repair it?
    Mr. Feith. I think the estimates are in the neighborhood 
of--I do not have them precisely. I think they are in the 
neighborhood of something like $8 to $10 billion.
    Senator Boxer. And who is going to pay for it?
    Mr. Feith. Well, that is a question.
    Senator Boxer. Thank you. There is uncertainties.
    Mr. Feith. I am not suggesting that--there are all kinds of 
ways of handling that issue and we are studying the various 
ways of handling the issue of oil and what kind of support 
there might be in the world markets for investing in Iraqi oil 
after a conflict.
    But oil is one example. Humanitarian relief, we have 
thought through from best case to worst case the question of 
whether the U.N. and other humanitarian relief agencies can get 
in quickly with the large flow of food that they have been 
providing for years. But we have also planned for a worst case 
where they stay out or they are not in a position to provide 
food aid.
    I do not want to belabor it by going through the long list 
of functions that we are talking about, but I do want to assure 
you that your point is very well taken on the importance of 
doing one's planning, not on the basis of a specific 
prediction, but on the basis of having to deal with the range 
of possibilities from good to bad.
    The Chairman. Mr. Grossman.
    Mr. Grossman. Just two points quickly. One is just to 
emphasize the point that Doug just made and we have perhaps not 
made very well today, that in all the areas, Senator, that you 
have talked about--weapons of mass destruction, oil, 
humanitarian, reconstruction--there are very, very detailed 
plans that, as Doug says, run from worst case to best case. As 
I was describing to Senator Feingold, I picked one out on aid, 
on aid, water and sanitation, running from immediate post-
conflict to 18 months.
    So those are all available to you. We are glad to provide 
them and we are glad to brief them in detail, because there are 
just stacks of these things and I think we are trying to do 
this seriously.
    Second, I just wanted to say that when you say that we 
would like to disarm Saddam Hussein peacefully, that is of 
course our position as well.
    Senator Boxer. Good.
    Mr. Grossman. And I do not believe, Senator, that it is any 
disrespect to our allies that we have a disagreement about how 
to do that, in the sense that we believe that the reason there 
are inspectors in Iraq today is because the Security Council 
voted 15 to nothing for Resolution 1441. And we believe that 
there would be disarmament of Saddam Hussein if----
    Senator Boxer. Mr. Grossman, my time is up, but can I say, 
you say there is no disrespect. Listen to what they say, 
because I may treat you in a way that I think is fair and you 
say, you know, the Senator did not respect me at all. And I 
just think when you have friends you have got to think about 
how they feel, OK, even if you disagree. Maybe you call them 
``old Europe,'' maybe it hurts their feelings, you know.
    Mr. Grossman. I accept that. But there is one other group 
here that deserves our respect and that is, in my view, the 
U.N. Security Council. And we have a 15 to nothing vote in 1441 
and we want to try to get a second resolution. So I think part 
of the respect that we are trying to give to the Security 
Council is respect that is deserved from others as well, if I 
could put it that way.
    Senator Boxer. Thank you. Thank you very much.
    The Chairman. Thank you, Senator Boxer.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, and thank both 
these gentlemen for your testimony here and your answers to 
these questions.
    In looking at this issue of military action, everyone wants 
all sorts of certainty in what is going to happen afterwards. 
It is absolutely impossible to give an accurate projection or 
prediction as to what will happen. This is akin to diagramming 
every play of a rugby game. You do not know how it is going to 
come out, where it is going to be fumbled, when you are going 
to have to pitch it out and move forward.
    I think that this uncertainty, though, should not paralyze 
us, should not paralyze us from going forward with our goal, 
and that is the disarmament of Saddam Hussein from these 
weapons of mass destruction, the delivery systems, and his ties 
to terrorism.
    War and its after effects are always situation-dependent. I 
am one who likes to be guided by principles and I think that 
the principles that Secretary Grossman went forward with--that 
this is a war to liberate the people of Iraq, that we want to 
obviously eliminate their chemical and biological weapons of 
mass destruction, their nuclear programs and delivery systems. 
We want to eliminate the terrorist infrastructure in Iraq, and 
of course safeguard the territorial unity of the country.
    I think these are very important points to make to our 
allies and those who may not be with us but are democracies, to 
understand here are our motives, here are our goals.
    The other thing that I would also mention--and this is 
frustrating--is that in this reconstruction if a war or 
military action, is needed, I know that our military planners 
like to avoid as much as possible collateral damage or civilian 
damages. This is very frustrating. The President mentioned it 
yesterday, in that Saddam Hussein looks at the Iraqi people as 
shields. But I know that our country puts the value of human 
life very high and will try to avoid that.
    Clearly, we are going to have everyone who is with us, 
whenever these decisions are made by the Security Council or 
others, in the event that military action is necessary. Those 
countries that are with us certainly will participate. I am 
hopeful that those who do may not see the need for military 
action, will in the future, will join in and recognize the 
importance of security and rebuilding in Iraq if a war is 
necessary. They do have valuable resources.
    The bottom line is, no matter how uncertain or how 
difficult this period may be, we do need to move forward. The 
people of Iraq, and hopefully as many of them will survive any 
sort of military action as is necessary, will see the benefit 
of removing this oppressive, tyrannical regime. I feel that 
inaction or being paralyzed or worrying endlessly and coming up 
with every excuse not to act--the world and the neighbors of 
Iraq will be much safer if that regime is disarmed from these 
chemical and biological weapons and means of delivery.
    So as we go forward there are a lot of these questions, but 
because you cannot answer or predict everything perfectly 
should not be a reason for us not to act.
    Let me followup on a few of these issues that have arisen 
generally from Senator Hagel and to some extent Senator Biden. 
The nations--and I know you do not want to list the nations for 
diplomatic reasons. Do you believe, though, that the nations 
that, let us say, may decide against participating in any 
military action to disarm Saddam Hussein will offer assistance 
in transitioning or rebuilding Saddam Hussein? And I put it in 
several categories: say those that are in Europe and those that 
are neighbors, Arab countries? And I know you cannot mention--I 
would love to have the listing, but could you give us a sense, 
do you think that they would help in rebuilding even if they 
decide they are opposed to military action?
    Mr. Grossman. Yes, Senator Allen, I do. When we went to 
seek assistance from the 51 countries that we identified as 
possible partners in this, we asked for assistance in three 
categories. One of those categories was in post-conflict 
support and we got quite a number of positive responses. As I 
said to the chairman and Senator Hagel, we are glad to provide 
that to the committee.
    Senator Allen. Would that also apply for Arab countries 
that are nearby as well?
    Mr. Grossman. Yes, sir.
    Senator Allen. That is good.
    Have you had any talks--this has to do with within Iraq--
talks with any of the opposition leaders? And if so, I do not 
want to breach any diplomacy or efforts, but if you have had 
those talks how would you characterize those talks, because 
those individuals, opposition leaders, can be very important in 
a post-Saddam Iraq?
    Mr. Grossman. Do I take your question to be opposition 
leaders inside of Iraq?
    Senator Allen. Well, opposition leaders--you are not going 
to have many inside Iraq who are alive.
    Mr. Grossman. Right.
    Senator Allen. I am talking about opposition leaders 
externally.
    Mr. Grossman. Yes, sir. We have had extensive conversations 
with them. In fact, last August, Doug and I had the first 
meeting with a group of six, a group of six opposition leaders, 
which we thought was very successful, and we have continued on 
through the President's Special Envoy, Zal Khalilzad, who is 
actually in the area now talking to opposition leaders.
    As Doug very rightly reminds me, of course we do have 
conversations with people who are opposed to Saddam Hussein in 
northern Iraq because of the great work that our people do and 
that they do in terms of what is going on there.
    Senator Allen. If I may followup, in these discussions, 
whether external or the three major groups in Iraq, are they in 
agreement with the guiding principles that you have enunciated 
in your testimony this morning?
    Mr. Grossman. Yes, I think they are.
    Senator Allen. That is important.
    Thank you, Mr. Chairman. Thank you, gentlemen.
    The Chairman. Thank you very much, Senator Allen.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Anticipating this post-Saddam Hussein Iraq, I ventured to 
Afghanistan a couple of times last year, went to Bosnia, to see 
what I could learn. And I was struck, first of all that it 
always takes longer in occupation. We thought maybe we would be 
in Bosnia for a year and we are now in the seventh year.
    I was also struck in Bosnia that, even though we were there 
in a rather substantial military presence, there are war 
criminals on the loose, one we think in Bosnia, the other one 
perhaps in Serbia, the two most notorious. And I am just 
curious as to your thoughts of how that might be different in a 
post-Saddam Hussein Iraq?
    Mr. Grossman. Well, we hope it would be different because 
we hope that we would not x number of years later have these 
people running around. As with everything else we have reported 
to you today, there is a group of lawyers and law enforcement 
people working on a plan to consider how to deal with Saddam 
Hussein, his top lieutenants, his family, how to bring them to 
justice. That is something that I know is very high on the 
priority list of our military forces should military force be 
required.
    These are decisions that also are headed toward our 
President, but I believe you would find, Senator, if we had a 
chance to brief you on them that the planning for this has been 
extremely well done and is very well thought out.
    Senator Nelson. Well, if that planning is well done and 
well thought out and would be executed and be successful, 
perhaps you ought to apply that planning to Bosnia.
    Mr. Grossman. Absolutely. But as you did, sir, we have 
tried to learn in each area. I mean, when you say that we went 
to Bosnia for what we thought was going to be a short amount of 
time, I remember talking to Senators Lugar and Biden. I mean, 
this was a collective mistake, if I might say, on all of our 
parts in trying to set a date instead of trying to lay out a 
series of goals and objectives.
    I appreciate what Senator Allen said about these particular 
goals and objectives. So, although I guessed for Senator 
Feingold how long this might take in a specific project, what 
we are going to do is be there until we have achieved these 
objectives.
    Further, sir, I think it is fair to say--and I know we have 
shown this slide before in this committee--it is also important 
to know again the radical slide down of American forces in KFOR 
in Bosnia. I think we have been quite successful there in doing 
what people wish us to do, which is achieve certain objectives, 
but not maintain large numbers of foreign troops if we do not 
have to.
    So I hope we have learned some lessons. I take your point 
exactly and we would like to do a better job.
    Senator Nelson. And I hope for you the same. But I will 
tell you, I am highly skeptical that if we pulled out of Bosnia 
right now if there would not be the continuation of the 
slaughter that there was 7 years ago there.
    Mr. Grossman. Well, of course we are not pulling out of 
Bosnia.
    Senator Nelson. But we are drawing down.
    Mr. Grossman. Absolutely.
    Senator Nelson. That is what you said.
    Mr. Grossman. Yes, sir. And we are very proud of that, 
because we have been able to draw down and, with all due 
respect, although Bosnia-Kosovo are not perfect, it has not 
returned to what it was 7 years ago.
    Senator Nelson. The long and short of it is that it is 
going to be a long time, and I am not arguing that. I am just 
stating what has been hitting me in the face as a hard reality 
of life in a post-war occupation.
    Mr. Grossman. Absolutely.
    Senator Nelson. In last September the CBO said that the 
U.S. occupation force would likely require 75,000 to 200,000, 
at a cost--and this staggered me--a cost of $1 billion to $4 
billion per month. That is what CBO said. What do you think?
    Mr. Feith. Senator, I am just not in a position to predict 
that. And I do not have at my fingertips even the work that has 
been done within DOD on the subject, let alone the CBO project. 
But it is something that I will be happy to get you our best 
thinking on for the record.
    [At the time of publication a response had not been 
received.]
    Senator Nelson. Well, I would assume that the chairman, 
that that would be one of the things that he would absolutely 
be insisting on.
    Let me just finally ask. Today the New York Times reported 
that General Franks said in an interview that the government 
was coordinating with the international relief organizations to 
prevent a civilian crisis in the event of war. Can you detail 
to us who are the organizations you have been working with and 
how will that work?
    Mr. Grossman. Yes, Senator. Let me take for the record the 
exact number of NGOs. But what we are doing and have from the 
very beginning is make sure that the NGO community and the 
international relief organizations, some of them, the United 
Nations for example, are very tightly tied together with 
General Franks and with CENTCOM and with all of us.
    As I said previously, there is a meeting each week among 30 
nongovernmental organizations, that both the Pentagon and the 
State Department are represented. We are trying our very best 
to solve their problems. They have been involved in the 
planning, in our planning from the very beginning. President 
Bush in releasing $11 million to keep the planning going has 
been for precisely that effort.
    As I said in answer to another Senator, these NGOs are 
absolutely key to our ability to get this job done. We learned 
that in northern Iraq, General Zinni and I, in 1991. Without 
the help of the nongovernmental organizations and the 
international organizations like the World Food Program, we 
cannot accomplish this task. This is a huge priority for us 
and, as I said to Senator Boxer, I think if you went through 
all of the aid ideas, for example, on the areas that are in 
their responsibility, you would find NGO, NGO, NGO, 
international community.
    So we are trying to be lashed up with them as successfully 
as possible. But I will provide for the record an exact list of 
who attends this meeting and what organizations they are.
    [The following information was subsequently provided:]

    NGOs in regular attendance at the State Department Bureau of 
Population, Refugees, and Migration's meetings on humanitarian relief 
in Iraq:

    InterAction, International Rescue Committee, Mercy Corps 
International, World Vision, Refugees International, CARE, Kurdish 
Institute, Catholic Relief Services, Church World Services, American 
Refugee Council, International Medical Corps, American Friends Service 
Committee, International Aid, Northwest Medical Team, and Air Service 
International.

    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here and sharing the nitty-gritties of 
this with this really difficult process. I was looking at this, 
comparing it to Afghanistan. The thing about Afghanistan that 
is different--there are a number of things different, but there 
was a process, a local process, that loya jirga process, that 
everybody kind of agreed to as a way that you can come at some 
sort of governance in Afghanistan. You can have the local 
communities elect representatives and send them to a national 
kind of convention that had a long-standing system, and set up 
an agreement and buy-in by the population of Afghanistan, and 
you can arrive at a system of governance there. Afghanistan has 
a number of other great problems, but there was a system that 
people could agree to.
    Iraq, I have not been able to identify one, and I am 
gathering really it is tough for people to identify. I have 
worked with the Iraqi opposition for a long period of time now, 
with the INC, Iraqi National Congress. They have had their 
difficulties. I was in London meeting with them in December. I 
know both of you gentlemen have met with them. And they were 
really setting their differences aside and doing a very nice 
job, I thought, of pulling together, and a broad set of 
opposition groups.
    These are exterior oppositions. They are working with 
people interior, primarily in the north, some in the south. But 
I was quite impressed at how far forward they had gone, how 
much they were cooperating and working together and really 
pulling together.
    I appreciate your working with them, with the INC and with 
other groups, although I do note, as the chairman did when he 
first started your questioning, which must seem to you guys 
like hours ago--it is like coming up, being in a dentist's 
chair for hours, to get us to press on you. There was a New 
York Times article today, continuing to have this question of 
working with the INC versus recruiting some additional new 
leadership.
    To me this is the real nuts and bolts, one of the real nuts 
and bolts tough problems in the transition period that you have 
talked about. You have got a post-Saddam period and then within 
that you have got to have some leadership arise, Iraqi 
leadership arise, to run Iraq, because we do not want to run 
Iraq. We are not going to run Iraq. It will be Iraqis that do 
this.
    Is there still this level of debate within the 
administration on whether to engage the INC or somebody else of 
leadership to come forward from Iraq interior? Can you, if you 
can, disclose any of the thinking that is going on about that 
very specific, yet critically important problem?
    Mr. Grossman. Let me try and then ask Doug for some help. 
The answer to the question about whether there is still a big 
debate going on in the administration about all this is no, 
sir. Doug and I last July kind of looked up from our pencils 
and paper and said: You know, why are we spending all this time 
fighting with each other over what Iraqi opposition? We ought 
to do this together.
    So you will recall perhaps that last August we invited the 
six major groups, including, very much including the INC, to 
meet with both of us together. And we tried to show them that 
we had a unified front and we were hoping to encourage them 
therefore to have a unified front. And I do not say it has 
anything to do with us, but, like you, we see a lot of 
positives there.
    So we are continuing to work with all of these groups. I 
know that you know, Senator, since it is money that you all 
have authorized, we continue to provide the INC with a 
considerable sum of money and am glad for the record to break 
that down over the last few months. So the debate in this 
administration----
    Senator Brownback. Mr. Secretary, could I on that point?
    Mr. Grossman. Yes, of course.
    Senator Brownback. I do not mean to interrupt you, but I 
just want to make sure to get this before my time is up. The TV 
Liberty that they were operating is not operating now and they 
are saying that their lack of funds for being able to operate 
that television and radio, which I think would be a critical 
communication component--I hope that can be resolved near-term.
    Mr. Grossman. We would like to get started with that TV and 
radio right away again. We have money set aside for it. As I 
understand it, and I will be glad to give you a further answer, 
is what we need is a clean request for TV and radio and then it 
can be funded. But we will work on that.
    If I might just say one word about Afghanistan, Iraq, and 
the question of governance. Absolutely right, you are faced in 
a sense with mirrors here. In Afghanistan you had no 
bureaucracy to speak of and you had no money to speak of, but 
there was a loya jirga process so we could see our way forward.
    In Iraq, of course, there is a talented bureaucracy that we 
hope we can kind of take the top off of and then use, and of 
course there is money, there is oil. Yet the way forward, as 
you describe it, through an established loya jirga-like system 
is not there. But it is one of the reasons that we have spent 
so much time and so much effort on these Future of Iraq 
Projects, so that we have a way forward, we have an idea for a 
constitution, we have an idea for laws.
    Exactly as you say, those things then need to be 
legitimated in some way by the people inside of Iraq. But we 
are not going to show up there and then try to figure out what 
to do.
    Senator Brownback. I hope you will continue to work with 
these outside oppositions along with inside oppositions. And I 
agree we should not show up and say, OK, here is the new leader 
of Iraq, but that we should use all of this talent that has 
been very dedicated for a period of years to confront Saddam 
Hussein, to remove Saddam Hussein, and to liberate the Iraqi 
people.
    I think one of the things we lose sight of here is how much 
they are and have suffered, the Iraqi people. Their worst 
nightmare is what they have been living, and I hope we can 
identify and see and work with them very closely as we move on 
forward.
    Mr. Feith. Senator, when you asked about the INC it 
reminded me that Senator Allen had raised the question whether 
the principles that we have laid out in general for the kind of 
government we would like to see arise in Iraq are shared by 
Iraqi opposition groups. One of the principal accomplishments 
of the INC was organizing conferences of multiple groups over 
the last 10 years or so where they themselves promulgated 
principles that all of the major Iraqi opposition groups now 
subscribe to, that are principles that we support.
    Now, I take Senator Chafee's point that you should not look 
at that through rose-colored glasses. We do not in any way 
underestimate how difficult the problems are going to be of 
getting these people to actually work together and develop a 
kind of smooth cooperation in a country that does not have a 
history of a democratic political culture and the kind of 
cooperation that we would like to foster.
    It is going to be very difficult and we do not want to be 
overly rosy in projections about it. But nevertheless, we 
should not be blind to the good news that at least there have 
been accomplishments at the level of principle, and the Iraqi 
opposition deserves some credit for lining up behind the I 
think very admirable principles.
    Mr. Grossman. May I say something? Just one other thing, 
Senator, and that is that Zal Khalilzad has been out for a 
couple of weeks talking to Iraqi oppositionists and why do we 
not just offer, either to members or staff as you wish, a 
briefing when he returns. I think it would be helpful to put 
all this into perspective.
    Senator Brownback. I think that would be helpful. I would 
note, those principles are democracy, human rights, an open 
economy. I mean, they are the basic things that we stand for, 
is what this opposition is pushing aggressively. These basic 
principles are ones that will truly liberate the Iraqi people 
when they are implemented.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    It is a true shame that France and Germany have dealt a blow to 
NATO's authority by blocking efforts of the majority of members from 
helping Turkey defend against a possible Iraqi attack. It is a real 
measure of the French and German desire to undermine the American 
position that they are even willing to leave a fellow ally out in the 
cold.
    We have shown the world specific evidence of Saddam's intent to 
deceive inspectors--with conversations between Iraqi military officials 
discussing the fact that they are evacuating weapons and ammunition.
    As if this is not enough, we have satellite photographs of the 
Iraqi military digging holes, moving equipment or burying things at 
inspection sites shortly before inspection teams arrived. This 
indicates that the Iraqis are aware of where inspectors are going--and 
therefore, these inspections are not random, and allow Iraqis to avoid 
detection.
    It is clear that Saddam is not disarming, is not cooperating with 
inspectors and remains a danger to the world community. We must work 
with the Iraqi opposition groups to end this threat and end the 
brutality he has imposed on the Iraqi people.

    The Chairman. Thank you, Senator Brownback. That would be 
helpful, to alert the gentlemen on that briefing. I think this 
would be of interest to us.
    I would just mention parenthetically, the committee 
tomorrow at 9:30 will talk about Afghanistan, governance of 
Afghanistan, and work along our way there.
    Senator Sarbanes.
    Senator Sarbanes. Mr. Chairman, first let me in 
anticipation commend you for holding that hearing tomorrow 
morning on Afghanistan. I think it is extremely important, and 
I do not think we are focusing sufficiently on that matter, and 
that an operation which was initially largely successful may be 
slipping away from us from lack of focus and lack of commitment 
of resources and support. I think it is a very important 
hearing.
    Secretary Grossman, I have two questions I want to put to 
you just very quickly. How many U.S. troops did we have in 
Europe that we sustained there over a very long period of time? 
The figure of about 300,000 seems to stick in my mind that we 
had in the region year in, year out, as part of the containment 
strategy of the Soviet Union. Is that correct, that figure?
    Mr. Grossman. I think if you go back some years it is in 
the 300,000 range.
    Senator Sarbanes. Yes, it is down now.
    Mr. Grossman. I think it is considerably less today.
    Senator Sarbanes. I know, it is about 100,000 now, I think. 
But for quite a sustained period of time when the tensions were 
up it was at about 300,000, was it not?
    Mr. Grossman. That is my recollection.
    Senator Sarbanes. OK. And the other question I wanted to 
put to you--I have been following the NATO issue right now 
dealing with Turkey and I see that Turkey has just formally 
made a request, I think a day or two ago; is that right?
    Mr. Grossman. Yes, sir, they requested consultations under 
article 4 of the charter yesterday.
    Senator Sarbanes. Yes, yesterday.
    Mr. Grossman. Yes, sir.
    Senator Sarbanes. Now, prior to this had the request for 
this NATO support come from Turkey?
    Mr. Grossman. No, sir, it had come from the United States. 
If you will recall----
    Senator Sarbanes. So the United States in effect was making 
a request on Turkey's behalf or substituting for Turkey, or 
what?
    Mr. Grossman. No. When Deputy Secretary Wolfowitz went to 
the North Atlantic Council on the 2nd or 3rd of December--I 
apologize, I cannot remember which day--he wanted to lay out 
for NATO and the Council the kinds of things that NATO might be 
able to provide if we had to fight in Iraq, not just about 
Turkey but generally. But two or three of the things that he 
proposed did have to do with the defense of Turkey, air defense 
for example, chem-bio defense, and we were hoping that we would 
start some planning in the NATO military councils for that, for 
that effort.
    Senator Sarbanes. Well, under article 4 must not the 
country itself make the request?
    Mr. Grossman. The country itself must make the request 
under article 4. We were hoping, Senator, that it would not 
come to Turkey actually having to make an article 4 request. We 
were hoping that the alliance would recognize, first, that it 
had a job, could do a job in Afghanistan if it so wished; and 
second, that Turkey, being on that front line, had some needs. 
We were absolutely hoping that they would not have to pull out 
their NATO handbook and read article 4.
    Senator Sarbanes. William Nordhaus, a very distinguished 
economist at Yale, in December wrote a long article in the New 
York Review of Books, ``Iraq, the Economic Consequences of 
War.'' In that he points out that the CBO estimate that the 
occupation of Iraq would cost between $17 billion and $45 
billion per year. He says this may be too low if the post-
combat environment in Iraq is hostile and its dangers resemble 
those on the West Bank more than those in the Balkans.
    What is your figure--I put it to both of you--on the costs 
of the occupation per year?
    Mr. Grossman. The single most unsatisfactory thing we are 
going to be able to do here today is not give you a figure. 
Secretary Powell, Secretary Rumsfeld, both said that it is not 
a knowable figure. Secretary Powell said the other day he did 
not know the answer to that question, and if he did not know it 
I do not know it. I apologize. We are stuck.
    Senator Sarbanes. You have no idea? You have no ballpark 
estimate?
    Mr. Grossman. So much of it, Senator, as the person you 
just quoted, depends upon what happens. As Secretary Rumsfeld 
said--I hope I get this right--you know, is it 4 days, 4 weeks, 
5 weeks? How much destruction is done by Saddam Hussein?
    Senator Sarbanes. Surely there must be some scenarios 
downtown. How long is this war going to last under your 
estimate, Secretary Feith?
    Mr. Feith. The quotation from Secretary Rumsfeld that Marc 
Grossman was just referring to, he said: ``I have no idea 
whether it is going to last 4 days, 4 weeks, or 4 months.'' And 
we do not know.
    Mr. Grossman. Could I just say, though, that there is a 
lot--as Doug said before, we are in a distinction between 
prediction and planning. We have tasked a huge amount of 
planning and that planning, as we are glad to show you, comes 
with a price tag. We have an idea, for example, if we have to 
feed Iraqis for a certain number of weeks, how much that will 
cost, how much to restore the water systems. But that is, it is 
not a total set of figures, which is why at this time, at this 
day, we cannot argue one way or the other with an article 
either from CBO or in the New York Review of Books.
    Senator Sarbanes. Well, what is your estimate on how long 
the occupation would last?
    Mr. Grossman. Again, it depends on a number of things. It 
depends on how long the war lasts, how much destruction is 
done. As I tried, probably not very well, to answer Senator 
Feingold, when we started to think about this, Senator, we, I 
think both of us, felt that there would be a start date, a stop 
date, a start date, a stop date, for the various phases. I do 
not think that any more.
    I think, for example, as I answered before, that, let us 
say that you could go into the Ministry of Health and the 
bureaucracy there except for the very top has not been 
perverted by this particular regime. You might be able to turn 
over efforts at the Ministry of Health to Iraqis before you 
might be able to turn over the ministry for weapons of mass 
destruction, for example.
    So we, as I said in my opening statement, we are trying to 
think through this not so much in this day, that day now, but 
transitioning authority as quickly as possible to Iraqis 
wherever possible.
    Senator Sarbanes. Well, my time is up. I invite you to give 
us your rosy scenario. Why do you not just give us your rosy 
scenario of how the war will go and how the occupation will go 
and what it will cost us?
    Mr. Grossman. We have actually been accused all day here of 
doing nothing but giving rosy scenarios. I will repeat what I 
said to Senator Feingold. He asked me my personal opinion, one 
scenario, one AID project only; he asked me, ``how long will it 
take.'' I told him 2 years. That 2 years is no better or worse 
than any other estimate, sir, but I give it to you because I 
would like to answer your question.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Gentlemen, you have a difficult task before you, looking 
into the future. Just a quick observation. I went to law school 
and law school had a class called torts. The function of that 
class was to look at everything that could go wrong, and it 
impacted lawyers. When I had a chance to lead a city, I had to 
kind of hold my lawyers at bay at times. There are many, many 
worst-case scenarios, but you would never lead a city--and we 
were able to lead my city into better times--if all we looked 
at was the worst-case scenarios. You could not lead a country 
if all you did was look at worst-case scenarios.
    I think, though, it would be very clear to say that a post-
Saddam Iraq is going to be a better place, fair guess, than 
Saddam in control of weapons of mass destruction, in control of 
biological agents. Just as I know there has been a lot of 
discussion about Afghanistan, but a post-Taliban Afghanistan is 
a better place today. I think few would argue that. Are there 
uncertainties out there? But they are a better place.
    My question goes to understanding the uncertainty and 
difficulty you face, but the kind of answers that we are trying 
to get here so the American public can feel more comfortable. I 
always believed I had to have a path, I could look at a path 
with different variations on how to lead my city to a better 
place.
    So my question then is, as you look at the possibility of a 
better Iraq, perhaps not democracy as we know it, but 
understanding that you have the Kurdish situation, 
understanding that you have the Sunni-Shi'ite cleavages that 
are out there, in your planning and in scenario and however you 
have done this have you laid out various paths, various 
visions, to say, yes, we can pull those pieces together so that 
there will be a brighter future? You are not giving us money 
and you are not giving us time right now, but I need to know 
have you kind of played it out and say, yes, you know, if a, b, 
and c happens we can create, we can have in place an Iraqi-
ruled regime in which there is a place for the Kurds and there 
is a peace with the Sunnis and the Shi'ites and, by the way, if 
Saddam has not destroyed the oil--and I really appreciate the 
comment that you made that the warnings are being sent out 
destruction of oil will be treated like release of weapons of 
mass destruction. And if you have still got that educated 
bureaucracy and you have still got the infrastructure, tell me 
and let me know, is that vision out there and can you talk a 
little about it?
    Mr. Feith. Senator, the short answer to the question of 
whether we have some idea of how the different institutions of 
the government might come together is ``yes,'' that that is the 
subject matter of the work that Marc Grossman talked about in 
the Future of Iraq Project, where--one of the issues here is we 
understand that if there is a war and we come into control of 
Iraq that we have major responsibilities. And there is a 
certain American trait, a kind of engineering instinct. There 
is a problem, we go out, we solve it.
    But at the same time that we have this thought in our head 
that there are these problems and we may have ways of solving 
them, we have in mind points that a number of the Senators here 
have made that this country belongs to the Iraqis, it does not 
belong to us. Even if we wind up coming in control of it, it is 
their country. We have to concern ourselves with legitimacy, 
international legitimacy and legitimacy within Iraq.
    We have to approach our task with a sense of 
responsibility, but a sense of modesty. That is perhaps--the 
requirement to balance constantly between taking into account 
what the Iraqis think and what will work in Iraq and what will 
really be organic and function well there, given the history 
and culture of that country and the fact that we are trying to 
put it up to a level that it has never achieved in the realm of 
good government, with broad-based, responsible government that 
takes into account all of the different groups, as you are 
highlighting, in the country from the Kurds to the Sunni Arabs 
to the Shi'ite Arabs and the Turkomans and the Syrians--I mean, 
there are all kinds of groups there.
    What we have done is we have worked with various Iraqi 
groups. We have introduced our own thinking, we have brought 
thinking in from other quarters, about what kinds of judicial 
reform, what kinds of constitutional arrangements, what kinds 
of administrative arrangements, could be successful in keeping 
the country together as a unified country and providing both 
freedom and economic prosperity to people based on the 
development of democratic institutions that might work.
    It is very hard to tell you precisely what we plan to do 
because so much, as we have talked about all morning, depends 
on how events unfold. But I could tell you that a great deal of 
thought has been given to the kinds of considerations that I 
think you rightfully highlight as crucial to the success of our 
policy and the possibility of happiness for Iraq in the future.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Dodd.
    Senator Dodd. Thank you. Thank you, Mr. Chairman. I 
apologize for arriving late. We had Alan Greenspan appearing 
before the Banking Committee, so some of us who are on that 
committee were necessarily away.
    Mr. Chairman, of all the hearings we are holding on Iraq, I 
think this is the most significant one, because I think most of 
us accept the notion that the military conflict, while we hope 
it will go well, we will prevail in this. It is the after costs 
and effects here that really do require some thought.
    I was not here for all of the hearing, but I am told anyway 
that there is the reluctance of the administration to get into 
much detail about cost and time. Certainly all of us here 
understand the inability to get too definitive about this. But 
I must also tell you, at least express my disappointment as we 
try and lay this out, within some parameters I think the 
American public have a right to know what we are getting into 
here. Even if their scenarios do not turn out to be quite 
right, it gives them at least some sense of it. And I am 
disappointed that we cannot at least have some broader outlines 
of what the time may be beyond what is included in the 
testimony.
    So I would like to raise just a couple of questions 
because, Mr. Feith, in your testimony here on page 2, when you 
talk about the commitment, you talk about the length, that is a 
commitment to stay as long as required to achieve the 
objectives you have just listed. And if you go with the five 
objectives that you listed there, the idea that you are going 
to get these done in a couple of years seems to me awfully 
naive.
    I mean, part of what may be worthwhile here--I do not know 
if we have done this at all, but to talk a little about the 
history of Iraq. Maybe many people do not know the history, but 
the history is one of sort of a cobbled-together nation at the 
end of World War I by the European powers, principally England. 
So you have taken over the last 80 years basically tribal 
relationships and created a nation State, and for the last 40 
of it, half that time, under a dictator.
    When I read item No. 4 here, that is to safeguard the 
territorial unity of Iraq, the United States does not support 
Iraq's disintegration or dismemberment, now that looks to me 
like you are going to be a little longer there than 24 months 
when you consider the factions that are going to emerge.
    I wonder if you might address that point. And in 
conjunction with that, there has been some troubling news that 
has come out that some of the exile groups in Iraq are forging 
a relationship with very conservative religious elements in 
Iran, and I am very interested in knowing whether or not the 
secular State of Iraq may be forfeited to something along more 
conservative religious lines that Iran is under today in the 
aftermath of our efforts there.
    So I want you to go into the history a little bit and tell 
me why you think that nation-building here and holding this 
together is something that can be achieved in, using your 
response to Senator Feingold, 2 years.
    Mr. Feith. First of all, Senator, the 2 years was my 
esteemed colleague Under Secretary Grossman's estimate.
    Senator Dodd. You are passing the buck already.
    Mr. Feith. And I do not think I want to venture into the 
prediction business. The question that you ask about keeping 
Iraq together is a serious question. You are correct that Iraq 
is a country that was manufactured, as it were, by the 
victorious allies after World War I. It did not exist as a 
country before that.
    But there are many countries around the world that did not 
exist before World War I and that have developed a sense of 
national identity and unity. It is our policy that we favor 
preserving the territorial integrity of Iraq and we think that 
that is important for the stability of the region. There are 
many countries in the area that have a strong interest in that 
and we share that interest. At the same time, we do not----
    Senator Dodd. This is even after the weapons of mass 
destruction--let us assume we have eliminated those. We are 
going to stay around then and try and build this nation?
    Mr. Feith. As we have been discussing, we understand that 
we have a responsibility, if there is a war and if we lead a 
coalition that comes into control of Iraq, we have a 
responsibility to do the kinds of things that you alluded to 
and that both Marc Grossman and I talked about in your 
testimony.
    Senator Dodd. Even if it is not their will to do so? There 
may be some who prefer not to necessarily be under the nation 
State of Iraq, but might seek some other alternative political 
structure.
    Mr. Feith. Well, there is a country of Iraq. It is our 
position that its territorial integrity, the preservation of 
its territorial integrity, is in our interest, and we have been 
told by the various groups that we have talked about across the 
spectrum of Iraqi politics to the extent that we can tap into 
it that there is unanimity in favor of preserving Iraq's 
territorial integrity among the major groups.
    So I do not think that we have anybody that is arguing with 
us in principle that Iraq should be broken apart.
    Senator Dodd. Could you touch on the comment just quickly 
on the Iranian religious, to the extent is that report 
accurate? Are there other communications, contacts, some 
relationship developing between the Iraqi exile community and 
the religious conservatives of Iran?
    Mr. Feith. There are. Iran is right next door and Iran has 
a large number of Iraqi refugees in it and those refugees are 
connected with Iraqi refugees and exiles in other countries. So 
those kinds of contacts exist.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Secretary Grossman.
    Mr. Grossman. Senator, I feel the slight need to defend 
myself against the charge of naivete here. Senator Feingold 
asked me if I could name one date in one plan and I said 2 
years, and the reason I did that is a number of the plans, for 
example from AID about the humanitarian issues, run from the 
end of conflict to 18 months to 24 months.
    I think, as we answered Senator Nelson, though, and as I 
said to Senator Lugar and Senator Biden, I think it would be a 
big mistake for us to set some kind of a date. That is why we 
set these principles, and these are principles that are hard to 
achieve.
    Senator Dodd. I agree. I do not disagree with that. I just 
think when you start, even using your 2 years--and I do not 
want to play ``catch you'' with the 2-years. But I think we are 
talking about a much longer time here.
    Mr. Grossman. Yes, sir.
    Senator Dodd. I think it is very important to be very level 
with the American public about this. It is going to be very 
costly and it is going to take a long, long time. And it is 
better to say that up front in a way than to sort of delude 
people into believing somehow that this is going to be a short-
term deal at relatively low cost, particularly if we have to 
pay the bill ourselves. It is going to be very expensive, it is 
going to take a long, long time, and we are going to be there 
for years in putting this together, particularly if we are 
doing it alone. And it is going to be very difficult. It is not 
easy to do it.
    I think it is better to lay that out than to sort of create 
this illusion somehow that this is going to be a relatively 
painless, short-term deal. My sense is, while you are not 
necessarily saying that, that is the impression that gets left. 
And I think that is a mistake. I think it is dangerous.
    Mr. Grossman. Fair enough. If that is the impression we 
have left, it is going to be hard and it is going to take long. 
In both of our testimonies the phrase we used was, ``we would 
stay there as long as it took.''
    The Chairman. Thank you very much.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. I have a 
statement I would like to have inserted in the record.
    The Chairman. It will be made a part of the record.
    Senator Voinovich. As we continue to confront the 
challenges presented by Saddam Hussein in his pursuit of 
weapons of mass destruction, it is clear that we must, as you 
have, give due consideration to what will be required in the 
aftermath in regard to our efforts to disarm him. I think that 
we have to make it clear that he has to be disarmed.
    But I think that we have tried to emphasize today that the 
world will judge the success of any U.S.-led initiative not by 
what happens to secure a military victory over Saddam Hussein 
should the use of force be required, but instead by what is 
done to secure a new lease on life for the people of Iraq and, 
I think also very importantly, for Iraq's neighbors, who have 
had to live with the threat of Saddam Hussein for a long period 
of time.
    I think that it is also important to discuss, and I would 
be interested in your comments, the impact that our efforts 
will have to help achieve a peaceful settlement in the Middle 
East, given the role that Iraq has played in destabilizing the 
region. One of the real questions among the Arab nations is, is 
this nation committed to a Palestinian State? And until the 
terrorism is lessened, and we know that Iraq is one of the 
prime movers in that terrorism, we are not going to have an 
environment where we can move on and affirm the State of Israel 
and create a Palestinian State.
    I think that what should be talked about is the fact that 
this is an important step in the right direction in terms of 
achieving that goal that we are committed to.
    I think it also should be made clear that, as others have 
said, this is going to involve considerable resources, 
financial and otherwise, and it is going to require not only 
the long-term commitment of the United States, but our partners 
in the U.N. and other allies; and we need to tell the American 
people forthrightly about what the costs would be.
    I think that we ought not to hide it. I agree with some of 
the other Senators here. We need to let everyone know that we 
are committed to stay in Iraq as long as need be. And I think 
we ought to talk about realistic numbers, not 2 years, 3 years. 
How long have we been in Bosnia? 1992-1993. Kosovo, we have 
been there since, what, 1999. And we have seen that if we do 
not have the kind of commitment that we need to have, there can 
be consequences for example, my opinion is that if we had done 
our job better in Kosovo we would not have had the 
destabilization in Macedonia.
    You have got the Iranians on the border there. Who knows 
what they are going to do. You have got the Kurds. Securing the 
border is very, very important here. And I think it is really 
important to our Arab friends and I think to our allied friends 
that we lay it out: We are going to be there, we are going to 
get the job done; we hope that you join with us. If you do not 
join with us, we are going to have to run the books.
    You know, that is not bad sometimes, because too often when 
we have kind of divided up the responsibility, when something 
gets done it does not go the way we would like it to go.
    Now, you are talking about plans for the future and I want 
to congratulate you and I hope that some of the Senators that 
spoke to you today at least read, if they were not here to hear 
your testimony, I hope they read your testimony. I think you 
have done a fine job of laying out all of the things that need 
to be done.
    But I do believe that you need to talk more about how long 
you are going to be there and be forthright, OK. I mean, we 
need to do that. We need to level with the American people. We 
need to let them know that if we go forward with this, it is 
going to be a sacrifice and there are things in this country 
that we are not going to be able to do because of our 
commitment there, because we think it is important to secure 
the safety and well-being of people in our country.
    [The prepared statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    Thank you, Mr. Chairman. During the past several weeks, this 
committee has continued to closely examine developments in Iraq. We 
have heard from Secretary of State Colin Powell, Deputy Secretary of 
State Richard Armitage, and our Ambassador to the United Nations, John 
Negroponte, concerning the reality of the dangerous situation before 
us.
    There is no doubt that the international community was loud and 
clear in its call for Iraq to disarm last November, unanimously 
adopting UN Security Council Resolution (UNSCR) 1441, giving Iraq one 
last chance to comply with its international disarmament obligations. 
However, as confirmed by chief UN weapons inspectors in their January 
27, 2003 report to the Security Council, despite our most sincere 
hopes, Saddam Hussein has refused to disarm and continues to violate 
the terms of UNSCR 1441.
    Critical decisions will be made in the coming days and weeks. While 
the international community has yet to determine the next step it will 
take to address Iraq's continued defiance of UNSCR 1441, the United 
States cannot and will not sit idly by while Saddam Hussein continues 
to thumb his nose at the international community. The time has come for 
the United Nations to stand up to the Iraqi dictator, once and for all. 
As Secretary of State Colin Powell argued in his presentation before 
the United Nations last Wednesday, ``Leaving Saddam Hussein in 
possession of weapons of mass destruction for a few more months or 
years is not an option, not in a post-September 11th world.''
    As we continue to confront the challenges presented by Saddam 
Hussein and his pursuit of weapons of mass destruction, it is crucial 
that we give all due consideration to what will be required in the 
aftermath of our efforts to disarm Iraq, whether through the use of 
military force or some other means.
    The world will judge the success of any U.S.-led initiative not by 
what happens to secure a military victory against Saddam Hussein, 
should the use of force be required, but instead by what is done to 
secure a new lease on life for the people of Iraq and for Iraq's 
neighbors, who have had to live with the threat of Saddam Hussein. It 
will also impact our efforts to achieve a peaceful settlement of the 
Arab-Israeli conflict. It is clear that this will involve considerable 
resources, financial and otherwise. It will require not only the long-
term commitment of the United States, but also partnerships with the 
United Nations and our friends and allies abroad. It will be costly, 
and we should not underestimate what will be required of us.
    As we gather today, I am glad that we are continuing to raise and 
discuss important questions about plans to restore stability and 
promote a better life for the people of Iraq. There are long-term 
objectives to which we must commit ourselves, and we must be prepared 
to see our efforts through during a period of time which will likely 
span the course of many years, rather than months--with some saying it 
could take at least ten years.
    I again thank the chairman for scheduling this important hearing, 
and I thank the witnesses for taking time to appear before the 
committee today. I look forward to their testimony.

    Senator Biden. Bingo.
    Mr. Grossman. Senator, may I, and on behalf of Doug, just 
thank you very much for your comments on our testimony. We did 
the very best we could and, as I said, this was really a 
consultation rather than perhaps a different style hearing. I 
think we both also would completely agree with the point that 
you make on the Middle East. If we could bring down levels of 
terrorism, which Iraq is certainly a partner in this, of 
terrorism, we would all be a lot better off and we would do 
much quicker the job toward getting toward President Bush's 
vision of a Palestinian State and an Israeli State living side 
by side in peace.
    Might I also say to you, Senator, and to the chairman and 
the ranking member, we both have taken clearly the request and 
the admonition that we start being able to talk about numbers 
in open and we will both take that back. As I said, we are 
trying to declassify lots of this planning to propose it to 
you, and I recognize the question of numbers.
    Finally, I think it is very important that we be as 
straight as possible with people about the enormity of this 
task. That is why we both said we would stay there as long as 
it takes and why, Senator, I think it is important, as you 
said, that we set goals for ourselves and not dates. Our job is 
to get this job done that we want to in Iraq. And as long as it 
takes, that is what it will take.
    Mr. Feith. Senator, on your point about the effect on U.S. 
policy toward the Arab-Israeli conflict of a possible war in 
Iraq, I think there are a number of connections. One is the one 
that you highlighted, that the Saddam Hussein regime has been a 
supporter of Palestinian terrorism and in particular some 
months ago Saddam Hussein offered payments to the families of 
suicide bombers to encourage suicide bombing. And there are 
other connections that they have in support, that Iraq has over 
the years and currently provides to Palestinian terrorist 
groups who are blocking any hope for progress toward Arab-
Israeli peace.
    There is an additional point also and that is if it is 
possible to realize some of the plans that we have discussed 
here today to encourage the creation of democratic institutions 
in Iraq, one effect of that if we are successful would be I 
think to encourage, to inspire, Palestinians to create for 
themselves democratic institutions that would help create the 
kind of interlocutor for the Israelis that could make serious 
progress toward peace much more realistic.
    I think that was an essential point in President Bush's 
June 24 speech of last year, when he talked about finding a way 
forward for Arab-Israeli peace diplomacy through the creation 
of a new leadership and better institutions on the Palestinian 
side so that the Israelis have a proper interlocutor.
    The Chairman. Thank you very much, gentlemen.
    I want to recognize the distinguished ranking member for a 
final thought.
    Senator Biden. I want to read a quote to you that was in a 
joint session of Congress: ``We of today shall be judged in the 
future by the manner in which we meet the unprecedented 
responsibilities that rest upon us, not alone in winning the 
war, but in making certain that the opportunities for future 
peace and security shall not be lost.''
    That was Cordell Hull. That is from a report that I am 
sure, knowing you both and as competent and bright as you are, 
you have already read, by the Council on Foreign Relations.
    What I was talking about, Marc, was not what exactly we are 
going to do, but I was looking for the kind of chart that 
exists in the back of this report, that lists out specifically 
key economic objectives, key security objectives. I know you 
have done that, and if you have not done that you should all be 
fired. But I know you have done that. We have a right to know 
what that is. We have a right to know what that is.
    The last point I will make: I remember, Marc, being with 
you and then going down and seeing the President, and the 
President said: ``What do we do about Iraq?'' And I said: ``Mr. 
President, you have not laid out for our European friends your 
vision of a post-Saddam Iraq. What is your vision of a post-
Saddam Iraq? Lay it out in detail. What is your vision?''
    I think the more you flesh this out publicly for the 
American people and, quite frankly, to our allies, who you have 
shared some of this with, the better chance we have of avoiding 
a war, because the better chance we have of getting them, and 
if there is a war so we do not leave General Zinni's successors 
high and dry 2 years from now sitting in Baghdad wondering why 
in the world we are putting money into a tax cut or into 
Medicare instead of giving them all the money they need.
    The Chairman. Let me just thank both of you for the 
generous contribution of your time and thought to this. I would 
just comment that much has been made of Bosnia and Afghanistan 
and the learning experiences there, and likewise the problem of 
public opinion with regard to both of those situations and this 
one. My view is that we really have to outline, and you have 
helped us enormously and hopefully will continue to do so, what 
the stakes are for our country and the totality and 
responsibilities that entails.
    I would just say that at least most of us around this table 
are among the vanguard of the faithful who stood fast, whether 
President Clinton was threatened or President Bush was 
threatened with a congressional vote to pull out. People who 
are exasperated with having anyone left in Bosnia, in Kosovo, 
in Afghanistan make these motions, and they arise suddenly. 
They are impulsive, they are emotional, and they come from the 
people of the United States who are tired, who did not 
understand why we were over there to begin with and what we are 
doing.
    Now, we know that, and we know that Iraq is a very, very 
large undertaking, involving billions of dollars and many 
years. And if there is not a buildup of public consensus now, 
maybe those of us around the table, and the two of you, will be 
arguing strenuously that we have let down the Iraqis, the 
world, the United States, and so forth, and people will run 
right over us.
    That is why it is so important--and you are doing this on 
behalf of your principals and the President--to share with us 
as much as you can, as quickly as possible. That is the reason 
the committee has had four significant meetings in a week and a 
half and another one tomorrow. We are pushing our members to 
the floor to get opportunities like this one. Now, 13 members 
have questioned you today much more extensively in the 5 
minutes they were allotted. And your answers likewise have been 
extensive, as they should have been.
    So we are almost at the 3-hour mark in the hearing and we 
still have a distinguished panel ahead of us. But we thank you 
very, very much and ask for you to stay closely in touch.
    Senator Biden. Thank you very much.
    Mr. Feith. Thank you.
    The Chairman. Now it is a privilege to call before the 
committee Colonel Scott Feil, the executive director of the 
Role of American Military Power, Arlington, VA; General Anthony 
Zinni, retired former Commander in Chief of U.S. Central 
Command, Washington, DC; and Professor Anthony H. Cordesman, 
the Arleigh A. Burke Chair for Strategy, Center for Strategic 
and International Studies in Washington, DC.
    Gentlemen, I am going to ask you to testify in the order in 
which you finally have been seated or reseated and have 
accommodated staff there very diplomatically. I will ask first 
of all for General Zinni's testimony, then for Colonel Feil, 
then for Professor Cordesman.
    Let me just say at the outset, in the event you wish to 
submit your statements in total for the record, all will be 
published, so you need not make that request, but proceed as 
you wish with your testimony.
    General Zinni.

   STATEMENT OF GEN. ANTHONY C. ZINNI, (USMC, RET.), FORMER 
    COMMANDER IN CHIEF, U.S. CENTRAL COMMAND, WASHINGTON, DC

    General Zinni. Thank you, Mr. Chairman.
    Mr. Chairman, the approach I am going to take in my 
comments really goes back to about 1998, when we actually 
looked at this situation. I was the commander in chief, I guess 
now combatant commander--I cannot say ``commander in chief.'' I 
was the combatant commander of U.S. Central Command and we had 
just gone through a string of confrontations with Saddam 
Hussein. We mobilized troops and brought them to Kuwait under 
Vigilant Warrior and a set of other exercises, and we had 
bombed after the UNSCOM inspectors were forced to leave.
    At that time what concerned me was that if we had to 
execute our war plan I was confident in the first parts of it, 
the military parts; I did not have the same degree of 
confidence in the phases following, the post-conflict 
environment. I had personally served in Somalia, three tours. I 
was in northern Iraq with the Kurds. I was in the former Soviet 
Union when we tried to do some reconstruction work there, and I 
did the planning in Bosnia when I was on the European Command 
staff.
    I knew what could be involved in everything from basic 
humanitarian operations to full reconstruction or nation-
building. I worried about another scenario that was not 
addressed in any of the war plans and it was the implosion of 
Iraq, not the explosion. We always assume that the war would 
kick off by Saddam invading or re-invading Kuwait or doing 
something unacceptable that caused our response. But we saw, 
and our friends in the region saw, fissures and cracks, 
admittedly small at the time, but could lead to a collapse.
    I thought that a collapse, a collapsed State of Iraq, would 
present the same problems as a post-conflict State of Iraq. I 
asked the interagency to come together to work a plan. I was 
interested in what we were going to do. Frankly, there were 
reasons for this, not only to identify the problems of what had 
to be done, but I did not want the military to be stuck with 
this problem, as is always the case.
    We did that, I must say with mixed results. I cannot say I 
had enthusiastic support from all agencies, but I did from 
some. And it helped us identify some of the problems. I would 
point to the Council on Foreign Relations studies and many 
other studies, studies done by Tony Cordesman and others, that 
have listed what has to be done. But few studies tell you how 
to do it, and that was my concern.
    I want to make one other point before I sort of get into 
what I discovered in doing this. The combatant commander does 
not go home. The idea that there is an exit strategy or we 
leave is naive. You stay. The gulf war may have ended in 1991, 
but CENTCOM for 12 years after was in Iraq, flew it over, ``no-
fly zones,'' ``no-drive zones,'' maritime intercept operations, 
occasional bombings--an average presence of 23,000 troops from 
all services. The war never ended.
    We are not going to go home from whatever we do in Iraq. 
There are things in this part of the world that are too 
important for us to think that this is a go in, do the job as 
best we can, and pull out.
    I want to address the issue of anything is better than what 
you have. Senator Coleman, I would say that we threw the 
Soviets out of Afghanistan with the idea that, Soviets out, got 
to be better than anything can follow, and we left them with 
the Taliban eventually. So anyone that has to live in this 
region and has to stay there and protect our interests year in, 
year out does not look at this in sort of finite terms, as a 
start and an end, as an exit strategy, as a 2-year tenure. As 
long as you are going to the have a U.S. Central Command, you 
are going to be out there and have to deal with whatever you 
put down on the ground.
    What I felt the first question I would ask if we went in, 
which was sort of addressed by Marc Grossman: What is it you 
envision as an end State? Is it a transitioned Iraq, a 
magnificent democracy, or is it something less than that? I 
mean, is it truly this transformed Iraq that we have heard 
about? Or are we just going to get rid of Saddam Hussein and 
hope for the best with some decent law and order, territorial 
integrity basically put in place, maybe a federation of States 
that operates on their own?
    What is it that you want? If you do not have the vision 
going in, then the military and all the other agencies of 
government and the international agencies do not know where to 
go.
    I saw the problem in four areas. The first area was 
security, and I would just give you an example of the kinds of 
things--this is certainly not all-inclusive--that I saw we had 
to do on the ground. We had to under the security dimension 
maintain law and order, provide for force protection, be 
prepared to do peacekeeping missions, protect threatened 
groups, deal with civil unrest and acts of retribution, counter 
external threats, and develop local security capabilities. That 
is just a few. I mean, this list could go on and on.
    The second part was the political part, and that would 
require such things as establishing an interim or transitional 
government, laying the foundation for a final form of 
governance, ensuring coordination of all these activities--the 
political element will have to be the lead--developing the 
principles and procedures for establishing civil functions, 
dealing with procedures for accountability, and coordinating 
the regional and international involvement that we might have.
    The third area was the economic area, and here I felt this 
would involve dealing with issues such as energy production, 
employment restructuring--just by the way, about 40 percent of 
the paychecks come from the government in this country, and if 
the government goes down where are the paychecks coming from?
    In addition to that, we saw that regional economic impacts 
would have to be taken into account. This is not only going to 
affect Iraq. It is going to affect Jordan, it is going to 
affect Kuwait, it is going to affect countries around the 
country and in the region economically, too.
    We have to deal with the status of foreign debt and war 
reparations. Everybody is talking about pumping oil and we will 
do this to reconstruct the country. What about the foreign debt 
and the war reparations that are still owed? There are others 
out there that have claims to the money and the production. Who 
will sort that out?
    We have to restructure the economic base. I think that has 
been addressed by the previous panel, about how it is not the 
kind of economic base that will allow for a country that is 
solid in any way economically for the future. And we are going 
to have to solicit and manage donor contributions.
    The fourth area I titled recovery and reconstruction. This 
begins with the immediate and long-term humanitarian needs, and 
again that has been described here and you can imagine what 
this could be based on what kind of catastrophe the war causes 
and Saddam generates. We are going to have to be involved in 
infrastructure repair and replacement, consequence management, 
WMD accountability, and the reestablishment of services 
throughout the country.
    Now, I wrote myself ten little lessons learned if I ever 
had to do this and I would just like to go through these in 
conclusion. The first thing I said to myself was each of these 
four areas needs a separate structure. You cannot saddle the 
military with all these functions and you cannot address these 
functions without an organization to deal with them. That does 
not mean that some parts of the security organization, for 
example like the military, might not help out in recovery or 
humanitarian needs. But you need a separate, distinct 
organization that is running this on the ground.
    The second point is everything has to be coordinated. I 
have seen the disasters in Somalia and elsewhere when 
coordination mechanisms fail. Those mechanisms for coordination 
have to be sold, they have to be established from the lowest 
remote point on the ground to the highest decisions that may be 
made back here or in New York or Brussels or wherever.
    The third point is that the resources and the organizations 
required must be identified, provided, and efficiently and 
effectively managed. The military cannot be stuck with this 
problem. We do not do economics and we do not do political 
business very well. We will do the security piece and we hope 
we can train and pass that off eventually, but it is going to 
be tough.
    These efforts must be planned for and the structures and 
resources established before the military action begins. The 
effort does not start after military action, but runs parallel 
to it. There cannot be any gaps. If we think we are going to 
win the war, stop the shooting, and start this process, we are 
in for a disaster. It is going to start concurrently and run 
parallel and run long after the fighting stops or subsides.
    We should do everything under international institutions if 
at all possible, and I think the reasons for that have been 
laid out and I will not go into them. Our motives will always 
be suspect in this endeavor and it will be difficult to get 
partners in a messy day-after business. But the cover of 
international organizations will make this easier. 
International organizations, private volunteer agencies, 
nongovernmental agencies, are critical to success. They have to 
be empowered, encouraged to do the necessary work, and they 
have to work in close coordination with whatever we do on the 
ground.
    My other point is you need somebody in charge. The disaster 
of Somalia--when I got on the ground in Somalia I saw five 
separate military chains of command, not to mention the 
differences in the humanitarian and the political end of the 
business going on on the ground and the reconstruction. 
Somebody has got to be in charge. That does not mean that 
somebody commands forces and agencies, but has the coordinating 
authority. And whatever agency or individual that is going to 
take charge of this thing has to appoint somebody on the ground 
that runs the show.
    Remember, the commander in chief, who we have now 
identified, as I heard in this previous discussion, as the 
leader here, has a region to run that just happens to have a 
few other problems in it, too. I do not want to speak for 
General Franks. He does an outstanding job in my view and he 
was a successor that I recommended. But he has more things to 
do than just run a post-conflict Iraq.
    Internal order will be the most critical factor in keeping 
positive momentum and progressing toward full reconstruction. 
No. 1 task is keeping order in this country. The tribal 
retributions, the revenge killings, the opposition groups and 
others that will be jockeying for position, opposition groups 
that will stream across the border, all sorts of things can 
disrupt this.
    There are things in this country that we are going to have 
to deal with that no one has really talked about. There is a 
major Iranian opposition group in here, the MEK. What do you 
want me to do with that if I am the commander in chief? Do I 
lock them up, do I send them back across the border to be 
slaughtered? Exactly what happens to them?
    There are millions of little issues like this that are not 
talked about, that are going to be major problems when you are 
on the ground, and whoever goes in is going to have to have the 
guidance.
    My eighth point is that images in this region are 
everything, particularly in the early stages of the mission. We 
are going to need intelligent and active information operations 
that will make or break the mission from the very beginning. 
What appears on Al-Jazeera TV and everything else in the region 
is going to determine success, maybe even more so than the 
actions on the ground, and all the explanations afterwards will 
not counter those first images.
    The regional nations and agencies should be a part of this 
effort if possible. We need Islamic agencies, Arab agencies, 
involved in this process. At the same time, regional 
involvement that works counter to the objective has to be 
prevented. Now, we are going to have to pick and sort through 
those pretty carefully. There may be a lot of regional powers 
and interests that rush in there that do not have the same 
objective as we do.
    The final point is that the decision on the scope of this 
vision has to be made right away. Do you want a transformed 
Iraq or do you want simply a transitioned Iraq? Everybody in 
the region, not to mention the world, will be watching what we 
leave in this particular situation.
    And we had not better disappoint the region, as we did when 
we pulled out after the Soviets were expelled from Afghanistan. 
We have a situation in Afghanistan where it is on the edge now 
and people are watching that, old friends like Pakistan who 
felt disappointed and betrayed--not necessarily they were; they 
feel that way--and certainly Afghans that feel that way.
    Reconstruction of a nation is a tough job. And I would just 
make one pitch for my brothers that are still in uniform: Do 
not stick them with this mission solely.
    Thank you.
    [The prepared statement of General Zinni follows:]

 Prepared Statement of Gen. Anthony C. Zinni, U.S. Marine Corps (Ret.)

    While I was the commander of the U.S. Central Command, we ran an 
inter-agency exercise to address issues dealing with a post-war Iraq or 
an Iraq that imploded and required our intervention. I did this because 
a number of leaders in the region expressed concern about our ability 
to deal with these issues and because I felt we had not planned for 
these as well as we should have. In addition, from my experiences in a 
number of humanitarian and peacekeeping operations in northern Iraq, 
Somalia, Bosnia, the Former Soviet Union, and elsewhere, I knew that 
the possible scope of the problems and the difficulty of the tasks 
required much more planning and preparation. I also knew that other 
government agencies had to be involved in this planning since the 
requirement is not solely a military one. My comments are based on this 
background.
    In addressing the issues that might be faced in a post conflict 
Iraq, the first question that has to be answered deals with the end 
state envisioned or desired. Do we want to transform Iraq or just 
transition it out from under the unacceptable regime of Saddam Hussein 
into a reasonably stable nation. Transformation implies significant 
change in forms of governance, in economic policies, in regional 
status, in security structure, and in other areas. Without a 
determination of the scale and scope of change desired, it is not 
possible to judge the cost and level of effort required. Certainly 
there will not be a spontaneous democracy so the reconstruction of the 
country will be a long, hard course regardless of whether a modest 
vision of the end state is sought or a more ambitious one is chosen.
    We should be careful whose predictions of potential outcomes of the 
situation that we accept. No one can be sure about exactly what the 
scope of the problems will be once military action begins. We can only 
provide a broad bracket of the scope of the potential challenges we 
would face. The ``it depends'' answer to assessments will be the best 
analysis we can offer in most cases. A reasonable middle of the road 
assessment is probably prudent for planning. Overall it will not be as 
good as the optimists predict or as bad as the pessimists describe.
    A lot of thought has been given to the kinds of problems and tasks 
that we will face in the aftermath. I have read several recent studies 
and pieces produced by groups of knowledgeable people. Generally these 
works have, in my opinion, captured the broad requirements and the 
issues very well. Defining the problem, however, is only half the task. 
The other half deals with how you solve the problem. I have not seen a 
lot of specifics in this area. By this I mean descriptions of the 
organizations needed, the assignment of responsibilities, the lines of 
authority, the coordinating mechanisms, the resources necessary, and 
other hard recommendations on what is needed on the ground.
    There are four areas or categories that all efforts will fall 
under. These are the security, political, economic, and recovery/
reconstruction dimensions of the problem. They cannot be worked 
separately or in sequence, so close coordination between these 
functional areas is vitally important. Also, they do not begin after 
military action starts but must begin ahead of the fighting, run 
parallel to it, and continue well after it ends or subsides. The tasks 
in each of these areas will be considerable. I can offer a few examples 
for each.
    The security dimension will require tasks to be performed such as 
maintenance of law and order, force protection, peacekeeping, 
protection of threatened groups, dealing with civil unrest and acts of 
retribution, countering external threats, and developing local security 
capabilities. The political part will require such things as 
establishing an interim or transitional government, laying the 
foundation for a final form of governance, ensuring coordination of all 
activities, developing the principles and procedures for establishing 
civil functions, dealing with procedures for accountability, and 
coordinating the regional and international involvement. The economic 
area would involve dealing with issues such as energy production, 
employment restructuring, regional economic impacts, status of foreign 
debt, restructuring of the economic base, and soliciting and managing 
donor contributions. The recovery and reconstruction element will deal 
with the immediate and long term humanitarian needs, infrastructure 
repair and replacement, consequence management, WMD accountability, and 
the reestablishment of services. Again, these tasks are just examples 
and certainly are not the complete requirement; but, they give a sense 
of the scope of the post conflict demands.
    I would offer several points of advice from my experiences and 
analysis of what has to be done in a post conflict environment.

          1. Each of the four areas mentioned needs a separate 
        structure, on the ground, to work the tasks in that area. That 
        doesn't mean that organizations with primary duties in another 
        area cannot be tasked to support, such as the military, a part 
        of the security element, assisting in humanitarian efforts; 
        however, it does mean there has to be a distinct organization 
        accountable and in charge of each of these functional areas.

          2. Everything must be closely coordinated. A coordinating 
        mechanism(s) needs to be in place and clear lines of authority 
        must be established. There will be natural friction between the 
        areas so, at some level, there must be an ultimate authority 
        that can provide immediate decisions and deconfliction 
        directions.

          3. The resources and organizations required must be 
        identified, provided, and effectively managed. The military 
        cannot be stuck with the whole mission as has happened in the 
        past.

          4. These efforts must be planned for and the structures and 
        resources established before military action begins. The effort 
        does not start after military action but runs parallel to it. 
        There should be no gaps.

          5. We should do everything under international institutions 
        if at all possible. Our motives will always be suspect in this 
        endeavor and it will be difficult to get partners in the messy 
        ``day after'' business, but the cover of the international 
        organizations will make easier, maybe even inviting. 
        International agencies, private volunteer agencies, and non-
        governmental agencies are critical to success. They must be 
        empowered and encouraged to do the necessary work in close 
        coordination with our governmental agencies.

          6. You need someone in charge on the ground. That doesn't 
        mean that person has to command all forces and agencies but it 
        does mean he, or she, has to have coordinating authority.

          7. Internal order will be the most critical factor in keeping 
        positive momentum and progressing toward full reconstruction. 
        This task will be the priority.

          8. Images are everything, particularly in the early stages of 
        the mission. Intelligent and active information operations will 
        make or break the mission from the beginning.

          9. Regional nations and agencies should be a part of the 
        effort if possible. Regional involvement that works counter to 
        the objective has to be prevented.

          10. The decision on the scope of the vision must be made 
        early. Is it Iraq transformed or Iraq simply transitioned?

    This is a broad description of the requirement as I see it. 
Certainly there are experts in each of the areas I mentioned who are 
far better qualified than I am to address the specifics in their area 
of expertise. I am happy, however, to answer any of your questions as 
best I can.

    The Chairman. Well, thank you very much, General Zinni. 
Without knowing what is going to happen with our next two 
starring witnesses, I just thought that was a boffo 
performance. We are prepared to send you on the road, and I 
appreciate it very, very much and we have all made notes.
    Now, Colonel Feil, we have had you here before. We 
appreciated once again your insights at that time and please 
proceed today.

 STATEMENT OF COL. SCOTT R. FEIL, (U.S. ARMY, RET.), EXECUTIVE 
    DIRECTOR, ROLE OF AMERICAN MILITARY POWER, ARLINGTON, VA

    Colonel Feil. Thank you, Mr. Chairman. I will try to--I do 
not have a cane or a straw hat, but I will try to do as good a 
job as General Zinni.
    Thank you for the opportunity to appear before you and 
members of the committee, sir. The tremendous challenges that 
would face the United States and its partners in Iraq can be 
organized into our analytical categories that we used in my 
project of: security, economic and social well-being, justice 
and reconciliation, and governance and participation. While 
those groupings are useful for analysis and for organization 
and for the application of resources, it is imperative that any 
approach to Iraq in a post-conflict situation begins with a 
presumption that only a comprehensive plan, executed through 
integrated yet decentralized actions, will be successful. While 
security is the foundation for post-conflict reconstruction 
efforts, progress in those other three areas have direct impact 
on the long-term internal and external security capabilities 
and the situation of Iraq.
    The general security tasks that need to be accomplished 
after a conflict in Iraq have been addressed and are fairly 
straightforward, but they are larger in scale and resources 
required than anything we have seen in the recent past. First, 
the regime must be deposed. The leadership must be found and, 
if alive, detained for purposes of either standing trial as 
international war criminals or participating in whatever 
justice mechanism the Iraqi people determine meet their needs.
    Second, the security services must be dismantled and 
reorganized. All of Saddam's special security organizations, 
organized for the protection of the regime, such as the 
Military Intelligence Service, the Military Security Service, 
the Special Security Service, the General Intelligence 
Directorate, the General Security Services, and the Special 
Protection Apparatus--as you can see, he has a lot of 
organizations devoted to his protection--have to be disbanded 
and their members detained and vetted. That may number up to 
50,000 people right there.
    Those internal security forces performing the day to day 
enforcement of civil and bona fide criminal law, as opposed to 
political repression, must have their leadership changed. But 
the bulk of the rank and file will be essential to the 
preservation of order. The national police force and the 
frontier guard, totaling perhaps an additional 70,000 men, must 
have their leadership reorganized.
    The level down to which commanders will be removed will 
vary based on their record and the overall policy. The 
leadership of the national police and the border guard should 
be constrained by thorough monitoring and joint operations with 
international civilian police deployed throughout the country. 
The process of recruiting, training, and organizing those 
civilian police and police monitors, numbering about 4,000 to 
5,000 in my estimate, must begin now.
    The Baath Party needs to be completely disbanded and its 
leadership detained and put through a vetting process. Within 
the context of dismantling the regime, the bureaucracy must be 
reorganized. Those elements that were used as instruments of 
repression and to protect the regime must either be disbanded 
or redirected. One of the first ministries to be thoroughly 
revamped must be the Ministry of Information.
    Those involved in technical work or the provision of 
services must be vetted, retained, and used by the military and 
civil administration to provide essential services to the 
population. To date there have been discussions and planning, 
but the most glaring gap in the above areas has been the 
hesitance to organize civilian police and police monitors to 
integrate with the coalition military to provide a seamless 
security structure.
    The Iraqi army must be reorganized. The Special Republican 
Guards and the Republican Guards will have to be dismantled. 
The default assumption must be that the members of these 
organizations are not qualified to continue to serve in a 
reformed Iraqi army unless proven otherwise. The national army 
will need new leadership, but once again the rank and file 
should be amenable to retraining and reorientation. This is 
easier said than done and will require significant investment 
of coalition forces in time and labor to conduct the 
disarmament and demobilization of hundreds of thousands of 
soldiers.
    The reduction in security manpower means that up to 300,000 
to 400,000 men will be released into the economy. During the 
reorganization process, many of the soldiers in the Iraqi army, 
excluding the Republican Guard and Special Republican Guard, 
may be used in supervised public works projects or closely 
monitored and supervised security tasks.
    Concurrent with the removal of the regime and the 
reorientation of the security forces, coalition forces must 
continue the effort to seize and control the Iraqi WMD program 
in its entirety. This objective will be a primary effort during 
the military campaign and it must continue at the same level 
regardless of the progress made in any conventional combat that 
discovers those elements of the WMD program.
    Just from the public record of what Iraq has been unable to 
account for since 1998, this is a massive undertaking. In 
addition to controlling the weapons and the delivery systems 
themselves, facilities and records will need to be secured. It 
is expected that almost 70 Presidential compounds alone may 
have evidence of WMD programs. Securing and searching those 
compounds will be labor-intensive and require significant 
ground forces to ensure entry and control.
    Finally, finding, detaining, and debriefing personnel 
involved in the WMD programs will be essential. It has taken 4 
months of inspections to speak to a handful of the 1,000 
scientists and engineers believed to be engaged in WMD 
programs. Integrated military and civilian teams will have to 
fan out and work in the cities, the countryside, and along the 
borders to ensure that no weapons, documents, or personnel leak 
out of the country.
    Security for the population is the third high priority 
task. Here much depends on the course of the fighting that 
results in the removal of the regime and the seizure of the WMD 
program elements. Clearly the potential for humanitarian crisis 
is large. There are several factors that contribute to this 
situation. Due to conditions imposed by a number of the U.N. 
Security Council resolutions, humanitarian aid agencies do not 
have the infrastructure established within Iraq comparable to 
what they had in the Balkans and Afghanistan. Therefore the 
immediate administration of humanitarian assistance will fall 
to the government agencies, either military or civilian, that 
arrive during the course of combat operations.
    Should Saddam's forces withdraw into the cities and conduct 
urban warfare, there will be increased civilian casualties, 
which will put additional burdens on military and civilian 
medical assets.
    A qualitatively different problem is very possible with the 
spread of biological or chemical contamination. This could come 
about as the result of overt employment by Saddam or his 
military leaders. There is also the risk of inadvertent release 
based on action by coalition forces, given that we will not 
have perfect and complete intelligence on the location of 
Iraq's WMD and may destroy facilities containing stocks of 
chemical or biological weapons.
    In either case, military assets for chemical and biological 
reconnaissance and decontamination are limited and will be 
primarily occupied with supporting coalition forces. There are 
no significant assets other than coalition military units that 
have a capability to assist a contaminated civilian population. 
NGOs are not prepared to provide services in a contaminated 
environment, multiplying the humanitarian problem should that 
condition exist.
    The fourth major priority is to prevent factional violence 
and prevent armed groups from seizing assets, territory, or 
population as Saddam's forces loosen their grip. The biggest 
threat to coalition long-term objectives will arise if a 
security vacuum exists between the time Saddam's forces 
withdraw or cease activity and the arrival of American and 
coalition forces.
    Inherent in preventing factional and ethnic fighting and 
reprisals is the ability to provide local policing within a 
framework of a non-arbitrary legal code, with objective judges 
and a humane correctional system. Policing and establishing the 
rule of law is a fundamental linchpin connecting the security 
issue to social, economic, and governance issues in Iraq.
    National codes are enforced and respect for law takes root 
at the local level. Recent history has provided evidence of the 
false dichotomy between military security that focuses on heavy 
weapons, organized groups, and overtly political resistance and 
personal or human security that is a function of local 
knowledge, competent policing, a functioning criminal and civil 
justice system, and community involvement.
    This comprehensive approach to providing security for the 
population requires significant interagency, NGO, and 
international governmental organization involvement if the 
military is not to be swamped. A deployable justice package 
must be organized now and the personnel identified, organized, 
and trained. An inability to provide a seamless security 
situation for the population of Iraq as a State will produce 
conditions that will lead to crime, corruption, alternative 
sources of political and economic power and rulemaking, and 
will undermine the eventual successor Iraqi administration.
    Finally and most important for the long-term viability of 
Iraq and the legacy of the coalition, Iraq's oil resources must 
be retained and developed for the benefit of the people. 
Facilities must be secured, including the fields and the 
associated infrastructure. Possession of these untapped 
resources could confer extraordinary economic and political 
power to various groups. Although military action in Iraq does 
not constitute a war for oil, the peace achieved and the type 
of governance attained will owe much to the way the oil sector 
and Iraq's external debt and reconstruction costs are managed.
    Finally, the borders must be protected, obviously. That is 
an integral task that goes along with preserving the 
territorial integrity and also these other operations to get to 
the WMD programs, prevent any leakage, and also detain the 
personnel that we think need to be detained.
    Given the enormity of these tasks, I still believe that a 
force of about 75,000 American military personnel will be 
required for up to 1 year as the minimum force to stabilize the 
situation, accomplish those tasks outlined above, and establish 
the conditions for sustainable peace and a capable Iraqi State. 
This force can be reduced as the situation stabilizes. The rate 
of transformation, which is what the Iraqis accomplish, and the 
rate of transition, which is what we do, will determine our 
coalition withdrawal and the type of forces that can be 
withdrawn first.
    Much has been done to address these issues, but much more 
operational movement must take place. The government has 
attempted to pull together the requisite expertise to define 
the conditions and the requirements for success. However, the 
effort to implement procedures and organize resources is still 
fragmented and there has been more activity than movement.
    From an American perspective, what is needed is a clear 
articulation of American goals for Iraq, the delineation of the 
tasks America expects to accomplish, what America will assist 
with, and what is expected of coalition and Iraqi partners and 
the subsequent dedication of resources, i.e., people, equipment 
and funds, to the effort.
    Finally, the United States must articulate its transition 
strategy. The criteria that will govern the transition from 
military agency to civilian agency and from outsider to insider 
in the execution of the post-conflict reconstruction tasks must 
be developed, promulgated, and integrated into the supporting 
plans. The United States must articulate the balance between 
American responsibility as outsiders, setting parameters and 
assisting the process, and the local ownership of that process.
    America must not let responsibility for the outcome become 
an open-ended commitment on our part or let our presence create 
unnecessary dependencies. Conversely, local ownership cannot 
become a rationale or a buzz word for meager support and 
abandonment.
    Once the process begins, dynamic assessments are required 
based on measurable and previously established criteria. 
Substitution of time lines for measurable progress in achieving 
the goals of reconstruction has led the United States and the 
international community to unsuccessful half-measures and 
minimalism in other situations. Time lines are not an issue as 
long as the timeframe is tied to some measure of performance 
and progress and is a real part of the process.
    We can be successful at this if success is adequately 
defined and if the resources match the intent. However, my 
estimation is that at this stage the planning process in this 
area has not kept pace with the military preparations for the 
campaign and the agencies who can resolve the outstanding 
issues are running out of time to do so.
    Thank you, sir.
    [The prepared statement of Colonel Feil follows:]

      Prepared Statement of Col. Scott R. Feil, U.S. Army, (Ret.)

             SECURITY IN A POST-CONFLICT SITUATION IN IRAQ

    Thank you Mr. Chairman, for the opportunity to offer testimony to 
the committee with respect to the security situation that would exist 
in Iraq should the United States lead a coalition of military forces in 
deposing Saddam Hussein and dismantling his arsenal of weapons of mass 
destruction.
    Attached to this statement is a Report of a Commission on Post 
Conflict Reconstruction, which is the result of a two and one half year 
study on the subject from a general American policy standpoint, 
conducted by the Association of the U.S. Army and the Center for 
Strategic and International Studies. ``A Wiser Peace,'' a report by the 
Center for Strategic and International Studies, which builds on the 
project and commission report and addresses the situation in Iraq, is 
also attached. These reports contain focused recommendations on the 
long-term implications of repeated engagement in post conflict 
reconstruction activities and the immediate issue of Iraq. American and 
international involvement in these efforts can come about either as a 
result of interventions to preserve peace and assist countries emerging 
from conflict, as in the Balkans, and East Timor, etc., or as a result 
of American and multi-lateral military action as a victorious party to 
a conflict, i.e., in Panama and Afghanistan.
    The tremendous challenges that would face the United States and its 
partners in Iraq can be organized into major analytical categories of 
executing tasks in providing security, economic and social well-being, 
justice and reconciliation, and governance and participation. While 
these groupings are useful for analysis, organization, and application 
of resources, it is imperative that any approach to Iraq in a post 
conflict situation begins with a presumption that only a comprehensive, 
holistic plan executed through integrated, yet decentralized actions 
will be successful. While security is the foundation for post conflict 
reconstruction efforts, the other three issue areas, or pillars, have 
direct impact on the long-term internal and external security 
capabilities and situation of the nation.
    In fact, the lack of planning and preparation for such integration 
and coordination has bedeviled previous efforts in this area. The World 
Bank estimates that 50% of countries that emerge from a conflict 
situation are back in a conflict status within five years. That is a 
disturbing statistic given the stakes in Iraq. The coalition, under 
American leadership, cannot leave the success of these efforts within 
that country, with its population, strategic location, and resources to 
the odds of a coin flip. The resources exist to enhance the probability 
of success. Much has been done to marshal these resources, but much 
more remains to be done. The preparations for a military campaign 
continue to capture the bulk of the attention of both the populace and 
the government, while the less glamorous efforts to prepare for the 
aftermath continue to lag. Americans will evaluate the effort much more 
on what is accomplished in Iraq after a military campaign than what is 
destroyed during the campaign. So will America's partners, the Iraqi 
people, and any potential adversaries around the world.
    The tasks that need to be accomplished are well known.
    First, the Iraqi regime must be deposed. The leadership must be 
found and if alive, detained for the purposes of either standing trial 
as international war criminals, or participating in whatever justice 
mechanism the Iraqi people determine meets their needs. Second, the 
security services must be dismantled and reorganized. Full disbandment 
and detention of personnel must apply to those agencies involved in 
repression and the protection of the regime. All of Saddam's special 
security organizations organized for the protection of the regime (the 
Military Intelligence Service, the Military Security Service, the 
Special Security Service, the General Intelligence Directorate, the 
General Security Services, and the Special Protection apparatus, etc.) 
must be disbanded and their members detained and vetted. This may 
number up to 50,000 personnel. Those security forces performing the 
day-to-day enforcement of civil and bona fide criminal law, as opposed 
to political repression, must have their leadership changed, but the 
bulk of the rank and file will be essential to the preservation of 
order. The national police force and the frontier guard, totaling 
perhaps an additional 70,000 men, must have their leadership removed. 
The level down to which commanders are removed will vary based on their 
record and policy. The leadership of the national police and border 
guard will be new and their behavior should be constrained by thorough 
monitoring and joint operations with international civilian police 
deployed throughout the country. The process of recruiting, training 
and organizing those civilian police and police monitors, numbering 
about 4000 to 5000 must begin now.
    The Ba'ath party needs to be completely disbanded and its 
leadership detained and put through a vetting process before they are 
released to the general population.
    Within the context of dismantling the regime, the bureaucracy must 
be reorganized. Those elements that were used as instruments of 
repression and to protect the regime must be either disbanded or 
redirected. One of the first ministries to be thoroughly revamped must 
be the Ministry of Information. Those involved in technical work or the 
provision of services must be vetted, retained, and used by the 
military and civil administration to provide essential services to the 
population. As examples, electricity, water, sanitation, 
transportation, etc., are sectors which can be rapidly insulated from 
the political processes and continue to work.
    Much of this will take civilian political and technical acumen, 
with partners from the military coalition and partners the United 
States cultivates from the diaspora and within Iraq. To date, there 
have been discussions and planning, but the most glaring gap has been 
the hesitance to organize civilian police and police monitors to 
integrate with the military to provide a seamless security structure.
    The Iraqi Army must be reorganized. The Special Republican Guards 
and the Republican Guards will have to be dismantled. The default 
assumption must be that members of these organizations are not 
qualified to continue to serve in a reformed Iraqi Army unless proven 
otherwise. The National Army will need new leadership, but the rank and 
file should be amenable to retraining and reorientation under new 
leadership. This is easier said than done and will require significant 
investment of coalition forces in time and labor to conduct the 
disarmament and demobilization of hundreds of thousands of soldiers, in 
a process that gathers information and releases parolees (in the 
military use of the term) in an orderly fashion. That process must be 
seamlessly connected to a reintegration program that puts former 
soldiers back into society ready to be a productive citizen rather than 
an unemployed burden on government services and a continuing security 
risk. Eventually, the reformed Iraqi armed forces could number between 
150,000 and 200,000, but the process of creating a credible force of 
this size will take at least one to two years. The reduction in 
manpower means that about 300,000 to 400,000 men will be released into 
the economy over that same period. In the interim, many of the soldiers 
in the Iraqi Army, (excluding the Republican Guard and Special 
Republican Guard) may be used in supervised public works projects or 
closely monitored and supervised security tasks.
    Woven in with the dismantling of the regime and the restructuring 
of the security services, the second major objective must be to seize 
and control the Iraqi weapons of mass destruction, (WMD) program in its 
entirety. This objective will be a primary effort during the military 
campaign, and it must continue at the same level regardless of the 
progress in any conventional combat. Just form the public record of 
what Iraq has been unable to account for since 1998, this is a massive 
undertaking. The number of munitions, the amount of chemicals and 
biological material will require a significant search and security 
effort. It can be expected that, in addition to selected targets 
comprising members of the regime, the effort to find and control 
weapons of mass destruction would consume most of the committed special 
operations forces. Chemical units, after accompanying the combat 
elements through the military campaign will then have to support this 
effort and it will take a significant portion of American and coalition 
assets to accomplish this critical task. However, in addition to 
controlling the weapons and the delivery systems themselves, facilities 
and records will need to be secured when found during the campaign, and 
then further coordinated efforts will need to be undertaken to ensure 
that the international community has a complete picture of the Iraqi 
programs. Records and physical evidence of the programs and the 
location of the assets will be critical to achieving one of the salient 
objectives. It is expected that almost 70 presidential compounds alone 
may have evidence of the WMD programs. Securing and searching those 
compounds will be labor intensive and require significant ground forces 
to ensure entry and control. Finally, finding, detaining, and 
debriefing personnel involved in the programs will be essential. It has 
taken us four months of inspections to speak to a handful of the one 
thousand scientists and engineers believe to be engaged in WMD 
programs. A comprehensive effort to secure the entire WMD program 
places not only a physical burden on security forces, but also requires 
additional coordination measures with technical experts. The WMD search 
and seizure effort will rely on intelligence provided by other 
agencies, and the operational work will require teaming in the cities, 
the countryside and the borders to ensure that weapons, documents, or 
personnel do not leak out of the country. America and the international 
community cannot afford to repeat some of the mistakes and hesitancy 
with regard to wanted personnel that were made in the Balkans.
    This takes considerably more intelligence and technical expertise 
than exists within the military. Military forces can seize and secure 
weapons, facilities, and personnel that are encountered and identified 
during combat and immediately thereafter, but to investigate and ferret 
out the entire network of programs will take a combined civilian and 
military effort.
    Security for the population is the third high priority task. Here, 
much depends on the course of the fighting that results in achievement 
of the removal of Saddam and the seizure of the WMD program elements. 
Clearly, the potential for a humanitarian crisis is large. There are 
several factors that contribute to this situation. Due to the 
conditions imposed by a number of the UN Security Council resolutions, 
humanitarian aid agencies do not have infrastructure established within 
Iraq, comparable to what they had in the Balkans and Afghanistan. 
Therefore the immediate administration of humanitarian assistance will 
fall to the governmental agencies, either military or civilian, that 
arrive during the course of combat operations. The requirement to 
secure the largest cities and population centers will occupy a large 
number of conventional ground forces, and in order to minimize numbers, 
the coalition will have to rely on mobility advantages conferred by 
aviation. Maintaining the ability to see, prevent, and if necessary, 
react, to impending population crises will be essential.
    The force must have the mandate and capability to regulate 
movement, both across borders and within the country. This is not a 
requirement designed to inhibit legitimate population movement covered 
under the Geneva Conventions and other customary laws of war. However, 
to achieve the primary objectives of regime change and disarmament, the 
security forces must have the ability to ensure that people and 
material that must be controlled does not escape by taking advantage of 
these laws.
    A significant humanitarian risk exists on two dimensions. Should 
Saddam's forces withdraw into the cities and conduct urban warfare, 
there will be increased civilian casualties, which will put additional 
burdens on military and civilian medical assets. This is a problem of 
scale, which can be accommodated with the deployment of additional 
military and NGO medical capacity. However, a qualitatively different 
problem is very possible with the spread of chemical or biological 
contamination. This could come about as the result of overt employment 
by Saddam or his military leaders. There is also the risk of 
inadvertent release based on actions by coalition forces, given that 
will not have perfect and complete intelligence on the location of 
Iraq's WMD and may destroy facilities containing unknown stocks of 
chemical or biological weapons. In either case, military assets for 
chemical and biological reconnaissance and decontamination are limited 
and will be primarily occupied with supporting coalition forces. There 
are no assets other than coalition military units that have the 
capability to assist a contaminated population. NGOs are not prepared 
to provide services under contamination conditions, multiplying the 
problem. The demand for action to assist populations may inhibit 
military operations, and it will certainly become a first priority when 
hostilities cease, due to public pressure. It is worth noting that a 
significant portion of these reconnaissance and decontamination units 
are in the reserve components, and there will be competing demands from 
the theater of operations and American local governments, who will be 
under some pressure to retain this capability for consequence 
management at home, especially under a heightened homeland security 
alert status.
    The population must be secured from reprisals, both in violence to 
persons and the seizure of property. This means being able to control 
the population in terms of movement and assembly until legitimate 
authorities can gather the facts and sort through claims and counter 
claims. Decades of humanitarian abuse and internal resettlement have 
created the potential for people to settle scores and to assert their 
right to return to currently occupied land and homes.
    The fourth major priority is to prevent factional violence and 
prevent armed groups from seizing assets, territory, or populations as 
Saddam's forces loosen their grip. The most dangerous time for the 
establishment of precedent counter to coalition overall goals for the 
people of Iraq will come if a security vacuum exists between the time 
Saddam's forces withdraw, or cease activity, and the arrival of 
American and coalition forces. The Kurdish parties, most notably the 
Patriotic Union of Kurdistan and the Kurdistan Democratic Party, plus 
other parties and expatriate Iraqis, could total 5 million people. It 
is important to note that the two major Kurdish parties were part of 
the December Iraqi Opposition Conference in London that brought 
together some 57 opposition groups. Although the follow up January 
meeting to select a leadership committee was canceled it is interesting 
to note that the KDP and PUK leadership met in Ankara on February 6.
    Other armed groups will occupy both the attention and the forces of 
the coalition in Iraq. Most notable are the Ansar al Islam, noted 
recently in the press as operating in the northeast portion of the 
country which is not under solid control of the Hussein regime. This 
force is estimated at about 1,000 fighters and has been active in 
developing crude chemical weapons capability. The Shi'ite Supreme 
Council for the Islamic Revolution of Iraq is an Islamic opposition 
movement that has been based in, and supported by Iran. While possessed 
of no love for Saddam Hussein, its leader is also opposed to American 
military occupation of Iraq. Any cooperative agreement with SCIRI must 
be viewed as one of convenience that will continue in force only so 
long as coalition and SCIRI interests converge. SCIRI has been reported 
to have combat elements of brigade size that could move into the 
eastern portions of Iraq and the Shi'a south, exacerbating elements of 
both Iran-Iraq regional politics and inflaming religious cleavage that 
will already be a source of concern to security forces and civil 
authorities.
    It is heartening to note that most scholars and experts assess 
significant potential for Iraq not to fracture. For the safety of the 
Iraqi people, their economic and political future, and the security of 
the region, the country must be preserved as an integral political 
entity. Borders must be retained, and while there will be significant 
military and humanitarian movement across the borders, any attempt to 
redraw the Iraqi map must be resisted with the same resolve the 
coalition will bring to the military campaign to unseat Saddam. To this 
end, the United States must reassure regional partners that American 
intent is to preserve Iraq and the coalition must dissuade any 
opportunistic meddling in Iraqi affairs from potential regional 
adversaries. In the on going constituting process for a new Iraqi 
government, due diligence must be paid to intra-state political 
arrangements that place more emphasis on political and regional 
divisions, rather than ethnic or religious separation.
    Inherent in the security of the population, preventing factional 
and ethnic fighting, preventing reprisals, etc., is the ability to 
provide local policing within a framework of a non-arbitrary legal 
code, with objective judges and a humane correctional system. Policing 
and establishing the rule of law is a fundamental linchpin connecting 
the security issue to the humanitarian situation in the country. While 
national codes may be developed and promulgated, those codes are 
enforced and respect for law takes root at the local level. Recent 
history has provided evidence of the false dichotomy between military 
security, that focuses on heavy weapons, organized groups, and overtly 
political resistance, and personal security, that is a function of 
local knowledge, competent policing, a functioning criminal and civil 
justice system, and community involvement.
    This comprehensive approach to providing security for the 
population requires significant interagency, NGO and IGO involvement if 
the military is not to be swamped. A deployable justice package must be 
organized now, and the personnel identified, organized and trained. An 
inability to provide a seamless security system for the population and 
Iraq as a state will produce conditions that will lead to crime, 
corruption, alternative sources of political and economic power and 
rule making, and will undermine the eventual successor Iraqi 
administration.
    Finally, and most importantly for the long term viability of Iraq 
and the legacy of the coalition effort, Iraq's oil resources must be 
retained and developed for the benefit of the Iraqi people. Facilities 
must be secured, including the fields and the associated 
infrastructure. There are several major fields, including Kirkuk in the 
north and the Rumalia fields near Basrah in the south. There are over 
2,000 individual wells in these fields and others, plus at least two 
major pipelines that transport the oil to Turkey and Syria. Iraqi oil 
sector professionals, (as opposed to the political deal makers at the 
highest levels) must be retained to operate the fields and work with 
international partners to improve the efficiency of the existing 
production facilities, while conducting exploration to realize the 
potential of future production. Iraq's oil production facilities are 
fragile. They have suffered from almost two decades of technological 
neglect and politically motivated exploitation. Production efficiencies 
have been sub-optimized in order to support regime political goals, and 
that has reduced return on what little investment and production there 
has been. Therefore securing the oil sector, physically, financially, 
and politically is absolutely critical.
    Iraqi oil potential is significant, ranked as being second only to 
Saudi Arabia with 112 billion barrels in estimated reserves and perhaps 
as much as 220 billion barrels. Iraq only has developed 15 of 74 
evaluated fields, and of the 526 known ``structures'' that may contain 
oil deposits, only 125 have been drilled. Clearly, possession of these 
untapped resources could confer extraordinary economic and political 
power. Although military action in Iraq does not constitute a war for 
oil, the peace achieved and the type of governance attained will owe 
much to the way the oil sector is managed.
    The history of the connection between resource wealth, governments 
and people illustrates a hard fact. Governments that derive revenue 
directly from resource exploitation generally are not accountable to 
the population, despite protestations that the government owns the 
resources in the name of the people. If some sort of participatory 
governance is to have any meaning in Iraq, then private Iraqi commerce 
should generate the wealth through market mechanisms, which the 
government can then tax for the purpose of providing government 
services. A healthy relationship between the governed and the 
government is built upon accountability in policy and budgets. A 
government with an independent source of revenue has no requirement to 
heed the people. Therefore it is imperative that the future structure 
of the Iraqi oil sector be determined with a broad representation of 
the Iraqi people, including the indigenous oil sector, in partnership 
with foreign private investors and oil technology providers. A 
significant hurdle that must be overcome on day one is to engage the 
indigenous Iraqi oil sector technocrats and professionals. They have a 
reputation for a perspective that is highly professional and highly 
insulated from politics.
    Given the enormity of these tasks, a force of about 75,000 American 
military personnel for about one year will be required as the minimum 
force to stabilize the situation, accomplish the tasks outlined above 
and establish the conditions for sustainable peace and a capable Iraqi 
state. This force can be reduced as the situation stabilizes. That 
transformation process resulting in a sustainable, capable state is as 
much a function of integrated action on the part of civilian and 
military agencies after the fight as it is on the fight itself. The 
rate of transition, (what the outsiders do) and the rate of 
transformation, (what the Iraqis do), will determine the rate of 
coalition withdrawal and the types of forces that can be withdrawn 
first.
    Much has been done to address these issues, but much more 
operational movement must take place. The government has attempted to 
pull together the requisite expertise to define the conditions and 
requirements for success. This started many months ago, and in several 
locations. The Naval War College, the National Defense University, the 
Institute for Defense Analysis, the Joint Staff and Joint Forces 
Command, and the Army War College are just a few of the many military 
organizations that have conducted conferences, table top exercises, and 
simulations to flesh out the plans and requirements. The interagency 
has been busy with exercises like Millennium Challenge and others, 
improving the ability of the government to coordinate. The Department 
of State has organized the Future of Iraq Project, with working groups 
of experts from around the globe, including members of the Iraq 
diaspora and opposition, with the intent of driving planning and 
resource requirements in sixteen different post conflict issue areas. 
They organized the Iraqi Opposition Conference that met in December, 
but which has not yielded the kind of constituting process that is 
required to hit the ground with military forces and receive the reins 
of government from a coalition military or civil administrator. United 
States Central Command, as expected, has been working diligently on the 
plans for post-conflict Iraq, and the Department of Defense has 
established a new office to oversee a broad range of military and 
civilian issues that are expected in the aftermath. All of the 
government efforts have reached out, in one way or another to the 
public community of policy institutes, non-governmental organizations, 
and expert citizens of many countries. Additionally, there have been 
informal and formal contacts with international government 
organizations. A lot of information has been exchanged and the 
magnitude of the problem has been well defined.
    But the effort to implement procedures and organize resources is 
still fragmented and there has been more activity than movement. From 
an American perspective, what is needed is a clear articulation of 
American goals for Iraq, the delineation of the tasks America expects 
to accomplish, what America will assist with, and what is expected of 
coalition and Iraqi partners, and the dedication of resources, i.e., 
people, equipment and funds, to the effort. America will lead the 
effort. Difficult as it may be, the United States needs to present a 
plan for comment, review, revision and implementation. Experience shows 
that circulating a draft is more effective than asking all concerned to 
start with a blank sheet of paper. At present the military effort is as 
nearly ready for post-conflict as it is for the military campaign, and 
the rest of government is supporting the military preparations for the 
campaign. But with respect to post-conflict reconstruction, the United 
States and the international community are still ``getting ready to get 
ready.'' The President and the Congress need to establish interagency 
authority and accountability now, and resources need to be pre-
positioned.
    Finally, the United States must articulate its transition strategy. 
The criteria that will govern the transition from military agency to 
civilian agency, and from outsider to insider in the execution of all 
the post-conflict reconstruction tasks must be developed, promulgated, 
and integrated into the plan. The United States must articulate the 
balance between American responsibility as outsiders setting parameters 
and assisting the process and the local ownership of that process. 
America must not let responsibility for the outcome become an open-
ended commitment to establishing a particular brand of representative 
government in a place where the history, culture, and traditions may 
not furnish a suitable foundation. Conversely, ``local ownership'' 
cannot become a rationale for meager support and abandonment. This 
balance can only be achieved by working through the difficult planning 
and coordination efforts and making decisions about the levels and 
types of support ahead of time. The idea that ``no plan survives first 
contact'' only means that plans need adjustment. It does not obviate 
the need for detailed planning and coordination. Good plans anticipate 
change and have the resources and mechanisms available to take 
advantage of opportunities--reinforcing success and ameliorating 
setbacks.
    Once the process begins, dynamic assessments are required--based on 
the criteria. Substitution of timelines for measurable progress in 
achieving the goals of reconstruction has led the United States and the 
international community to unsuccessful half measures and minimalism. 
Timelines are not an issue, as long as the time expected is tied to 
some measure of performance and success--a real part of the process.
    Post-conflict reconstruction in Iraq can be successful--if success 
is adequately defined and if resources match intent. But time is short, 
the planning process has not kept pace with the military and diplomatic 
timeline, and the agencies who can resolve some of the outstanding 
issues are running out of time to do so.

    The Chairman. Thank you very much, Colonel Feil.
    Professor Cordesman.

STATEMENT OF PROF. ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR 
 FOR STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Cordesman. Thank you, Senator.
    As I have listened to the testimony this morning, it has 
struck me that one of the issues we have not really talked 
about is how any kind of nation-building effort in Iraq will 
affect the broader issues of regional security. I think 
unfortunately that is a serious mistake. The reality is that, 
regardless of what happens in Iraq, the broad problem of 
proliferation in the region will continue. There are six other 
countries that will be actively involved.
    We can have the best plan in the world to disarm Iraq and 
execute it, but the intellectual capital and skills to make 
weapons of mass destruction will remain regardless of how many 
documents we find or seize. Iraq will still have the dual use 
facilities to rapidly return to the production of chemical and 
biological weapons. It will probably rapidly acquire the 
technology, if it wants it, for long-range UAVs. You cannot 
disarm a sophisticated State. It is an oxymoron.
    And, if you do not think beyond that, you really do not 
understand this region. We will also have to free the new Iraqi 
Government at some point from sanctions. When we do so existing 
arms control agreements, many of which have not been agreed to 
in depth by other countries in the region, will be an issue.
    I have never heard anyone who advocates this war--and I 
have to say in general I do--explain to me why one of the other 
major regional problems in this area of the Middle East will 
not be at least as intense after this war as it is today. I see 
no one who has ever explained in even the crudest way for any 
country in the Arab world, or around Iraq, a single scenario as 
to how our creating a new regime inside Iraq changes a single 
neighboring State, overcomes its internal problems, leads to 
any broader implications.
    I think it is inevitable that the moment this war is over 
we will suddenly look at the near-civil war in Iran, at the 
problems of the second intifada, at whatever the situation is 
in Islamic extremism, and all of those problems will come to 
the surface.
    Moreover, we need to remember our limited span of control. 
History goes on long after peace processes, and in some period 
2, 3, or 5 years from now Iraq will no longer be significantly 
under our influence.
    Now, let me add to that some other complications. We talk 
about a ``coalition of the willing.'' Well, we have only one 
real ally here, or at least the leadership of one real ally. 
That ally is Britain. We have two regional allies which share 
our security objectives, Israel and Kuwait. We have no regional 
ally in the gulf which fully shares our values, which has our 
culture, or which seeks for democracy as we want it.
    Broadly speaking, in terms of public opinion throughout 
this region, we will be a ``coalition of the unwilling.'' Even 
in Kuwait there are no public opinion polls which show broad 
support for this war. Moreover, the administration statements 
earlier this morning come far too late. We had a failed public 
diplomacy under Clinton. We have had a failed public diplomacy 
under Bush. And, there are only two public figures in the 
United States whose voices can matter on an issue like the 
reconstruction of Iraq, the President and the Secretary of 
State. Until they say what Under Secretary Grossman and Under 
secretary Feith said here this morning, what was said here will 
have almost no influence throughout the Middle East region.
    Now, having said that, we have to accept the fact that on 
the day we go in--not the day when we win--but on the day we go 
in, we will have the Arab world and every bit of the media in 
the Arab world blaming us for everything wrong in Iraq. There 
will not be any tolerance. It will not be an intellectual 
argument. We will inherit the wind: the results of 30 years of 
mismanagement by a ruthless dictator.
    We also have to face the fact that in this region people 
believe in conspiracy theories. Moreover, public opinion poll 
after public opinion poll shows only one polarizing issue in 
foreign policy, the Second Intifada. Some 70 percent of the 
Arabs in this region blame us in large part for its outcome. I 
hope we can change some of these perceptions, but we really 
need to understand what we are getting into. That is why in my 
formal testimony I talk about peacemaking and nation-building 
as potentially a self-inflicted wound.
    But let me go on to the particular areas I was asked to 
address, the Iraqi military and the security services. I 
disagree a little with Colonel Feil on details, but these are 
not forces we fully understand.
    I will not go through the list of Iraqi security services. 
I have outlined and described them in the paper that I hope 
will be included for the record. I think the problem is their 
organization and role are more subtle, and that we need to 
parse them out more carefully. There are some closer to Saddam 
than others. One of the problems, as we saw in Russia, is that 
very often some of the best, most educated people have become 
associated with these tools of the regime, just as was true in 
the KGB.
    Another problem we also face is what to do about the Iraqi 
regular army. The regular army has had no rearmament, no 
modernization, in 10 years. It has been through three wars. It 
will go through whatever the fighting is. And finding a way of 
rebuilding that force will be an immediate task, not simply 
winnowing through it, but figuring out how you convince the 
Iraqis that you have actually given them a new balance of 
security.
    There are other issues within the Iraqi civilization or 
civil society that I think we need to address. I fully agree 
with Colonel Feil that the Ministry of Information is a 
problem, but so is everything else. Throughout the structure of 
the Iraqi Government there are clan and family ties, and there 
are people who are part of the Iraqi security apparatus, people 
who are tools of the regime. There is no ministry, no 
government, no community, free of these people.
    Iraq has no legal profession in the classic sense. You can 
only study law if you take an oath of loyalty to Saddam. There 
is no rule of law and what there was has been confused by a 
shift to tribal courts manipulated for the regime's power.
    There is the problem of tribe and clan, which cuts across 
religious and ethnic divisions, and these will require us to 
look very carefully at the tribal origins and patterns of 
people throughout the Iraqi Government. People do not remember 
this, but you cannot be an academic operating inside Iraq 
without having met the regime's litmus test, and for people in 
engineering and the sciences their past ties to weapons of mass 
destruction will be a critical issue. So you are talking about 
reviewing Iraq's academic structure, at least the higher 
education of Iraq as well.
    I do not know how we are going to do all this, but I would 
make a few quick suggestions. One, there is a predilection in 
the United States for talking about war crimes trials. I think 
such trials are part of the problem, not part of the solution. 
If we do hold such trials the threshold must be extremely high. 
Decent men have been caught up in 30 years of dictatorship. How 
much we punish them is something that all of us have to ask 
ourselves about: What would we have done in these regimes?
    If there is a model, it may be the South African truth 
commission, a way of getting very unpleasant issues out into 
the open without punishing everyone in sight.
    Ultimately, this must be done by Iraqis. I cannot think of 
a worse model than having American jurists and American legal 
advisers trying to show the Iraqis how to do this, or people 
from within NGOs. That to me is a recipe for discrediting what 
needs to be done.
    Now, in terms of Iraqi military forces, a caution. There 
seems to be the strange assumption that posture Iraqi forces 
will exist in a friendly region. They will not. They are not 
going to be the friends of the Turks, who will have moved into 
northern Iraq. They are not going to be the friends of the 
Iranians.
    Anyone who lives and works in Iraq is not going to be the 
future friend of Israel, and any member of the Iraqi opposition 
who pretends today to be a supporter of Israel in the face of 
the Second Intifada today will find it remarkably opportune to 
change that position the moment they acquire any kind of 
meaningful power. We seem to forget this. It is a dangerous 
thing to forget.
    We are also talking about a country whose history has five 
branches of government: the three we recognize are the 
legislative, the executive, and the judiciary. The other two 
are the military and the security services, and the military 
have considerably more power and prestige historically in Iraq, 
than do the legislature and does the judiciary.
    We have to work with this structure and transform it. My 
guess is that, whatever we do, we will be only partially 
successful.
    Finally a few comments about disarmament. First there is 
the civil aspect of disarmament. Where are 350,000 Iraqi 
soldiers going to go, the men and women in the services, plus 
another 40,000 to 50,000 in the security services? Remember the 
Weimar Republic. They may not have income or jobs. Sooner or 
later they will re-emerge and they will not be on our side.
    How do we at the same time return the Iraqi officer corps 
to create a balance of Kurds and Shi'ites? How do we deal with 
the fact the Iraqi army should be a reflection of properly 
distributed power among Iraq's ethnic and religious divisions? 
I have not heard anyone describe how this is going to be done. 
As General Zinni pointed out, the issue here is the practical.
    Finally, if we do disarm Iraq of weapons of mass 
destruction, what do we do then? If we do not have some kind of 
guarantee of extended deterrence, why will Iraq be content to 
exist alone in this region without weapons of mass destruction 
or at least the programs to suddenly create them? If we leave 
Iraq without some mix of containment, arms control, and new 
security partnerships, why does this bring stability? And if 
the basic tensions of the Second Intifada and the India-
Pakistan conflict are not dealt with in the years that follow, 
why on earth will having fought this war done this have brought 
any meaningful regional stability or changed the map or 
structure of history?
    If I had heard the Bush administration say even a few words 
about these issues, I would be a little more confident. But 
what I hear is a mixture of pious hope and the belief that the 
default setting on the civilization of the Middle East is 
somewhere in the American Midwest. They seem to feel that if we 
only push the right switch the entire area will become clones 
of Americans.
    [The prepared statement of Professor Cordesman follows:]

  Prepared Statement of Prof. Anthony H. Cordesman, Arleigh A. Burke 
   Chair for Strategy, Center for Strategic and International Studies

  PLANNING FOR A SELF-INFLICTED WOUND? U.S. POLICY TO RESHAPE A POST-
                              SADDAM IRAQ

    The hardest part of war is often the peace, and this is 
particularly likely to be the case if the U.S. goes to war with Iraq. 
It is not that the U.S. is not planning for such contingencies; it is 
the quality of such planning that is at issue. Unless it sharply 
improves, it may well become a self-inflicted wound based on a series 
of ``syndromes'' that grow out of ignorance, indifference to Iraq's 
real needs, and ethnocentricity.
    The U.S. does not have to suffer from ``Iraq War Peace Syndrome.'' 
Some good studies and planning efforts are emerging, but they are the 
exception and not the norm, in an uncoordinated and faltering effort. 
Far too often, we are rushing our planning efforts without making 
adequate efforts to make up for our lack of knowledge. As a result, 
planners both outside and inside the U.S. government may end in doing 
more harm than good, and in laying the groundwork for serious postwar 
friction and problems. In fact, a pattern of Iraq war peace syndromes 
has begun to emerge that is deeply disturbing.

1. The ``We Know What We're Doing Syndrome''
    One of the most important things we need to do is to admit our 
level of ignorance and uncertainty. Far too many ``experts'' who are 
now working on postwar planning have (a) never been in Iraq to the 
point of having practical knowledge of the country, and (b) have 
concentrated on the threat so long that they have little intelligence 
data on the workings of its government, civil society, and economy.
    More generally, the U.S. government does not have much of the data 
it needs to formulate a detailed peace plan. Looking back over the last 
10 years, we generally failed to seriously examine what was happening 
inside Iraq in social and economic terms, and to collect and honestly 
analyze much of the data on social change, the economy, and the way the 
government functioned.
    We should be actively pulling together all that exiles, friendly 
businessmen and other working in Iraq, the UN, NGOs, and others know 
about the day-to-day functioning of given national, regional, and local 
government activities in Iraq. We should be examining existing Iraqi 
structures and institutions in detail to know what needs changing and 
what we can build upon. We should be looking at the Iraqi constitution 
and legal system to see what could be a valid base for change.
    More important, we should have teams ready to survey the situation 
in each area, town, and governate as we advance. We should have teams 
ready to work with key local and then governate leaders. We should have 
teams ready to work with the ministries in Iraq's government once we 
get to Baghdad. We should admit that we really do not know what we are 
doing, and cannot know until the war unfolds. We should be flexible, 
and emphasize surveying Iraq's postwar needs in partnership with Iraqis 
in Iraq at the local, regional, and national level; making minimal 
changes in working civil structures.

2. The ``U.S. as Liberator Syndrome''
    We may or may not be perceived as liberators. We are dealing with a 
very sophisticated and long-established tyranny, and we really don't 
know how an intensely nationalistic people with deep internal divisions 
will react, and how the impact of the fighting will affect the people. 
We don't know how long any support will last by a given group or 
faction the moment we become involved in trade-offs between them.
    We may well face a much more hostile population than in 
Afghanistan. We badly need to consider the Lebanon model: Hero to enemy 
in less than a year. We also need to consider the Bosnia/Kosovo model 
where internal divisions leave no options other than stay and police or 
leave and watch civil conflict emerge.
    A little self-honesty on our past mistakes in nation building and 
occupation would help; especially when we perpetuate the myth we did so 
splendidly in Germany and Japan. Things eventually worked out in 
Germany and Japan because we enforced minimum change and took advantage 
of existing institutions. We only adopted this approach under duress, 
however, and because the Cold War forced us to reverse many of our 
initial plans and policies. Economic recovery took five years. For the 
first year, people died for lack of medical attention, starved, and 
suffered. We could get away with because most of the world was 
suffering and because of the legacy of anger towards Germany and Japan 
coming out of the war. We cannot possibly expect such tolerance today.
    Couple this to an unpredictable but inevitable level of collateral 
damage and civilian casualties, to what the word ``occupation'' means 
in the Arab world because of Israel, to the historical memory of the 
British mandate and U.S. ties to the Shah, to Shi'ite tensions over 
U.S. relations with Iran and the Axis of Evil, and to factional 
tensions in Iraq, and we are almost certain to face serious problems 
with at least some major blocs of Iraqis.
    No study or that which does not deal at length with these risks, or 
prepare for them on a contingency basis, can do more good than harm. We 
should focus on giving Iraqis what they want, and not on giving Iraqis 
what we feel they want. Our actions should be based on partnership and 
a high degree of humility, not on occupation and arrogance.

3. The ``We Lead and They Will Follow'' or ``Coalition of the Willing 
        Syndrome''
    Our coalition of the willing may well be much smaller than the 
coalition of the unwilling. We need to understand just how deeply 
hostile the Arab world is because of the Second Intifada and our ties 
to Israel. Surveys show around 80% of Arabs, and high percentages of 
other Islamic nations, see the Palestinians as the key issue in 
politics and express anger at the U.S. over ties to Israel. We also 
need to understand that in the Gulf, many Arabs also see the U.S. as 
responsible for the suffering of the Iraqi people under sanctions.
    The UN debate shows we face a largely doubtful and antiwar world. 
In practical terms, we will be subject to relentless Arab, regional, 
and global examination and criticism from D-Day on. We cannot hope to 
get an Iraqi, regional, or world mandate to act as occupiers. In fact, 
if we act in this way, we are certain to encounter massive problems.
    Any humanitarian failures at any point will come back to haunt us. 
So will any mistakes in dealing with Iraqi factions, any delays in 
transferring power, and any deals with the outside the Iraqis and Arab 
world see as being at Iraqi expense.
    We need to base our peace plans on the reality that we will be 
judged by their success for years to come, and that any failures can 
have explosive regional impacts. This time we virtually must succeed 
and we must be prepared to make the necessary commitment in spite of 
the potential cost. At the same time, we need to understand just how 
firm and enduring the linkage will be to our success in dealing with 
the Arab-Israeli conflict and the Second Intifada. We may have the 
luxury of fighting one war at a time, but we do not have the luxury of 
focusing on a single peace.

4. The ``Best Case War Syndrome''
    Far too often, we now base our postwar plans only on fighting a 
best-case war. We have no justification for such planning. We may get 
serious urban fighting. We may see the use of WMD. We may have to 
sharply escalate and inflict serious collateral damage. We may see 
factional struggles and warlords emerge, and we already are caught up 
in a messy struggle between the Kurds and exile groups like the INC.
    No plan is worth considering that does not explicitly examine what 
can go wrong in the fighting and how it will impact on the post-
fighting outcome.

5. The ``Rebuilding Effort Begins After the War Ends Syndrome''
    Our rebuilding effort in Iraq must begin on D-Day, not after the 
war. Everything we do from bombing to the first ground contact with 
Iraqis will be conducted in a media fishbowl, with the world observing 
and often searching for any fault or flaw. We cannot be perfect, but we 
can be prepared and act with the knowledge that even seemingly trivial 
actions during the war can have powerful global effect and shape 
postwar attitudes.
    We must realize that one day after our forces enter any area, the 
world will hold us to blame for every bit of Iraqi suffering that 
follows, as well as for much of Saddam's legacy of economic mistakes 
and neglect. The first minute of the war is the beginning of the peace, 
and any plan that does not explicitly recognize this is dangerous.

6. The ``Let's Ignore the Iraqi Media and Information Issue Syndrome''
    It seems incredible, but a number of studies ignore the need to 
provide detailed media coverage to the Iraqi public the moment we go to 
war, and then to immediately take control of the Iraqi media and 
Ministry of Information and change them to become legitimate sources of 
information. Even some good studies of psywar efforts to deal with the 
Iraqi military treat the problem as one of dealing with the career 
military and not the Iraqi people and the different factions within it.
    We are already engaged in a battle for hearts and minds we have 
done little to win. We will confront a desperate dictatorship in 
combat, and what we say over radio and TV, and to the Iraqi people as 
we advance, may be critical in limiting or avoiding urban warfare and 
prolonged resistance. We also have to be able to talk to the faction in 
Iraq and reassure those we plan to work with. The Ministry of 
Information, the state controlled radio and TV, and the press need to 
be reshaped the moment we have access to them. The Ministry of 
Information, in particular, is one of the worst single instruments of 
repression in Iraq and needs to be abolished or restructured the moment 
we can do so.

7. The ``Overthrow the Regime is Enough of a U.S. Policy Goal 
        Syndrome''
    Our failure to clearly define our postwar policy goals for Iraq is 
another area where we need early action. In fact, the Bush 
Administration has already faltered badly. There is serious confusion 
and hostility in the Arab world and much of the rest of the world over 
our objectives in going to war.
    We face an Arab world where many see us as going to war to seize 
Iraq's oil, barter deals with the Russians and French, create a new 
military base to dominate the region, and/or serve Israel's interest. 
Our lack of clear policy statements has encouraged virtually every 
negative conspiracy theory possible.
    In short, our ultimate intentions in Iraq are already a major issue 
that vague words cannot deal with. There is a critical need to clarify 
our intentions in enough detail to show we really will act in the 
interest of the Iraqi people, to refute the major conspiracy theories 
that have already developed, and prove we are not a ``neo-imperialist'' 
or ``occupier.'' In fact, we need to act as soon as possible.

8. The ``UN and the World Doesn't Matter in Shaping the Peace 
        Syndrome''
    We face a massive legal problem that many U.S. studies current 
ignore. A range of UN resolutions already govern what can and should be 
done in Iraq, of which ``oil for food'' is only the most obvious. In 
the real world, we have only the following options: (a) reject the 
primacy of the UN and the UNSCR's dealing with oil for food and calling 
for democracy and human rights in Iraq and create our own plans and 
structure; (b) rely on the UN to do what it is clearly prepared to do 
and act for us; and (c) rely on an unpredictable mix of U.S., UN, and 
NGO institutions we will have to build when and if war comes.
    All of these options are bad, but (c) is best and we need to face 
this fact. We also need to face the fact that we cannot pass our 
problems on to a non-existent international community that is willing 
to sweep up after our military parade. We may well get UN and 
international cooperation but only if we lead and contribute actively. 
We have to stay as long as it takes, or at least until we can hand a 
mission over to the Iraqis.

9. The ``Democracy Solves Everything Syndrome''
    Broad generalizations about democracy suddenly solving Iraq's 
problems are mindlessly stupid. Iraq will benefit from added pluralism 
of the kind already called for in UN resolutions. Moreover, Iraq 
already has provision for such steps in its existing and draft 
constitutions. However, the practice in Iraq has been strong men and 
dictators for nearly half a century. Iraq has no viable political 
parties, no exile or internal leaders with proven popular legitimacy, 
and deep ethnic, religious, and tribal/clan divisions.
    We also must deal with the different goals and priorities of Iraq's 
neighbors and the UN. Turkey and Iran will be real constraints on how a 
future government deals with the Kurds and Shi'ites. This means we 
already have ``non-democratic'' priorities. We virtually must enforce 
territorial integrity, and limit Kurdish autonomy. There will be no 
valid self-determination or democratic solutions to these issues.
    Iraq is not going to become a model government or democracy for 
years. It faces too many problems in internal power sharing, dealing 
with regional issues, and developing political parties that can look 
beyond selfish interests. It faces too many other challenges in terms 
of developing a rule of law, protecting human rights, and dealing with 
urgent economic and security issues.
    If we try to impose too much of our political system, we will also 
face growing problems with both Iraqis and the Arab world the moment we 
try to tell Iraqis how they should govern rather than help them find 
better solutions. Rather than catalyze other Arab nations to become 
democratic, we will catalyze Pan-Arab hostility and give the Arab world 
the impression that we have joined Israel as ``occupiers.''

10. The ``Limited Presence and Peacemaking Syndrome''
    There are U.S. war plans that call for an early U.S. military 
presence in Kirkuk to ensure that the Kurds do not attempt to seize it 
and to deter any Turkish movements. It is less clear that the U.S. has 
clearly tailored plans to occupy Shi'ite areas in ways that would block 
Iranian adventures and halt uprisings or efforts at control by Shi'ite 
factions. There also are some who strongly oppose executing such 
efforts because of the risk or cost, and who want to avoid a major U.S. 
military peacekeeping role regardless of the risks.
    Some form of clear peacemaking/peacekeeping strategy is vital and 
past wars provide the lesson that the earlier the U.S. forces are 
present, the easier the task and the smaller the presence required. In 
the case of Iraq, this is needed to prevent civil war, halt warlordism, 
and provide the security needed to rebuild the nation. If it is not 
done, the alternatives will either be to come in later with much larger 
resources, or fail in key aspects of shaping the peace.
    The U.S. must be prepared from the start to deal with the broader 
territorial issues--authority over the city of Kirkuk and its environs, 
shaping their ethnic mix, and control of its key nodes of oil 
production and distribution. The U.S. must also be prepared to help the 
Iraqis deal with the constitutional issue--what mix between devolution 
and centralization will be acceptable to the Arabs and the Kurds alike? 
(The last time, the issue went to arbitration under the League of 
Nations mandate, took years and years to resolve, and eventually had to 
be enforced by the RAF using poison gas. Scarcely the best precedent!)

11. The ``Zero-Based Approach to Restructuring Iraq's Government 
        Syndrome''
    Iraq cannot be treated as an intellectual playground for political 
scientists or ideologues, and must not be treated as if its people were 
a collection of white rats that could be pushed through a democratic 
maze by a bunch of benevolent U.S. soldiers and NGOs. Iraq is a country 
of 24 million people with a history of more than 80 years. It has a 
constitution and a draft constitution. It has an existing National 
Assembly structure, relatively modern legal system, and a history of 
past autonomy agreements with the Kurds.
    Iraq has a strong central structure based on a highly urbanized 
society. It is critically dependent on food imports and allocating the 
revenue from oil exports. It has some 23 existing ministries. Some are 
now tools of repression and must be dismantled or totally rebuilt, but 
most are vital to running the country. Many of its urban centers and 
complexes and governates are tailored to local needs. A standardized, 
cookie cutter approach to local or regional government would fail 
dismally anywhere in the world. It is a recipe for disaster in Iraq.
    There is no Iraqi with real-world experience in governing Iraq in 
countless largely technical areas vital to the needs of some 24 million 
people other than the existing structure of government. The courts, the 
legal system, the lawyers have many flaws, but they are also Iraqi. The 
rule of law and human rights, and security for the individual, are 
actually far more important than democracy and they too must be built 
on the existing Iraqi structure of government.
    Yes, we need to work with Iraqis at every level to clean up the 
existing system. We have to destroy the one existing political party, 
the Baath, and ``de-Saddamize'' the existing government while 
establishing a modern rule of law and reforming the economy. We need to 
give exiles a role, and not simply exile groups like the INC that have 
more strength inside the beltway in Washington than anywhere in the 
borders of Iraq. But, nothing can be zero-based.

12. The ``Let's All Form Another Giant Discussion Group Syndrome''
    Iraq's mix of internal and external tensions make any slow, bottom-
up, or ``discussion group''-oriented approach to restructuring power in 
Iraq a near certain recipe for failure. We don't have time for time-
consuming efforts to create consensus. Cosmetic assemblies and advisory 
bodies are certain to produce a major backlash.
    We may well have to push Iraqis into some new form of power 
structure within weeks of the end of the fighting. We certainly have no 
more than months. We don't have time for long dialogue, although that 
can be used to adjust the initial arrangements.
    We need to take a hard look at Iraq's existing constitution and 
draft constitution, and the idea of a constitutional convention and 
referendum creating a follow-on system has worked elsewhere. This may 
also allow us to deal with the realities of power struggles by changing 
Iraq's current constitution to deal with a tailored form of republic or 
federalism plus some form of Kurdish-minority rights.
    But, we don't have months in which to get started or more than a 
year in which to get a new system working. Any peace plan that does not 
include clear and specific goals from the start, and takes more than 
six months to get all of the key power sharing arrangements in place, 
is a failure from the start.
    We must find ways to produce rapid power sharing and to reallocate 
oil wealth and do in ways that emphasize political stability rather 
than democracy per se. This is not only a Kurdish issue, it is a who 
will lead the Shi'ites issue, and almost any postwar arrangement will 
inevitably penalize today's ruling Sunni elite.

13. The ``Let's All Ignore the State's Present Role in the Economy 
        Syndrome''
    More is also involved than governance and human rights. The 
National Iraqi Oil Company is only the most critical of the many state 
entities that have to be used to shape and develop the economy. We need 
to work with Iraqi immediately to clean up the NIOC and other economic 
institutions that affect development, free up the private sector as 
much as possible, create an honest Iraqi-based structure for 
international investment, and put Iraq back on the track to development 
as soon as possible.
    There are very simple issues that must be dealt with immediately, 
and ideally before the fighting even begins. These include basics like 
the currency. What will the money be, what will old accounts be worth? 
How will state salaries and pensions be handled in a de facto command 
economy where so many depend on the state for income? How will oil for 
food be handled or replaced at the local level? The functioning of the 
banking system is equally critical, and is the ability to transfer 
money in from the outside. Iraq's economy is far too marginal to wait 
on economic planning and reform. The U.S. must be ready to provide 
economic reassurance and security from the start.
    The economic reform issue is as important as the governance issue. 
There must be explicit plans to deal with state industry, with a key 
focus on energy. The issues of freeing up the private sector, 
encouraging honest foreign investment, dealing with agricultural 
reform, and creating a body of commercial law are critical.

14. The ``Dismantle the Army and Police Force Syndrome''
    The Revolutionary Guards, the secret police, and other Saddam 
loyalists are contemptible, but the idea we disband the entire army and 
security forces and start over with training and ground up new groups 
is impractical and dangerous.
    Many elements of the regular army are nationalist, not pro-Saddam. 
We don't want 400,000 nationalists in the streets and hostile. We don't 
want to leave a weak army in service and an angry army in the streets. 
Germany after World War I showed the impact that can have. By all means 
clean the army up, clean up the officer corps, provide political 
training, etc., but leave the professional and competent elements in 
tact. Leave Iraq with some dignity and co-opt the army rather than 
destroy it.
    Leaving the police in place, after the same purging, is even more 
important. The first priorities are food and security and then jobs and 
security. Trying to bring in inexperience mixes of outsiders, training 
a new police force from the ground up, and recreate a police-legal 
system interface from the ground up is almost mission impossible in 
terms of manpower, cost, and timeliness. Cleaning up the existing force 
is not.

15. The ``Debt and Reparations, Weimar Republic and Let's Make a Deal 
        Syndrome''
    We need to be extremely careful about even a hint that we are 
bartering away Iraq's post-Saddam future to get political support, and 
saddling a new regime with hundred of billions of dollars in debt, 
reparations, and contingency contracts will cripple it, just as we once 
crippled the Weimar Republic.
    We should decide on some policy calling for debt and reparations 
forgiveness, and the voiding of contingency contracts by the new 
regime.

16. The ``Oil Income Floats All Boats Syndrome''
    Time for a reality check. The DOE estimates that Iraqi oil export 
revenues were all of $14.1 billion in 2001 (including smuggling), out 
of total exports of all of $15.8 billion and an economy worth $28.2 
billion in market terms. The GDP is less than one-third of what it was 
in 1989, and there are two decades of war and sanctions to make up for.
    Oil revenues cannot possibly solve all of Iraq's development 
problems. Real oil wealth per capita will be under 1/10th of its 1980 
peak given the rise in population and the drop in oil prices. Oil can 
still pay for a lot, but not for both rebuilding and development. 
Consider the following points about Iraq:

  <bullet> Steady decline in relative wealth since 1982, not 1991; 70% 
        of cut in GDP per capita before Gulf War.

  <bullet> Massive population growth: 9.1 million in 1970, 22.7 million 
        in 2000 and 36.9 million in 2020. 40% under 15. Unemployment in 
        excess of 25%.

  <bullet> No longer has oil wealth in relative terms. A little over 
        $700 per capita today versus over $6,000 in 1980. See much 
        worse in constant dollars. Around $23,820 for Saudi in 1980 
        versus $2,563 in 2001.

  <bullet> Dependent on oil for food and ``black'' sector to operate. 
        Heavily dependent on food imports since late 1970s. Some 
        estimate a 70% dependence on food imports once the economy 
        recovers.

  <bullet> Medical and educational crisis.

  <bullet> Many artifacts of a command economy that has been centered 
        around a dictatorship for three decades. Some solid economic 
        institutions but no real market system in terms of 
        distribution, banking, uniform commercial code, insurance, 
        interest.

  <bullet> Industrial development is weak and has a poor history.

  <bullet> Oil revenue and development issue is critical, as is sharing 
        revenue, but NIOC has its thugs and killers. Saybolt indicates 
        waterflooding and overpumping; 24 of 73 fields working, and 20-
        40% of wells at risk.

    Yes, money will be a serious problem, particularly if debt and 
reparations are not forgiven.

17. The ``Disarmament is Quick and Lasting Syndrome''
    We need a clear policy towards Iraq's military industry and dual 
use facilities from the start, and we need to understand that a postwar 
Iraq will exist in a still threatening and proliferating region. 
Moreover, whatever we get rid of, the human talent and major dual use 
facilities will remain. Getting rid of nukes also can just push Iraq 
towards a reliance on biological warfare.
    We need both a short term and long term plan to disarm Iraq. The 
long term plan must include some way to use a combination of UNSCR and 
national action to limit any risk of future proliferation and possibly 
some form of U.S. security guarantees to limit the incentive to future 
regimes to proliferate.

18. The ``No Exit Strategy Syndrome''
    Every past peacemaking effort has shown that an explicit exit 
strategy is vital. The key in this case is an entry strategy that makes 
a real peace possible, setting modest and achievable objectives, 
treating the Iraqis as partners, and leaving when they either want us 
to leave or are ready to have us leave. It is to avoid any chance of 
civil war, clearly act in Iraq's benefit, and plan to leave early 
rather than late.

Curing the ``Iraq War Peace Syndrome(s)''
    The first step in curing a complex disease like the Iraq War Peace 
Syndrome(s) is to recognize the nature of the disease. As the previous 
list shows, this often suggests the cure. The fact remains, however, 
that we face at least a decade of further instability in the Gulf 
Region, whether or not we go to war with Iraq, and no matter how well 
the war goes. Getting rid of Saddam and Iraq's weapons of mass 
destruction is an important set of goals if the war goes well. No war, 
however, can do more than provide a basis for making Iraq somewhat 
better and then giving the Iraqis control over their own destiny. No 
outcome of the war can reshape the Gulf or the Middle East.
    The idea of instant democratization coming out of the war and 
spreading throughout the region denies the laws of cause and effect and 
is ridiculous. So is the idea we know enough about nation building to 
create an Iraqi United States.
    The best we can do is minimize our mistakes and the effect of the 
law of unintended consequences. To do this requires both realism and 
commitment. If we rely on miracles and good intentions, or act as 
occupiers rather than partners, we are almost certain to be far more 
unhappy on the tenth anniversary of the next war as we were on the 
tenth anniversary of the Gulf War.

    The Chairman. Thank you very much.
    I will ignore momentarily the sub rosa comment of my 
colleague. Midwest, we will leave it there.
    Senator Biden. I said it is in Indiana.
    Mr. Cordesman. As a Chicagoan, Senator, I plead guilty.
    The Chairman. I thank you.
    Let me begin another 5-minute round of questioning with our 
colleagues. I am struck by the difference in the testimony of 
the two panels. Let me just say, without being defensive with 
regard to the Under Secretaries of State and Defense, they come 
here obviously at our request because we think this is very 
important. Senator Biden and I and other Senators who are here 
have felt it was important for a long time. We have really 
pressed the issue in public comments that we needed to have 
outlines or some ideas of the plans, which we felt needed to be 
extensive, describing who was going to be doing it or who would 
be doing it, who we would work with.
    In fairness, the administration has responded with these 
two excellent public servants. But after they have completed 
their testimony and been questioned by 13 Senators, we hear 
from the three of you. Now it seems to me we are getting 
somewhere. I would say that, starting with the ten points that 
you made, General Zinni, without necessarily agreeing 
wholeheartedly, and you would rate them in some way, they are 
important considerations.
    Clearly, we do not have many answers to those ten points, 
which are raised not really as questions but as considerations 
if you have success. I hope that I am in error with regard to 
that, but the thought that we have set up an office in the 
Department of Defense just 3 weeks ago pulling together 
interdepartmental people is clearly not on the same pace that 
all of you have pointed out with regard to our military 
movements into the area. To the extent that report is any 
correlation at all, it becomes apparent that whatever is 
occurring in terms of the planning for what happens after 
military action, this is way, way behind the curve.
    As a matter of fact, many of the questions that you have 
asked, the three of you, are still not being asked publicly or 
answered publicly. So one of the values of the hearing was to 
introduce you to our first panel, or vice versa, so that 
somewhere in the United States there is some collective wisdom 
and some sense of history, which some of you have had.
    I appreciate especially, General Zinni, you mentioned you 
have been there before. You thought through these things in 
1998. This is not the first time our country or those 
responsible for CENTCOM have been there. You were. So there is 
real value in having said that and in having others who are 
coming up there now at least consult with you, taking your list 
and working it through as we are attempting to do in our 
amateur fashion as legislators, as an oversight committee.
    So my first hope is that we can help in the coordination in 
our own government by indicating to the administration, as I do 
publicly, that what we have heard is not good enough. We are 
simply way, way behind and this will require accelerated 
intellectual work and planning.
    Now, even after we have done that, we have some of the 
historical questions Professor Cordesman raises with regard to 
all the countries around the region. What is to happen to those 
countries? How is Iraq itself to be defended? We even have the 
audacious suggestion, finally, that if we are unsuccessful with 
regard to weapons of mass destruction in the surrounding 
territory, what do we do about poor Iraq left behind as a 
country that now we feel exemplifies democracy and freedom, but 
is not really up to par?
    Other countries have solved that problem in the past in a 
way. We have had a Japanese-American alliance in the Far East 
for a long time. And even as this committee last week examined 
North Korea, one of the questions comes up: What if North Korea 
has weapons and continues to build a stream of them? Let us say 
they do not plan to use them, but that is small consolation to 
the Japanese or even the South Koreans or others in the area, 
in the same way as terminating Iraq's weapons of mass 
destruction will be.
    These are very important questions. As you pointed out, 
there are tribes and dissident sectors in the politics of Iraq 
now that we really have not gotten to because none of us have 
been that comprehensive in this committee--maybe some of you 
have in your scholarship--as to know how many things an 
administrator will have to do.
    Finally, the thought that General Franks cannot do just 
Iraq; General Franks, CENTCOM, whoever commands that, has a lot 
of responsibilities. So the question is, Who is in charge? Who 
is going to be designated in a command chain from the President 
to the Secretary of Defense to General Franks to there? What 
will be the chain of command even in our own government? Is 
this something where the President nominates, or makes several 
nominations, Assistant Secretaries or whoever in this immediate 
period, to handle all these civil functions? This includes law 
and order as fundamental, the boundary integrity, plus all of 
the problems of adjudication and a legal system that does not 
exist--and yet must, because of personal security as well as 
country security.
    So I have taken my 5 minutes of questions really simply to 
make editorial comments. But I am excited about the hearing, 
about the process at least that still exists in the Congress of 
raising these questions and having able Americans who are 
offering us some very substantial answers. You have stimulated 
this committee and I hope the American people who listen to 
this hearing.
    I turn now to my partner Joe Biden.
    Senator Biden. Thank you very much. As they say in this 
business up here, I would like to associate myself with the 
remarks of the chairman.
    Fellows, I find myself perplexed. Over the last year 
roughly, almost year and a half, the President has been 
generous with his time. He has been patient with me and I 
suspect, I know, with others. He has had us down, he has had me 
down alone, he has had the Senator down alone, he has had us 
down together. And he genuinely is exploring. I believe and I 
have been saying publicly, not making me the most popular 
person in the Democratic Caucus, that I believe he has an open 
mind. I believe he is trying to find the right answers. I 
believe his instincts are basically good. I do not mean 
``basically.'' His instincts are good.
    He is obviously a good person. I mean his instincts on what 
to do in these very difficult decisions he has to make.
    The thrust of everything you three have said, with less 
articulation and less of a base of knowledge, when the 
President has asked me I have said. And I am sure I am not the 
only one who has sat with him in the Oval Office, with Dr. 
Rice, with the Vice President, and gone into these things in 
some detail.
    I know, I have witnessed it with Senator Lugar, I know I am 
not the only one that has raised these issues. And I walk away 
wondering, not that he listened, but this is obviously a group 
of very bright women and men. Secretary Rumsfeld is an 
incredibly bright, erudite fellow, and he really is. I am not 
being solicitous. The Vice President is a very bright, hard-
nosed guy. Dr. Rice, the Secretary of State, the two people we 
heard here today, the No. 2 people--the No. 3 and four, I 
should say.
    And I walk away and I wonder, now why has none of this been 
done?
    Colonel Feil, in any other administration you were in, if 
you were in the administration, in the Defense Department, I 
know every commander, general, has to know that these are the 
questions that have to be answered, whether the same 10, there 
may be 2, there may be 14. But there is clearly--this is not 
rocket science, knowing what the problem is.
    Why has it not been done? I think it is because--and I 
would like you to, if you feel free, I mean if you wish to 
comment, fine; if you do not, I understand. One of you said--I 
think it was you, general--is it transition or transformation? 
What is the goal? I think there is a fundamental debate that 
still exists in this administration, whether it is transition 
or it is transformation we are committing to.
    Because if that debate is settled, then we clearly have, 
with all the bright people in this administration a much 
clearer, to use the phrase used by our newest member on this 
committee, a road map. You know, we would know what road we 
were going down. Because these questions are so obvious, and 
the fact that they have not been addressed contemporaneously 
with the military planning--general, I was with your old 
military comrades, as I was--as Senator Hagel and I were. He is 
a military man, Senator Hagel. We were both incredibly 
impressed, incredibly impressed, with the detail of the 
planning and the various contingencies about how to conduct 
this war.
    Now, we are smart enough to do that. The idea, professor, 
we have not addressed these other things is beyond my 
comprehension. And the only answer I can come up with is not 
that there are not people who know what they are doing. They 
are people who have not decided on transition or 
transformation. My sneaking suspicion is Cheney, Rumsfeld, and 
company, it is transition. State and the President's occasional 
comments talk transformation.
    I will conclude by saying the only reason why, were the 
President to ask me, I am inclined to give, quote, ``more 
time'' to our U.N. interlocutors has nothing to do with 
inspections, has nothing to do whether or not we can put 50 
times as many inspectors in, whether they are going to find 
these weapons of mass destruction.
    It has to do with we ain't ready yet. We have all the 
forces there that we need. So I am told, general. You would 
know better than any of us. We are fully capable of executing 
the first phase of this operation. How much or how little 
bloodshed, how much damage we politically as well as militarily 
have to take is a question. But the reason why, if I were the 
President, I would be ``rope-a-doping'' a little bit here and 
slowing up my deployment and making sure that I talked more 
with the French about whether there is more inspectors or 
whether there is not, knowing it is malarkey, is that every one 
of you said directly or implied if this is not 
contemporaneously undertaken, if the moment the gun goes off, 
general, and the first missile, plane, troop flies we do not 
know darn well what those things, colonel, you talked about 
and, professor, you talked about, which I will not go into 
detail because my time is up, unless they are decided upon at 
the front end it seems to me this is a prescription for losing, 
losing overall, having our interests overall a year from now 
being more in jeopardy in the world and the region than they 
are now, even though he may be gone.
    Because I always ask the rhetorical question when the 
President says--and God love him, he makes these speeches, and 
some of them are really good and some of them I walk away 
scratching my head--when he makes these speeches and others do 
as well that somehow this is going to answer or make us any 
safer, taking down Saddam in the near term, from al-Qaeda, from 
terrorist attacks.
    If the Lord Almighty came and sat right down where the 
photographers used to sit and said, look, folks, guarantee you 
this will all be done, done quickly and done fine, are we not 
going to still be on orange alert in this country? And by the 
way, if the rationale as Mr. Feith offered, in part in fairness 
to him, was, look, this guy you have to understand has been 
helping these Palestinians, the road to peace in terms of the--
the extreme Palestinians--the road to peace rests in getting 
rid of this guy, let me tell you: the Iranians make him look 
like an amateur, the Syrians make him look like a bumbler.
    What trouble he has caused with Israel in the Middle East 
is infinitesimal in my view compared--and he does cause 
trouble--is infinitesimal compared to the trouble that the 
Iranians, the Syrians, and others in the region have caused. So 
is the prescription meaning, once we do that, now we have got 
to do Syria and Iran?
    I just think that we are not ready right now, we are not 
ready right now. And it worries the devil out of me, unless, 
unless, the administration knows something none of you know, I 
can tell by your testimony because I have heard you guys, and 
something we do not know, that they do have a plan, they are 
ready to go. I did not get any real sense of--I did not get any 
real warm feeling from the two who testified before, who are 
fine men on limited, on short leashes, who are trying to 
declassify.
    So I cannot thank you enough for your testimony. Hopefully 
it will be sober enough to wake some people up and figure out 
we have got to get these decisions made contemporaneous, 
contemporaneous with the execution of force.
    I used up my more than 5 minutes, again not with a 
question.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and I too add my 
thanks to the three of you.
    I think both the chairman and our former chairman spoke 
directly to the value of having the three of you up here and 
the presentations that you have made. I wish all senior members 
of this administration could have, and maybe they did, listen 
to what you had to say, and I know we will have a record of 
your testimony.
    But everything that Senators Lugar and Biden said in regard 
to your testimony I agree with. It is not and never has been a 
question of whether Saddam Hussein can be rehabilitated. He is 
a threat. He is a problem. But it is more to the point of each 
of your testimony, not only as to, as you said, General Zinni, 
the end State--and Senator Biden spoke to that just a few 
minutes ago--what it is that we wish to accomplish, how do we 
wish to accomplish it, with whom, all the questions that you 
have laid out.
    And I would make one additional comment before I ask each 
of you to respond to a question. As I listened to the three of 
you and Senators Biden and Lugar, I was struck once again with, 
as we went around the horseshoe here the last 3 hours with 13 
Senators asking these two very dedicated, bright public 
servants to explain the administration's policy, I was struck 
with how many times when the question was asked or references 
should have been used to what is the purpose, what is the point 
of attacking Iraq or replacing Saddam Hussein, very few times 
was there any reference to force Saddam Hussein to comply with 
17 U.N. resolutions that he has been guilty of violating since 
1991.
    On the one hand that is a stated objective publicly by the 
administration as to what we are about here. But as we went 
around the horseshoe we had variations as to what the point is. 
As Senator Biden pointed out, Secretary Feith talked about 
essentially some believe that the Middle East peace process is 
through Baghdad, and there were other variations of this. I do 
not happen to believe that, but nonetheless what it says and 
what it reflects very clearly on is what Professor Cordesman 
talked about as well, public diplomacy, explaining our purpose, 
explaining our intent, explaining our use of power.
    We have not only not answered the tough questions that you 
three have put forward, but I think we are still rather murky 
in explaining to America and the world what we are about to do 
and why it is important.
    Now, you have all laid out the questions, the concerns. I 
would ask the three of you to give this committee your thoughts 
on how we should proceed from here, assuming that the three of 
you agree that Saddam is in violation of 17 U.N. resolutions 
and assuming the three of you agree that he needs to be dealt 
with some way. Maybe that is a leap of assumptions here, but I 
think I understand where the three of you are.
    But it would be helpful if the three of you would give us 
your process, how you think we should move forward to deal with 
Saddam Hussein. Thank you.
    Senator Biden. Good question.
    General Zinni. Well, Senator Hagel, I think obviously we 
are going down this path. The first thing I would say, which 
has been said before, we need the international community and 
preferably we need to work under international agencies and 
institutions in much of what is described here, because the 
military piece and the security piece is not going to be the 
important part of all this. It is necessary, but not the most 
important.
    What would worry me is, I can look at Tommy Franks and his 
mustering of all the soldiers, sailors, airmen, marines, and I 
think everybody, including the two Senators who went out there, 
have complete confidence in that aspect of this. I would hope 
you did. But where is the counterpart economic, political, 
humanitarian, and recovery?
    If it is just a small group in the Pentagon, by the way led 
by a very able individual in Jay Garner--I have the greatest 
respect for him. We were together in northern Iraq. But a 
planning cell, an interagency planning cell at the Pentagon--
now, my career is deficient in that I never served a tour 
there, but it does not do anything for me on the ground.
    Where is the CENTCOM counterpart to a political 
organization that is going to come in? I think the two 
Secretaries this morning talked about political committees, 
judicial committees. They are necessary. In the early days of 
Somalia with Ambassador Bob Oakley and others when we had a 
degree of success, these had to be in place. But you need 
manpower and organization and structure and authority and 
resources to make this work.
    If you are going to go in and assume responsibilities--I 
will just take a small thing, a small item, but it may point 
out how significant something could be. This morning these two 
Secretaries mentioned that 60 percent of the Iraqi people eat 
off the Oil for Food Program. There are 40,000 feeding stations 
there. Now, option one, best case, all those--and Saddam's 
government runs these feeding stations--they stay in place, 
nothing happens to them, the warehouses are sound and they 
continue to pump food. Good news, path one.
    Path two, no, that half of them run away, some of the 
warehouses are destroyed. And then you could eventually get 
yourself to path three, 40,000 feeding stations are abandoned, 
destroyed, disrupted, and you have got to create 40,000 feeding 
stations from nothing. Who does that?
    We talked about NGOs. These NGOs are a disparate collection 
of people that operate on their own with different charters, 
different motivations. Who pulls them together? Is there a 
humanitarian operations center under somebody from the U.N. or 
somewhere that is going to coordinate their efforts? Are we 
going to find them all in the Shia area and none in the Sunni 
area? And who fills in the blanks?
    We need structure, we need organization, we need lines of 
authority. The tasks are out there. All the books that we can 
pick up, the work that people like Tony Cordesman have done, 
the CFR, have identified what has to be done. I do not doubt 
that the problem has been scoped. There is a bracket. There is 
the 2-year plan, which I doubt seriously, and there is the 10-
year plan, which I will tell you is more realistic.
    But the tasks to be performed there, and the it-depends 
answer is whether the 40,000 feeding stations are up and 
running or they are totally destroyed or something in between, 
that can all be mapped out, to use the phrase that Senator 
Coleman mentioned. But the problem is who is going to do it, 
where are they? You know, if you have hundreds of thousands of 
troops on the ground formed up into divisions and wings and 
task forces at sea, where is the counterpart on these other 
sides? It is not going to be a handful of people that drive out 
of the Pentagon, catch a plane, and fly in after the military 
piece to try to pull this together.
    I mean, that is what I think the next step is.
    Senator Hagel. Thank you.
    May I ask the other two to respond as well, Mr. Chairman, 
to that, to my question, if I could?
    The Chairman. Of course, briefly if you can.
    Colonel Feil. Briefly let me take a slightly different tack 
from General Zinni and talk about some operational things. I 
think that the previous panel got into the area where 
everything is all connected and so therefore when one thing is 
solved and then everything else will tumble and we will be able 
to connect everything else. I think there is a different way to 
separate some of these issues that flow from a central decision 
about what the goal is, that could be separated into things 
that are unknown and we are waiting for a decision and those 
things we have to set aside, things that we know we are going 
to have to do, and those things we can get on with right now.
    I would harken back to the first panel: the issue of 
justice. They have a committee that has rewritten or is in the 
business of rewriting a justice code in Arabic, 600 pages. You 
can run the numbers that are based on previous historical 
experience about the population, the size of the police force, 
and how many police monitors you need. If they have a code, we 
should be out working with the international community right 
now to recruit, organize and train the police monitors that 
will help provide the local security and the community security 
that will alleviate the military of the burden of having to 
escort school children, et cetera, et cetera, et cetera.
    Those sorts of things are more in the science of this 
business than the art of it. Those things I think, many of 
those things can be approached now. The other ones may have to 
be put in a box that flows from having a resolution of the 
central decision.
    Mr. Cordesman. Let me say very briefly, I do not believe we 
are going to transform Iraq. We may start that process. There 
is no chance in hell that we will finish it. It takes too long 
to change a society and a country of 22 million people. What 
you can do is give them the opportunity to sustain change.
    I think some of these issues were touched on this morning, 
but the first thing you have to do if you want to have nation-
building is to provide security throughout the country, and 
that means going into the major cities, to the various regions, 
with some kind of teams which will maintain order right away. 
We saw in Afghanistan what happens when you do not do that, and 
we will probably pay for it with failure in our effort to 
create a stable Afghanistan.
    You need food and you need to deal with currency. You need 
to provide immediate crude economic stability, and restoring 
the monetary and banking system rank with food, water, and 
security.
    There are 23 ministries, and 6 are problem ministries that 
will need immediate reform. There are some 18 provinces, and 
about 30 major regional areas. I hope we have civil and 
military teams to go into each one very, very quickly. The 
minute we do, we are going to have to make those teams work 
with Iraq, who govern while we screen. You do not screen first, 
reorganize, and change.
    I cannot think of anything more disastrous than a bunch of 
American political scientists wandering into a different 
country, who do not speak the language except in somebody 
else's theories, and attempting basically to change Iraq. It is 
a little like trying to sculpture an iceberg with the prow of 
the Titanic. It just is not going to work.
    So the question is how do you get as many Iraqis helping as 
quickly as possible. Whether it is an assembly or a 
constitutional convention, we need to have a forum to allow the 
Iraqis to work out how they can create a Federal system for 
power-sharing, dealing with problems like revenues, and getting 
to be more pluralistic, a republic.
    I always hate the misuse of the word ``democracy.'' 
Gentlemen, we do not live in a ``democracy.'' None of our 
Founding Fathers would have made that mistake, and the first 
ten amendments to the Constitution of the United States are so 
fundamentally anti-democratic as to oppose the principle in 
every way. We have a sharing of power, responsibility, 
political parties, checks and balances, not a democracy. What 
we do in Iraq has to be to create that kind of system on their 
terms, not a democracy, which has never been a successful form 
of government anywhere in the world.
    There are issues like debt and reparations forgiveness. We 
cannot burden this new Iraqi Government with what is in excess 
of several hundred billion dollars worth of current and 
potential obligations. Again, remember the Weimar Republic. To 
have any money to deal with social needs and change, that must 
be one of our highest priorities and to have that forgiven.
    Finally, if the Iraqi's are to have any cash-flow, we have 
to go in and deal with the oil fields, oil revenues, and oil 
exports immediately. The lowest figure I have seen to fix the 
oil fields is $7 billion. The Iraqis, incidentally, have talked 
$36 billion for 3.5 of sustained million barrels per day.
    Senator Biden, let me just make a last point. Until we go 
in this country and survey what are actually the problems 
there, we will not really know what we are doing. Nobody in 
Iraq knows. Any plan will be the first casualty of engagement 
with reality.
    It is important to have people who can go in and deal with 
that flexibility. Let us remember there have been no Americans 
who have been in Iraq in 12 years. There are very few who ever 
were in Iraq.
    There are no NGOs which have really worked with this scale 
of problem and most of them are tied up in other parts of the 
world and their issue and focus is humanitarian. There is 
nothing in the United Nations structure which says we can make 
this job ``international.'' Oil for Food really does not run 
anything. The allocation is done by computer by the Iraqis, and 
that is the only substantive part of the U.N. that prepares us.
    So either we do the job, and assume the responsibility for 
it with limited international aid, or it simply does not get 
done.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. I know the hour is 
ticking on.
    I think Professor Cordesman said the issue here is the 
practical and, to use a cliche, you have to do a cost-benefit 
analysis of where we are going. It seems to me that, yes, 
Saddam Hussein is a murderous tyrant, but we have those around 
the world, Charles Taylor in Liberia, but the difference you 
might say is that Saddam Hussein is a threat to us. And I for 
one have not been convinced of that and therefore have 
questions about the direction we are going in.
    I would like to hear you comment on a cost-benefit analysis 
considering everything we have heard here this morning. Is 
Saddam Hussein a threat to us?
    Mr. Cordesman. Let me, if I may, say I believe that he is. 
I found--or I have watched Iraq--I first was there in 1973--
change from a country with immense potential to one which under 
Saddam Hussein fought a really bloody, murderous war with the 
Kurds after the Algiers Accords in 1975. It was one of the most 
unpleasantly ruthless campaigns imaginable.
    He purged the country in 1979----
    Senator Chafee. I know the time is ticking down. To us, to 
Americans?
    Mr. Cordesman. Ultimately, there are 60 percent of the 
world's oil reserves in this area. You have a revenge-oriented 
dictator who will not stop proliferating. The most you will 
ever get out of U.N. inspection, frankly, is a delay or a pause 
before this man reasserts himself and tries to take revenge.
    Senator Chafee. Thank you, professor.
    General Zinni. Senator, I do not believe he is an imminent 
threat to us. I think he is a threat. He threatens to 
destabilize the region, left unchecked. But he is very well 
checked. He could develop the kinds of threats that could 
directly affect us.
    My problem is not in dealing with him militarily. My 
problem is in timing. Everything we are talking about here--the 
use of the military, the cost and the resources, the potential 
destabilization of the region, distraction from other 
priorities--this is in my view the worst time to take this on 
and I do not feel it needs to be done now. I do feel he needs 
to be dealt with, though.
    Senator Chafee. Thank you, general.
    Colonel Feil. Sir, I would agree more with Professor 
Cordesman. I think in the medium term, I think he is a threat. 
I think that, to General Zinni's point and back to the planning 
issue, my discussions with NGOs and government agencies, the 
lack of planning for Iraq has caused some of the problems that 
we have got in Afghanistan, simply because organizations behave 
organizationally. They withhold resources until they know what 
the downstream requirements are. And Afghanistan just continues 
to trundle along. With an answer to the question that would 
apply resources to Iraq, they would have a better idea about 
what they could devote to Afghanistan.
    But I think that Saddam is a medium-term threat.
    Senator Chafee. Thank you, colonel.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, because of the lateness of 
the hour I will just ask quickly. I would like to just followup 
what General Zinni had said and with his stature as being in 
the middle of the Middle East peace negotiations. So is this a 
fair characterization of your opinion: Saddam Hussein is a 
problem, he has got to be dealt with, but one of the aspects 
right now of your concern in doing it now is the spillover into 
the volatility of the Middle East?
    General Zinni. Yes, sir, one of them. There are many 
others.
    Senator Nelson. Do we expect that Iran in a post-Saddam 
Hussein Iraq would try to exert influence through the Shi'ite 
population?
    General Zinni. Yes, I believe Iran is going to see itself 
surrounded. We have relationships in the Caspian military to 
military. We have troops in Afghanistan. We are creating--we 
have naval forces in the gulf and in the Indian Ocean. We are 
now about ready to put troops into Iraq. It looks like you are 
surrounded if you are an Iranian hard-liner.
    Senator Nelson. So it would not be surprising then to see 
Iran try to stir up trouble in an occupied Iraq through the 
Shi'ites?
    General Zinni. Iran gets a two-fer here: One, they get rid 
of Iraq as a major threat by us getting in there; and they can 
deal with us by ensuring that we have a lot of trouble and 
problems that discredit us in the region if they can generate 
that in there. So they deal with Iraq and they deal with us if 
they can generate those kinds of problems, and they could 
generate them, not directly in just Iraq, but what they do to 
support terrorist groups that are operating in the Palestinian 
territories and in Israel, to try to draw them in.
    The worst image, my worst nightmare, would be on Al-Jazeera 
TV a picture of American troops in combat fighting Iraqis at 
the same time the IDF is on the West Bank and in Gaza in 
incursions as a reaction to some sort of suicide bombing or 
worse and the images show Israelis and Americans killing Arabs. 
If I were an Iranian or an al-Qaeda or Hamas or Jihad, I would 
be wanting to generate that at the moment that we go in, and 
the effect in the region can be disastrous.
    Senator Nelson. And if the Iranians really wanted to give 
us fits, that is what they would do, is stir up those groups 
such as Hezbollah so that the Americans would have it on two 
fronts.
    General Zinni. Well, the Iranian hard-liners are in trouble 
internally. They are seeing their own internal revolution come 
about. They need to do something to stop that momentum and to 
distract it. Nothing better than a common enemy and to 
mobilize, what Tony Cordesman mentioned, the natural feelings 
in terms of the Arab-Israeli and U.S. involvement. This is a 
chance for them to regain the initiative of the revolution.
    What Tony said was a very important point and would cause 
me to disagree with what Secretary Feith said today. By 
changing the government in Iraq, you do not change the attitude 
on these issues with the people. You know, you are not. And no 
one can succeed in governance by having this sort of pro-
American, pro-Israeli or reasonable approach to the Israelis in 
this environment today. So we would doom anybody that comes in 
with this idea. They may pander to us and say they have it; 
they will not last long in a leadership position with that 
attitude, because that is not the mood of the region right now.
    Mr. Cordesman. Senator, could I make just one comment? I 
think everything General Zinni said is true. But there is one 
ameliorating factor: The Shi'ites of Iran are not Shi'ites 
first. They are Arabs. They are deeply divided. There are mixed 
tribes and clans within the area. Many of them are secular. 
They have a long history of internal divisions along class and 
economic and community lines. They differ with the Iranians on 
a number of aspects of religious practices.
    So Iran's leverage in parts at least of the Shi'ite areas, 
probably even the majority, is more limited than it may appear. 
But that does not mean it is not a threat, as General Zinni 
pointed out.
    Senator Nelson. And an additional threat, Mr. Chairman, 
perhaps that some of these groups that would be stirred up by 
Iran are also resident in the United States in some substantial 
numbers. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Let me just make a summary comment that we have 
demonstrated again how many problems the United States has if 
you are a foreign policy person, or President of the United 
States. These may not have been obvious prior to September 11. 
Perhaps this triggered awareness on the part of the Senate, the 
people, everybody, that there are a lot of problems out in the 
world and a good number have been moving on for quite a long 
while. We may have been oblivious, now that we think of public 
diplomacy, of hundreds of millions of people in the Near East 
or the Middle East. But we are aware of them now.
    My only hope would be that, even though there are so many 
problems, this would not deter Americans from trying to solve 
any of them. Some of the logic that I hear in the debate is to 
suggest that when people are asked in polls whether Iraq is 
more of a problem than North Korea, al-Qaeda, whatever else 
somebody thinks of, perhaps the Israeli-Palestinian thing, you 
can get a real division of opinion. Finally, some come to the 
conclusion that they are all problems and all insoluble. That, 
as Americans, we really find unacceptable.
    So I appreciate the spirit of your testimony today. 
Although you have differing viewpoints about the urgency of 
dealing with Saddam Hussein or Iraq, none of you has argued 
that we ought to be oblivious to this. And furthermore, you 
have offered at least some guidelines that, if it is finally 
the will of our government to proceed either with the United 
Nations, or with a coalition of the willing, that there are 
some things we need to do very swiftly if we are to have some 
measure of success and some modesty with regard to how much is 
achievable in the process.
    So I thank you for the wisdom and the thoughtfulness with 
which you have approached that, as well as your lifetimes of 
service to our country.
    I thank all members for their constancy and all who have 
witnessed 4 hours and 10 minutes of hearings on the future of 
Iraq. The hearing is adjourned.
    [Whereupon, at 1:40 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
